<html>
<title> - [H.A.S.C. No. 112-101] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-101] 

                                HEARING 

                                   ON 

                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2013 

                                  AND 

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS 

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                           FEBRUARY 16, 2012


                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-427 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                Tom MacKenzie, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                    Lauren Hauhn, Research Assistant
                   Emily Waterlander, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, February 16, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Request from the Department of the Navy...     1

Appendix:

Thursday, February 16, 2012......................................    49
                              ----------                              

                      THURSDAY, FEBRUARY 16, 2012
FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Amos, Gen James F., USMC, Commandant of the Marine Corps.........     8
Greenert, ADM Jonathan W., USN, Chief of Naval Operations........     6
Mabus, Hon. Ray, Secretary of the Navy...........................     3

                                APPENDIX

Prepared Statements:

    Amos, Gen James F............................................   123
    Greenert, ADM Jonathan W.....................................    99
    Mabus, Hon. Ray..............................................    56
    McKeon, Hon. Howard P. ``Buck''..............................    53
    Smith, Hon. Adam.............................................    55

Documents Submitted for the Record:

    Annual Report to Congress on Long-Range Plan for Construction 
      of Naval Vessels for FY2013, Prepared by the Office of the 
      Chief of Naval Operations, April 2012......................   157
    ``Operate Forward: Strategic Maritime Crossroads,'' a Navy 
      Chartlet Submitted by ADM Jonathan W. Greenert.............   184

Witness Responses to Questions Asked During the Hearing:

    Mr. Johnson..................................................   190
    Ms. Pingree..................................................   187
    Mr. Rigell...................................................   189

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   194
    Mr. Conaway..................................................   200
    Mr. Forbes...................................................   193
    Ms. Hanabusa.................................................   206
    Mr. Langevin.................................................   193
    Mr. Owens....................................................   206
    Mr. Palazzo..................................................   211
    Mr. Scott....................................................   208
    Mr. Turner...................................................   193
    Mr. Wittman..................................................   202
FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 16, 2012.
    The committee met, pursuant to call, at 1:02 p.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good afternoon, ladies and gentlemen. Thank you for joining 
us today as we consider the President's fiscal year 2013 budget 
request for the Department of the Navy.
    We are pleased to welcome the Secretary of the Navy, the 
Honorable Ray Mabus; the Chief of Naval Operations, Admiral 
Jonathan Greenert, in your first posture hearing before the 
committee as CNO [Chief of Naval Operations]; and General James 
Amos, Commandant of the Marine Corps.
    Thank you, gentlemen, for your service and for your 
leadership, all that you do to help our outstanding sailors and 
marines.
    We clearly understand the challenges the Department of the 
Navy faced in crafting this budget request considering the 
Administration's cuts and the mandates of the Budget Control 
Act of fiscal year 2011.
    The fiscal year 2012 budget request projected the 
construction of 57 new ships from fiscal year 2013 to 2017. 
With this budget request, the shipbuilding procurement account 
was reduced over the same period by $13.1 billion, and the 
number of new construction ships was reduced to 41, a decrease 
of 16 ships or 28 percent over the next 5 years.
    The fiscal year 2012 budget request also projected building 
873 new aircraft and unmanned aerial vehicles for the Navy and 
Marine Corps from fiscal year 2013 to 2017. And with this 
budget request that number has been reduced 13 percent to 763.
    Also, the Marine Corps will decrease in size by 20,000 
marines during the same timeframe.
    Additionally, the Navy will decommission seven cruisers and 
two amphibious ships before the end of their service lives.
    Overall, the Department of the Navy budget request for 
fiscal year 2013 is $155.9 billion, which is $5.5 billion less 
than the fiscal year 2012 budget request and $9.5 billion less 
than the planned fiscal year 2013 request submitted with last 
year's budget request.
    Amidst these dramatic changes to force structure a few 
months ago, the Administration outlined revised strategic 
guidance that would pivot our forces from the land wars of the 
past 10 years to focus more on the Asia-Pacific region, an area 
where naval and seapower is critical.
    This area has close to half the population of the world, 
with certain countries that have invested in the development of 
what is called anti-access, area denial capabilities.
    Our Navy and expeditionary forces are instrumental in 
protecting our national interests in this vital region of the 
world. I am concerned the budget cuts of this significance to 
our Navy and expeditionary forces will increase our risk in 
this theater.
    A couple of weekends ago I had the pleasure and privilege, 
along with some of my colleagues, of seeing our Navy and Marine 
Corps in action by visiting the USS Wasp and the USS Enterprise 
as they participated in Exercise Bold Alligator, the largest 
amphibious exercise conducted in over 10 years.
    It is encouraging to see our Navy-Marine Corps team back 
together after the Marines have necessarily been focused more 
on the land wars in Iraq and Afghanistan.
    One thing is a constant when I go on these trips: Our 
soldiers, sailors, airmen, and marines are the best fighting 
force in the world and they deserve our best support.
    I look forward to your testimony here today.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 53.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I think you have given an excellent summary of the 
challenges facing the Marine Corps and the Navy. And I also 
want to thank General Amos and Admiral Greenert for their great 
service to our country and their great leadership.
    And this is a period of transition. I want to thank all of 
you for your work on putting together a strategic review to 
take a look at how our national security needs had changed and 
what our new strategy should be. A lot has changed in the last 
10 years, and it has certainly made sense to have the top 
leadership at the Pentagon get together and look at those 
changes and to figure out what the best strategy to meet our 
national securities needs should be.
    And I compliment all of you for participating in that 
process and for the quality of the document that you produced. 
You have definitely put together a budget that lays out a clear 
strategy and then spends the money to match that strategy.
    Now, it is not easy, primarily because you can never be 
guaranteed what challenges are going to come. There is always a 
certain amount of uncertainty. The best you can do is manage 
that risk. But I truly believe that the plan that you put forth 
does the best job of doing that that we could do in our 
uncertain world.
    I am particularly interested in the new laydown, the shift 
in the focus to the Asian theater, as has been mentioned; what 
that means in terms of your ships, where they are going to be, 
how they are going to move to meet that challenge, and in 
particular, how that is going to impact Guam. As an American 
territory, we are particularly concerned about what is going to 
happen with the basing there.
    I know some changes have been made. I understand that the 
plans that we initially revealed 6 years ago did not work out, 
in large part, because of the costs accelerated to an 
unacceptable level. And new plans have been--in place, but I am 
very interested in how you intend to carry out those new plans.
    And continue to work with the nation of Japan on what their 
acceptance is going to be on where we can station our marines 
in Okinawa and--or on the mainland of Japan.
    But overall, I think you have done a great job. I look 
forward to your testimony. I think, as I said, the chairman did 
a great job of summarizing what the challenges are, and I look 
forward to the hearing today, questions from our members, and 
your testimony.
    Again, thank you for your service, and thank you for 
putting together an excellent plan for our national defense.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 55.]
    The Chairman. Thank you.
    As I mentioned earlier, we have the Honorable Ray Mabus, 
Secretary of the Navy; the Admiral Jonathan Greenert, Chief of 
Naval Operations; General James F. Amos, United States Marine 
Corps Commandant.
    Gentlemen, thank you very much for the service you have 
provided for many, many years to this Nation. And for the 
people that serve with you, thank them for us, please.
    Secretary Mabus.

       STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

    Secretary Mabus. Thank you, Mr. Chairman.
    Mr. Chairman, Congressman Smith, members of the committee, 
the pride that the Commandant of the Marine Corps, General Jim 
Amos, the Chief of Naval Operations, Admiral Jon Greenert, and 
I take in leading the dedicated sailors, marines, and civilians 
in the Department of the Navy who selfishly serve the United 
States is exceeded only by the accomplishments of these brave 
individuals.
    Whatever is asked of them by the American people through 
their Commander in Chief, from Afghanistan to Libya, from 
assisting the stricken people of Japan, to assuring open sea 
lanes around the world, from bringing Osama bin Laden to final 
justice, to bringing hostages out of wherever they may be 
hidden by terrorists or pirates, they answer the call, they get 
the mission done.
    The CNO, the commandant, and I are confidence the United 
States Navy and Marine Corps are well-prepared to meet the 
requirements of the new defense strategy and maintain their 
status as the most formidable expeditionary fighting force the 
world has ever known. No one should ever doubt the ability, 
capability, or superiority of the Navy and Marine Corps team.
    As we reposition after two long ground wars, it was 
essential to review our basic strategic posture. The new 
guidance, developed under the leadership of the President and 
the Secretary of Defense, with the full involvement of every 
service secretary and every service chief, responds to changes 
in global security.
    The budget presented to implement this strategy, which was 
also arrived at through full collaboration of all the Services, 
ensures that the Navy and Marine Corps will be able to fully 
execute this strategy while meeting the constraints imposed 
under the congressionally passed Budget Control Act.
    This new strategy has an understandable focus on the 
Western Pacific and Arabian Gulf region, as you mentioned, Mr. 
Chairman, while maintaining our worldwide partnerships and our 
global presence using innovative, low-cost, light footprint 
engagements. It requires a Navy-Marine Corps team that is built 
and ready for any eventuality on land, in the air, on and under 
the world's oceans, or in the vast cyber seas, and operated 
forward to protect American interests, respond to crises, and 
to deter or if necessary win wars.
    The impact of two ground wars in the last decade on our 
Navy fleet and force is unmistakable. A fleet that stood at 316 
ships and an end-strength of over 377,000 sailors on 9/11/2001 
dropped to 283 ships and close to 49,000 fewer sailors just 8 
years later when I took office.
    This Administration has made it a priority to rebuild our 
fleet. Despite the budget constraints imposed under the Budget 
Control Act, our plan assures that we will have no fewer ships 
at the end of this 5-year budget cycle than we have today, 
although the fleet of 2017 will include more capable ships, 
equipped with state-of-the-art technology and manned, as 
always, by highly skilled personnel.
    Although we are presenting one 5-year budget plan, one FYDP 
[Five-Year Defense Plan], this is certainly not a one-FYDP 
issue. As the defense strategy states, we are building a force 
for 2020 and beyond.
    In the years beyond our current FYDP, we have a plan to 
grow our fleet and ensure capacity continues to match missions. 
In fact, our plan will once again have us cross the threshold 
of 300 ships by 2019.
    Overall, we will fully meet the requirements of the new 
strategy and maintain the industrial base we need.
    The Marine Corps will also return to its maritime roots, 
resume its traditional role as the Nation's expeditionary force 
in readiness. Our marines will retain the lessons of a decade 
of hard and effective fighting in Iraq and Afghanistan as they 
transition back to a middleweight amphibious force, optimized 
for forward presence, engagement, and rapid crisis response.
    We will carefully manage the reduction in Active Duty end-
strength from 202,000 to 182,100 by the end of fiscal year 2016 
in order to keep faith with our marines and their families to 
the maximum extent possible.
    This restructured Marine Corps, reached through a plan that 
was arrived at after a year-and-a-half of careful study will be 
smaller, but it will be fast. It will be agile. It will be 
lethal. The number of marines in certain critical jobs like 
Special Forces and Cyber will be increased and unit manning 
levels, and thus readiness, will go up.
    Both the Navy and Marine Corps will continue to decrease 
operational vulnerabilities in ways that are cost-efficient. 
That means we will maintain our efforts to reduce our 
dependence on foreign oil and to use energy more efficiently. 
These efforts have already made us better warfighters.
    By deploying to Afghanistan with solar blankets to charge 
radios and other electrical items, the Marine patrol dropped 
700 pounds in batteries from their packs and decreased the need 
for risky supply missions. Using less fuel in-theater can mean 
fewer convoys, which saves lives. For every 50 convoys we bring 
in fuel, a marine is killed or wounded. That is too high a 
price to pay.
    We all know the reality of a global, volatile oil market. 
Every time the cost of a barrel of oil goes up $1, it costs the 
Department of the Navy $31 million in extra fuel cost. These 
price spikes have to be paid for out of our operational funds. 
That means that our sailors and marines steam less, fly less, 
and train less.
    For these reasons, we have to be relentless in our pursuit 
of energy goals that will continue to make us a more effective 
fighting force and our military and our Nation more energy 
independent.
    As much as we have focused on our fleet's assets of ships 
and aircraft, vehicles, submarines; they don't sail or fly or 
drive or dive without the men and women who wear the uniform 
and their families. They have taken care of us. They have kept 
the faith with us. We owe them no less.
    The commitment to sailors, marines, and their families is 
there whether they serve 4 years or 40. It begins the moment 
they raise their hand and take the oath to defend our Nation. 
It continues through the training and education that spans 
their career. It reaches out to their loved ones because it is 
not just an individual who serves, but an entire family.
    It supports our wounded warriors with recovery, 
rehabilitation, and re-integration. It continues with 
transition services for our veterans to locate new jobs and the 
GI Bill for their continued education or to transfer for a 
family member's education.
    The list goes on and on and on as it should. Our commitment 
to our sailors and marines can never waver. It can never end. 
For 236 years from sail to steam to nuclear, from the USS 
Constitution to the USS Carl Vinson, from Tripoli to Tripoli, 
our maritime warriors have upheld a proud heritage, protected 
our Nation, projected our power, and provided freedom of the 
seas. In coming years, this new strategy and our plans to 
execute that strategy will assure that our naval heritage not 
only perseveres, but that our Navy and Marine Corps continue to 
prevail.
    Thank you, Mr. Chairman and members of the committee.
    [The prepared statement of Secretary Mabus can be found in 
the Appendix on page 56.]
    The Chairman. Thank you, Mr. Chairman.
    Admiral.

     STATEMENT OF ADM JONATHAN W. GREENERT, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Greenert. Chairman McKeon, Ranking Member Smith, 
distinguished members of the committee; it is my honor to 
appear for the first time before you to discuss the Navy's 
budget submission. Because of the dedication of our 625,000 
active and Reserve sailors and civilians, and their families, 
the Navy and our primary joint partner, the U.S. Marine Corps, 
remain a vital part of our national security. I am honored to 
serve and lead the Navy in these challenging times and I thank 
you and this committee for your continued support.
    I would like to make three short points here today: the 
Navy's importance to our Nation's security; the enduring tenets 
and the priorities that have guided my decisions since I have 
been the chief; and how these tenets and these priorities have 
shaped Navy's budget submission.
    Today, our Navy is the world's preeminent maritime force. 
Our global fleet operates forward from U.S. bases and partner-
nation places around the world to deter aggression, respond to 
crises, and when needed and when called upon, win our Nation's 
wars. If you refer to the chartlet in front of you, you can see 
that on any given day we have about 50,000 sailors and 145 
ships underway, with about 100 of those ships deployed 
overseas.
    [The information referred to can be found in the Appendix 
on page 184.]
    Admiral Greenert. Because we ensure access to what I refer 
to as the maritime crossroads, where shipping lanes and our 
security interests intersect, we can influence events abroad 
and advance the country's interests. These crossroads are 
indicated by what might be orange bow ties, or if you are 
mechanically inclined, valve symbols on the chartlet.
    For example, in the Middle East, we have 30 ships and more 
than 22,000 sailors at sea and ashore. They are combating 
piracy, supporting operations in Afghanistan, assuring our 
allies, and maintaining a presence in the region to deter or 
counter destabilizing activities. These forces rely on 
facilities in Bahrain, our U.S. partner for 6 decades.
    In the Asia-Pacific, we have about 50 ships supported by 
our base on Guam and our facilities or places in Singapore, the 
Republic of Korea, and Japan. In the Indian Ocean, we depend on 
Diego Garcia, with a fleet-tender stationed there and an 
airfield for ship repair and logistics support.
    Around the Horn of Africa, we depend on the airfield and 
the port in Djibouti to support our forces conducting 
counterterrorism and counter-piracy operations. And in Europe 
we rely on places in Spain, Italy, and Greece to sustain our 
forces forward in support of our NATO [North Atlantic Treaty 
Organization] allies. In our own hemisphere, our port and 
airfield at Guantanamo Bay will grow more important in the next 
several years as the Panama Canal is widened.
    When I assumed the watch as the Chief of Naval Operations, 
I established three key principles for our decisionmaking. I 
call them tenets. To me, they are clear, unambiguous direction 
for our Navy leadership. They are warfighting first, operate 
forward, and be ready. These are very much in my calculus to 
reduce the risk in our ability to meet our assigned missions.
    Warfighting first. That means the Navy has to be ready to 
fight and win today, while building the ability to win 
tomorrow. This is our primary mission and all our efforts must 
be grounded in this fundamental responsibility.
    Iran's recent provocative rhetoric highlights the need for 
us to have a forward-deployed warfighting capability. In our 
fiscal year 2013 budget submission, we redirected funding 
toward weapons, systems, sensors and tactical training that can 
be more rapidly fielded to the fleet. Including in there were 
demonstrators and prototypes that could quickly improve our 
force's capabilities.
    Operate forward. That means we will provide the Nation an 
offshore option to deter, influence, and win in an era of 
uncertainty. Our ability to operate forward depends on our 
bases and what I call places overseas where we can rest, 
repair, refuel, and resupply. Our fiscal year 2013 budget 
submission supports several initiatives to establish our 
forward posture, including placing forward-deployed naval force 
destroyers in Rota, Spain, forward-stationing Littoral Combat 
ships in Singapore, and patrol coastal ships in Bahrain.
    We are also collaborating with the Marine Corps, and I am 
working with the Commandant, to determine the support and the 
lift needed for marines to effectively operate forward in 
Darwin, Australia, in the future.
    Be ready. That means we will harness the teamwork, the 
talent, and the imagination of our diverse force to be ready to 
fight and responsibly use our resources. This is more than 
completing required maintenance and ensuring parts and supplies 
are available. Being ready also means being proficient, being 
confident with our weapons and sensors, our command and 
control, our communications, and our engineering systems as 
well.
    Applying these tenets that I just discussed to meet the 
defense strategic guidance, we built our 2013 budget submission 
while following three priorities. First, we will remain ready 
to meet our current challenges today. Consistent with the 
defense strategic guidance, I will continue to prioritize 
readiness over capacity and focus our warfighting presence on 
the Asia-Pacific and the Middle East.
    Priority two, we will build a relevant and capable future 
force. Our Navy will evolve to remain the world's preeminent 
maritime force, and our shipbuilding and aircraft construction 
investments will form the foundation for that future fleet.
    In developing our aircraft and ship procurement plans, we 
focused on three approaches: sustain the serial production of 
today's proven platforms, including the Arleigh Burke 
destroyers, Virginia class submarines and the Super Hornet. 
Two, we will promptly field new platforms in development such 
as the Littoral Combat Ship, the Joint Strike Fighter, the Ford 
class aircraft carrier, the P-8A Poseidon aircraft, and the 
America class amphibious assault ship.
    And number three, improve the capability of today's 
platforms through new weapons, sensors, unmanned vehicles, 
including the Fire Scout, the Fire-X, and the advance missile 
defense radar. New weapons, sensors and unmanned systems will 
allow us to project power despite threats to access, as 
described in the new defense strategic guidance.
    Although these systems will enable our continued dominance 
in the undersea environment, cyberspace presents a different 
set of challenges. Our 2013 budget submission supports our goal 
to operate effectively in cyberspace and fully exploit the 
electromagnetic spectrum.
    Priority three, we will enable and support our sailors, 
civilians, and their families. I am extremely proud of our 
people. We have a professional and a moral obligation to lead, 
to train, to equip, and to motivate them. Our personnel 
programs deliver a high return on investment in readiness. We 
fully funded our programs to address operational stress, 
support families, eliminate the use of synthetic drugs like 
spice, and aggressively prevent suicides and sexual assaults.
    I support the compensation reforms included in the Defense 
Department's 2013 budget submission, which I believe are 
appropriate changes to manage the costs of the all-volunteer 
force.
    In closing, Mr. Chairman, your Navy will continue to be 
critical to our Nation's security and prosperity by assuring 
access to the global commons and being at the front line of our 
Nation's effort in war and in peace.
    I assure the Congress and this committee and the American 
people that we will be focused on warfighting, we will be 
operating forward, and we will be ready. With your support, I 
am sure we will be successful. Thank you.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 99.]
    The Chairman. Thank you, Admiral. General.

STATEMENT OF GEN JAMES F. AMOS, USMC, COMMANDANT OF THE MARINE 
                             CORPS

    General Amos. Chairman McKeon, Ranking Member Smith, 
members of the committee, I am pleased to speak to you today 
again on behalf of the United States Marine Corps. As we sit 
today in this chamber, 30,000 marines are forward-deployed 
around the world defending our Nation's liberty, shaping 
strategic environments, engaging with our partners and allies, 
ensuring freedom of the seas, and deterring aggression.
    Over the past year, the forward presence and crisis 
response of America's marines, working in concert with our most 
important joint partner, the United States Navy, has created 
opportunities and provided decision space for our Nation's 
leaders.
    Your marines were first on the scene to provide 
humanitarian assistance and disaster relief in Japan in the 
aftermath of last year's monumental natural disasters, the 
first to fly air strikes over Libya. They evacuated 
noncombatants from Tunisia and reinforced our embassies in 
Egypt, Yemen, and Bahrain.
    While accomplishing all of that, your Corps continued 
sustained combat and counterinsurgency operations in 
Afghanistan. Having just returned last Wednesday from visiting 
many of the nearly 20,000 marines and sailors deployed there, I 
can tell you firsthand that their professionalism and morale 
remain notably strong. There is an indomitable spirit displayed 
in all that they do. Their best interests and the needs of all 
of our forces in combat remain my number one priority.
    History has shown that it is impossible to predict where, 
when and how America's interest will be threatened. Regardless 
of the global economic strain placed on governments and their 
military forces today, crises requiring military intervention 
will undoubtedly continue tomorrow and in the years to come.
    As a maritime nation, dependent on the sea for the free 
exchange of ideas and trade, America requires security both at 
home and abroad, to maintain a strong economy, to access 
overseas markets, and to assure our allies.
    In an era of fiscal constraint, the United States Marine 
Corps is our Nation's best risk mitigator, a certain force 
during uncertain times, one that will be the most ready when 
the Nation is the least ready.
    There is a cost to maintaining this capability, but it is 
nominal in the context of the total defense budget and provides 
true value to the American taxpayer. This fiscal year I am 
asking Congress for $30.8 billion, 8 percent of the DOD budget. 
Your continued support will fund ongoing operations around the 
world, provide quality resources for our marines, sailors, and 
their families. It will reset equipment that is worn out from 
10 years of war, and lastly, it will posture our forces for the 
future.
    When the Nation pays the sticker price for its marines, it 
buys the ability to respond to crises anywhere in the world 
with forward-deployed and forward-engaged forces.
    This same force can be reinforced quickly to project power 
and to contribute to joint assured access anywhere in the world 
in the event of a major contingency. No other force possesses 
the flexibility and the organic sustainment to provide these 
capabilities.
    As our Nation begins to direct its attention to the 
challenges and opportunities of the post-Afghanistan world, the 
world where the Middle East and the Pacific rightfully take 
center stage, the Marine Corps will be ever-mindful of the 
traditional friction points in other regions and prepare to 
respond as needed and as directed by the President.
    The strategic guidance directs that we rebalance and reset 
for the future. We have a solid plan to do so and we have begun 
execution already. We will train and educate our marines to 
succeed in the increasingly complex and challenging world of 
the 21st century. In doing so, we will not deviate from 
consistency in the five principles so critically important to 
the continued success of our Nation's Corps.
    Number one, we will recruit high-quality marines. Number 
two, we will maintain a high state of unit readiness across the 
Corps. Three, we will balance capacity with strategic 
requirements. Four, we will ensure that our infrastructure is 
properly cared for and tended. And lastly, we will be 
responsible stewards of our equipment modernization effort.
    As we execute a strategic pivot, I have made it a priority 
to keep faith with those who have served during the past 10 
years of war. Through judicious choices and forward planning, 
ever-mindful of the economy in which we live, we have built a 
quality force that meets the needs of our Nation.
    By the end of fiscal year 2016, your Corps will be 
streamlined to 182,100 marines. This Active Duty force will be 
complemented by the diverse depth of our operational Reserve 
Component that will remain at 39,600 strong.
    Our emerging Marine Corps will be optimized for forward 
presence, engagement and rapid crisis response. It will be 
enhanced by critical enablers, special operators, and cyber 
warfare marines, all necessary on the modern battlefield.
    To build down the Marine Corps from its current end 
strength of 202,000, I will need the assistance of Congress for 
the fiscal resources necessary to execute the drawdown at a 
measured and responsible rate of approximately 5,000 marines a 
year, a rate that guards against a precipitous reduction that 
would be harmful to our Corps.
    As we continue to work with our Nation's leadership and my 
fellow joint partners, you have my assurance that your Corps 
will be ever-faithful in meeting our Nation's need for an 
expeditionary force in readiness, a force that can respond to 
today's crisis with today's force today.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of General Amos can be found in the 
Appendix on page 123.]
    The Chairman. Thank you very much for your testimony.
    I understand when we came back after the last election for 
this Congress, that there was broad support to cut our spending 
here in Washington. And there was a cry that everything had to 
be on the table, including defense.
    I thought that that was reasonable. With a budget the size 
of ours, if we couldn't find some savings, I felt like we 
should be ashamed of ourselves. But I think that the amount 
that we are cutting is the edge of too much, the budget that we 
are dealing with at this point.
    But the thing that I really worry about every single day--
it seems like all day--is sequestration. Now, I know that that 
is out of your hands to control that, but I have some questions 
about it.
    General, Admiral, I would like to know, sequestration at 
this point is the law and it kicks in January 1st of 2013. We 
were told when we passed the Deficit Reduction Act that the 
sequestration would be so onerous that we wouldn't have to 
worry about it coming into effect.
    Well, we see that the ``super committee'' [Joint Select 
Committee on Deficit Reduction] wasn't able to accomplish their 
work; no further cuts, nothing was done about entitlements or 
about the part of the budget that is the real problem.
    We know, I think, if we cut all of the defense budget, if 
we cut all of the discretionary spending, we would still be 
running a deficit of about half trillion dollars a year. But 
that is behind us now. They didn't do their work. What is ahead 
of us is the sequestration.
    And the way it is set up, as you pointed out, Mr. 
Secretary, you have had months to plan and prepare for these 
cuts that were going through the budget--right now.
    But the sequestration is just an across-the-board whack. 
And when we had a briefing--you were here, I guess it was a 
couple weeks ago--the question was asked of Dr. Carter, ``What 
are you doing, what are you planning for sequestration in 
January?'' He said it doesn't require any planning because it 
is just--everything is cut evenly. We just have to take out the 
budget, go line by line and just cut everything 8 percent, 9 
percent--however it works out.
    My question is, at what point do you start doing something 
about this? You, I know, are not going to wait till January 1st 
to take action on this.
    Admiral, General, when do you start putting into place 
things that are going to take effect January 1st next year?
    Admiral Greenert. Mr. Chairman, as you may know, the Office 
of Management and Budget has directed the Department not to 
plan for sequestration, and so as you stated we are not at this 
time.
    But as we discussed in briefings with this committee and 
others, sometime late this summer, if there is no other action 
or direction, step one for us would be, as we think toward the 
next budget, we need to think about our strategy and we would 
be giving that some thought, as Dr. Carter indicated in his 
briefings.
    But beyond that, our direction has been not to plan for 
such occurrence.
    The Chairman. Boy, I think that--I understand you--you 
follow orders, but to my way of thinking, to say don't even 
think about it, don't plan when we know that it is the current 
law.
    I know I have talked to leaders of industry, those that 
build the planes and the ships and the things--they are 
instituting programs, they are going to be laying people off. 
They have to.
    I think it is totally irresponsible to put you in a 
position by command that you can't think about it. I understand 
that it is going to be very tough implementing all of these 
budget cuts that we are doing right now, but the way--the 
Congress has been, our track record isn't good. It doesn't look 
good that we will fix this. And I would hope that the 
Administration would focus on this and would do something about 
fixing it prior to January 1st.
    General.
    General Amos. Chairman, I echo my colleague's exact 
response. If I can make a couple of anecdotal comments.
    It will be very difficult to plan for it right now because 
if sequestration came about we would end up likely going back 
in and having to redo a complete new strategy. That would then 
eventually shape the outcome of the budget.
    We don't know whether it is--what will happen. OMB [Office 
of Management and Budget], it is my understanding that OMB will 
tell us the percentage of reductions within sequestration if it 
hits. It could be somewhere between 10 and 20 percent.
    My budget is $24 billion, if you don't include the OCO 
[Overseas Contingency Operations]. So if you just take $10 
billion--or 10 percent out of that,that is $2.4 billion. So 
immediately you start getting a sense of the impact for--on an 
annual basis--for your Marine Corps. The President could also 
exclude, it is my understanding, personnel. When we built the 
strategy--and certainly I think I can speak for all the Service 
Chiefs--to avoid a hollow force, and we talked capacity 
earlier, we balanced capacity with capability as we fleshed out 
the strategy. And we have that force that is not hollow.
    If personnel is excluded from sequestration, that is a 
recipe for a hollow force. That means you maintain--I maintain 
182,000 marines and I have to dial down my other two areas in 
procurement and operations and maintenance. That is equipment, 
that is modernization, and it is the ability to train and 
educate marines.
    So it would--at this point it would be nearly impossible to 
guess what it would be. If it was balanced across all three of 
those accounts and personnel was not sequestered off the side, 
we still wouldn't know until Congress.
    So it is a near-impossible situation for us. I will tell 
you that the impact of sequestration, we will have a reduced 
forward presence, it will be a refined strategy as we know it 
today. And I think it is certainly going to stagnate reset on 
my part in the Marine Corps. I mentioned in my opening comments 
10 years of combat. The equipment that is in Afghanistan today 
came from Iraq. It came from Iraq. It will stagnate the ability 
to reset that force.
    The Chairman. You had the opportunity I know before, we 
have it in the record, of when we had a hearing in September 
where you also testified on this.
    Admiral.
    Admiral Greenert. Mr. Chairman, I was just going to say, 
you know, we talk about planning. That is one thing. If you 
say, ``Well, are you going to do when it comes?'' there will 
come a time when, in order to prevent devastation, which is 
what happens when you just algorithmically apply all this to 
every single account, can't do it with a 0.87 ship, a 0.87 
salary, there will come a time when in order to take care of 
our people--and we will start with people--that is logically 
how we will do this, to be sure they get paid and they are 
cared for and all that.
    So that is the execution part, to sustain contracts, to do 
the best we can if there is an algorithmic application. That 
time will come, probably in the summer. We do contingency 
planning. That is in our DNA in the military.
    The Chairman. I just see this as catastrophic, the upheaval 
that it will cause throughout our whole defense system.
    Mr. Secretary, how many contracts do you have on things 
that you--that you buy? Just estimate.
    Secretary Mabus. I can tell you pretty exactly the value of 
the contracts.
    The Chairman. No, I want to know how many individual 
contracts.
    Secretary Mabus. That I can't tell you.
    The Chairman. In the thousands?
    Secretary Mabus. Yes, sir.
    The Chairman. Would those have to all be rewritten at that 
time?
    Secretary Mabus. My understanding of sequestration is 
everything gets hit.
    The Chairman. Yes. And it would be 8 percent. And if the 
President's takes out the personnel, then it is 12 percent.
    But every contract, to my understanding, would have to be 
rewritten, renegotiated January 1st, next year. I mean, if we 
really focus in and see what an irresponsible position we have 
put ourselves in, this is--I am going to ask each of the 
Service Chiefs this question, each of the Secretaries, because 
I want the country to understand where we are heading. We are 
going right off a cliff. And we better, all of us, wake up and 
do something about fixing that before.
    Our normal year, a normal Presidential election year, we 
leave about the end of September to go home and campaign. We 
generally come back to finish up unfinished things. But if this 
election is anything like the last election, total upheaval. If 
the Senate changes hands there is what--who is going to want to 
fix anything from November to the end of December. And the new 
Congress isn't sworn in till after January 1st. The new 
President isn't sworn in till January 20th. And you are going 
to be having to deal with those things January 1st.
    Thank you very much for your service.
    Mr. Smith.
    Mr. Smith. Doesn't have to be a new president, Mr. 
Chairman. I just want to throw that out there. I know it was 
just turn of a phrase, but anyway.
    No, you said the new president will be sworn in on January 
20th. I had to point out it doesn't have to be a new one, just 
for balance's sake. But that is just a joke, Mr. Chairman, 
don't worry about it.
    Well, thank you. In my opening remarks, I want to thank 
Secretary Mabus also for naming the Littoral Combat Ship after 
Congresswoman Giffords. Those of us who have served with her on 
this committee know that that honor is richly deserved, and we 
thank you for doing that. She, you know, served on this 
committee her entire 4 years in Congress and was incredibly 
dedicated to the military. I had the privilege of traveling 
with her to Iraq and Afghanistan, variety of other places where 
our troops were stationed. She was absolutely dedicated to our 
military during her service in Congress. I think this is a very 
appropriate honor and I very much on behalf of the committee 
want to thank you and appreciate you doing that.
    I do share the Chairman's concerns about sequestration. I 
think it is just not debatable that it would be devastating. 
The number alone is entirely too big and the way that it is 
done, as I think the Chairman did an excellent job of 
describing, is just unworkable and unmanageable. You know, at 
an absolute minimum we would have to come back in and change 
that, to at least give you some flexibility in terms of how you 
would implement it.
    But I do think that we need to sound that alarm more loudly 
that we must prevent this. Now, it is possible and I think 
highly likely, actually, that we would come in, in December, 
and find a way to avoid sequestration. For one thing, $4.2 
trillion worth of tax cuts also expire, kick in on January 1. 
That more than gets us to the $1.2 trillion.
    But we don't want to do that, and I think what we need you 
gentlemen to do and what this committee needs to do is to point 
out that even if at the absolute last second, as we are want to 
do around here, we avoid catastrophe, it would still be a 
disaster. The planning, the efforts to try to figure out, well, 
is it happening, is it not happening, as the Chairman pointed 
out, you know, contractors are going to be laying off people, 
not hiring people, we really need to step up the pressure and 
let people know that we need to do something to prevent 
sequestration.
    Now, the something that we need to do is to find $1.2 
trillion in savings over the course of 10 years. There has been 
a few ideas put out by Mr. McKeon, by Senator McCain, by the 
President. In his budget he finds $3 trillion in savings, which 
would avoid sequestration.
    We really need to find a way to come together. You know, a 
constituent suggested something to me several months ago just 
off the top that is sounding better and better, and that was, 
you know, it is $1.2 trillion, if the Democrats and Republicans 
can't agree on it, okay, Republicans, you get to find $600 
billion, Democrats, you get to find $600 billion, agree on it, 
and let's go.
    But whatever it is that we do, we need to find that 
solution. The only two minor amendments I would make--well, not 
so minor actually--is I think we are actually headed towards 
two different cliffs on this one. Certainly sequestration is a 
cliff, but so is the sheer size of our debt and deficit. I know 
not everybody agrees on that point, but fiscal year 2011 we 
spent $3.6 trillion, we took in $2.3 trillion. That is a $1.3 
trillion gap and I think the third consecutive year of 
trillion-dollar deficits.
    That, too, is a threat to our national security and we have 
to find a way to confront that. So simply finding a way to once 
again avoid that cliff, to say, ``Well, we are just not going 
to do sequestration,'' to avoid the sequestration cliff and 
then ignoring the debt and deficit cliff I don't think is a 
reasonable option. And I do think the $487 billion in savings 
over 10 years is a very reasonable number. I think you 
gentlemen have proven that with the strategy and the plan that 
you have put together.
    I will point out again it is not actually a cut, it is a 
decrease in the projected increase over the course of those 10 
years. So I think it certainly ought to be manageable.
    But I will have a stronger note of agreement with the 
Chairman today than we had yesterday and simply focus on the 
fact that we agree that sequestration must be avoided. We must 
sort of raise the alarm on how big a problem this is and how 
unacceptable it is to wait until December and then address it 
at the last minute. You know, I just wanted to add that comment 
and support the Chairman that we need to do something about 
sequestration. I don't have any questions. I have had the 
opportunity to speak with all of you and had those questions 
answered very adequately. I will yield my time. Thank you.
    The Chairman. Just one comment. Actually in the plan that 
was given to us we do show 3 percent negative growth over the 
next 5 years. So it is a cut.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, Admiral and General for 
joining us today.
    And I am going to follow a little bit the pattern of what 
we have heard because I don't think it can be emphasized 
enough. And what you have come here today with is essentially a 
10-percent cut across the board for all of the Department of 
Defense. And so you were given a number, you had to manage to 
that and try and come up with the best force you could given 
the money you had.
    But that is not talking about the elephant that is in the 
room, which is another 10-percent cut with no flexibility as to 
how you are going to manage that. That is what we call 
sequestration.
    And you have said that you are just following orders. The 
orders were don't plan for it right now. And I think there 
isn't any way to plan for sequestration because it is just a 
disaster and administratively it is impossible to do.
    But I guess the thing that concerns me is, is that I don't 
sense here on the Hill a commitment from everybody to turn that 
sequestration around.
    And so I would charge all three of you, I believe you--does 
anybody disagree that this would be a disaster for our defense, 
to have another 10 percent through a sequestration, isn't that 
a mess? That would be a mess unlike anything you have seen in 
your military service probably? Is that correct? I don't mean 
to put words in your mouth, I just--you have already said this, 
I just--okay.
    So I thought, in terms of questions, I wanted to start 
there, just make it absolutely clear for the record that this 
is intolerable and that this is highly destructive to our 
ability to keep America secure.
    Is that where we are? Mr. Secretary? I want to hear a 
resounding, ``Yeah, I don't want to do sequestration.''
    Secretary Mabus. Yes, sir, you will get a resounding yeah, 
that we do not want to do sequestration----
    Mr. Akin. Right.
    Secretary Mabus [continuing]. Not only in the amount it 
takes out, but also in the----
    Mr. Akin. Method.
    Secretary Mabus [continuing]. Flexibility.
    Mr. Akin. Yes. Right. Okay.
    Now, let's take a look at where the Navy came out. We took 
about a 10-percent cut in defense overall. Was your overall 
budget cut about 10 percent also with what you are showing us 
today is how you are working this out? Or did you take a little 
less than that?
    Secretary Mabus. We went down from fiscal year 2012 of $157 
billion to $155 billion. So we did not take a 10-percent cut, 
sir.
    Mr. Akin. Say those numbers again, please.
    Secretary Mabus. In fiscal year 2012 the Department of the 
Navy got $157 billion. That is not counting OCO. And for our 
fiscal year 2013 request, it is $155.9 billion, so almost $156 
billion.
    Mr. Akin. So I guess my sense is correct then because it 
looks to me like what you are--what you put together here for 
the Navy and the Marine Corps appears to me, if I had to sit in 
your shoes and I had to make the cuts that you are talking 
about doing, it seems to me I think I would have tended to go 
the same way you did in terms of what you retire and what you 
are trying to build and trying to balance that all out.
    But your cut was not--clearly not a 10-percent cut, it was 
quite a bit less than that. Is that correct?
    Secretary Mabus. Yes, sir.
    Mr. Akin. Okay. And consequently what you are talking about 
you are really keeping up with the number of aircraft carriers, 
you are keeping up with the number of destroyers that were 
planned to be built pretty much, keeping up with Littoral 
Combat Ships, that is pretty much on track. Submarine you are 
staying pretty much even what we are talking about. Is that 
correct?
    Secretary Mabus. Yes, sir. We had to move one Virginia 
class submarine from 2014 outside the FYDP to 2018. We had to 
move two Littoral Combat Ships from 2016 and 2017 outside the 
FYDP, but we remain committed to the 55 build of that and to 
the 11 carriers, as you mentioned.
    Mr. Akin. Right. Okay.
    The concern about the Ohio class, we didn't really have a 
good solution for that in the budget before, and it becomes an 
even less good solution now when we starting looking beyond 
just the FYDP and you start looking at where we have to start 
paying for that. Is that correct?
    Secretary Mabus. Yes, sir. We have brought the cost down 
from about $7 billion to about $5 billion a boat now. And as 
you know, we have slipped the construction date 2 years for the 
beginning of that class. But when that class is being built it 
will clearly have a major impact on the rest of our 
shipbuilding program.
    Mr. Akin. Good. Well, I appreciate what you have done and--
--
    The Chairman. The gentleman's time has expired.
    Mr. Akin [continuing]. Thank you for doing the best you 
could with what you had.
    The Chairman. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, and General, welcome and thank you 
for being here with us.
    Mr. Secretary, I wanted to echo my thanks to you for naming 
ships celebrating the great diversity of our country, 
especially most recently Sergeant Rafael Peralta, who I know my 
colleague Duncan Hunter recommended. We very much appreciate 
that, and also naming a ship after Cesar Chavez. He was a World 
War II veteran who one of my uncles that actually served and 
participated on D-Day actually knew. And I remember him telling 
me that the Navy then was much different than it is today for 
Mexican-Americans. So I appreciate you doing that.
    And also thanks for naming ships after Jack Murtha, who 
cared so much about all our military, but especially the Marine 
Corps, and certainly deserved that great honor, as well as our 
good friend and colleague Gabby Giffords.
    So I just wanted to add my thanks to you, Mr. Secretary. I 
know you took a bit of heat, but it is I think a testament to 
recognizing that diversity is this country's greatest strength 
and I appreciate what you have done.
    I wanted to ask a question on the V-22s, General Amos. I 
will tell you up front I am concerned about cutting back the 
Marine Corps, just like I am about cutting back the Army in 
terms of the threats that we face. I recognize that some cuts 
need to be made, but I just want to express that concern.
    But as it relates to the V-22s, according to the 
information that I have, the budget shows cuts to the V-22 
production of about 10 a year. And the total number of V-22s 
for the Marine Corps going down to or--by those 10 or are those 
purchases just simply being delayed?
    General Amos. Congressman, the program of record for the V-
22 has always been 360, for many, many years. We have--out of 
this FYDP we slid to the right, just outside the FYDP, 24 
tails. We are still going to buy those airplanes, it just 
became a function of trying to balance ourselves and balancing 
the needs with the wants and--or the ability to pay for it.
    So we are still going to buy those V-22s. They are 
performing magnificently. I flew all over Afghanistan last week 
in them. Marines love them. And they have doing very, very 
well.
    So it is a strong program and we intend to buy all 360, 
sir.
    Mr. Reyes. So the Marine Corps is not planning on 
eliminating any of the V-22 squadrons under this plan?
    General Amos. We are not, sir.
    Mr. Reyes. Okay. That is great news. And I just--I visited 
in Afghanistan the last time with the Chairman. We were flown 
around in the V-22s. You are absolutely right, the marines love 
them. They are a great aircraft, from everything that I have 
seen, both here in this country and also deployed under wartime 
conditions. So I just wanted to make sure we weren't cutting 
those aircraft out.
    So with that, thank you. Thank you all for the work that 
you do.
    And, Mr. Chairman, I yield back the balance of my time.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Secretary, this is a copy of the much-heralded new 
strategy. It is about eight pages long. And one of the things 
that we know very clear is that that is been driven by the 
budget. The Secretary of Defense said yesterday he was given 
about $487 billion of cuts, he had to get a strategy that would 
work within those parameters.
    General Amos just said if sequestration comes through, we 
have other budget dollars,that we would have to do an entirely 
different strategy, not because of security changes, but 
because of dollar changes.
    The result of all of that has been that we have gone from 
1989, where we had 566 ships in the Navy, to 285 ships under 
these budget cuts. And I also hear you bragging that we are not 
going to get any worse.
    Then we are going to have a $10 billion cut in our 
shipbuilding budget. The independent panel, bipartisan, that 
reviewed the QDR [Quadrennial Defense Review], said we needed 
346 ships. The Navy has been saying we need 313 ships.
    Now once again we are saying, okay, let's take our pencil 
and erase that and say 285 is okay. We are decommissioning 
seven cruisers early. We are decommissioning two smaller 
amphibious ships. You are reducing your amphibious ship 
requirements from 38 ships to 33 and possibly 30. We are 
delaying the procurement of a Virginia class attack submarine. 
In 8 years the Chinese will outnumber us in subs in the Pacific 
78 to 32. And we are facing another trillion dollars in budget 
cuts if sequestration falls through.
    Mr. Secretary, it is kind of like that book that used to be 
out, ``Where's Waldo?'' I have been looking to see and hoping 
that the Secretary of the Navy would be coming in pounding on 
the desk saying, ``Enough is enough. I am going to fight for my 
ships. I am going to fight for my planes. I am not going to be 
satisfied to be the lowest we have been in 20 years.'' And I 
haven't seen you doing that.
    And so I went to your Web site and I assumed, well, it is 
just because he hasn't been here, he has been out saying it 
somewhere else. So I pulled up your Web site and since August 
you have given four major policy speeches. Three of those four 
speeches have been about alternative energy.
    Now, look, I love green energy, so I am not against it. It 
is a matter of priorities. I look at all the cuts we are 
making, not in alternative energy, they are going up. I look 
again at your priorities, third top priority you have is to 
have the Navy lead the Nation in sustainable energy. You are 
not the Secretary of the Energy, you are the Secretary of the 
Navy.
    And, Mr. Secretary, I say this, that is despite the fact 
that the Navy's biofuel blends cost nearly four times, they are 
$15 a gallon, conventional Navy fuel. You spent $12 million on 
450,000 gallons or fermented algae biofuel, and here is your 
statement. Not that it is going to save lives of our sailors, 
you said because the Navy is going to once again lead by 
helping to establish a market for biofuels.
    Last year I had a request that you were coming to our 
office or sending somebody and you wanted reprogramming of $170 
million, and I said, ``Thank goodness. He is going to come in 
say, 'We need more ships, we need more planes, we need more op 
time, we are going to fight for our prepositioned stocks,''' 
and what you came in and asked for, essentially, was you asked 
to send that $170 million so we could use it for biofuels for 
algae. And, again, the quote you said, not saving lives of 
sailors, but it helps advance the biofuels market.
    Now, Mr. Secretary, the reason I say that is because in 
today's Washington Post we have two key articles that worry me. 
One of them says this. This is the title: ``Obama's Asia 
strategy gives Navy key role, [but] fewer ships.'' That worries 
me when we are shifting to the Pacific, but we have fewer 
ships. And I would think we would be pounding on the desk 
saying, ``We need more ships.'' It is too few ships.
    And then the other thing that worries me is, the same 
paper, I see ``Federal funds flow to clean-energy firms with 
Obama administration''--$3.9 billion--I don't know if it is 
true. I am just saying what the Washington Post said--in 
Federal grants and financing flowed to 21 companies backed by 
firms with connections to five Obama administration staffers 
and advisers.
    So, Mr. Secretary, here is my question: I understand that 
alternative fuels may help our guys in the field, but wouldn't 
you agree that the thing they would be more concerned about is 
having more ships, more planes, more pre-positioned stocks, 
more off-time home than what they are having? And shouldn't we 
refocus our priorities and make those things our priorities 
instead of advancing a biofuels market?
    And I am going to give you the rest of the time to respond 
to that.
    Secretary Mabus. Well, thank you, Congressman.
    I have made it the priority of this Administration to build 
the fleet. Because as I pointed out in my opening statement, in 
the eight years before I got there, the fleet had declined 
pretty dramatically both in terms of ships and in terms of 
people. So in one of the great defense buildups that this 
country has ever known, the Navy went down. The number of ships 
went down. The number of sailors went down.
    Today, we have, just last year--we have 36 ships under 
contract. And they are all, by the way, firm fixed-price 
contracts so that we can afford these ships, so that we get the 
ships that we need. To compare the 285 ships that we will have 
in 2017 to the whatever number of ships we had in 1989, the 
different capacity, the different capabilities, the 
advancements that we have made----
    Mr. Forbes. Mr. Secretary, I don't want to interrupt you 
there, but I just want to say this. I am not comparing them to 
what we had in 1989. I am comparing to what the Chinese may be 
building over the next several years because they have more 
ships now in their navy than we do. Granted, not the same 
capability, but at some particular time, it bothers me that 
their curve is going up and ours is either holding firm or 
going down. And I will let you----
    The Chairman. The gentleman's time has expired.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And Mr. Secretary, Admiral and General, thank you for your 
commitment here.
    Interestingly enough, I wanted to ask about a similar 
question, but let me say as a member of both the Agriculture 
and Armed Services Committee, I know, Mr. Secretary, it was my 
pleasure to be with you at the Pentagon when you and Secretary 
Vilsack originally signed the agreement for the Navy to use 
biofuels as part of your alternative energy supply for aircraft 
and ships in January of 2010.
    And as you know, in April of 2010, it was my honor to share 
with you some hometown product you have there. We flew to Pax 
River Naval Air Station to see the F/A-18 make its debut as the 
``Green Hornet,'' when it first flew on biofuels.
    On page 30 of your testimony, you mention the fact that we 
as a nation use over 22 percent of the world's fuel, but only 
possess less than 2 percent of the world's oil reserves. Even 
if we tap every domestic resource, we do not have enough to 
meet all the needs over time. And as a minority producer of 
fuel, we will never control the price. And then you state by no 
later than 2020, 50 percent of the Department's energy will 
come from alternative sources.
    Would you say that you are still on course to meet or 
achieve that goal by 2020?
    Secretary Mabus. Yes, sir, we are.
    Mr. McIntyre. And with the work that you have done in 
biofuels, are you confident that it will be able to be used in 
the aircraft and in the ships as you had originally planned?
    Secretary Mabus. We have certified all our aircraft, both 
Navy and Marine Corps, on 50/50 blends of biofuel and avgas, 
and we are doing our surface ships--our surface combatants now. 
But the answer is yes.
    Mr. McIntyre. Okay. All right. And then I notice you have 
followed up with the Secretary of Agriculture, Secretary of 
Energy and obviously the Department of the Navy with a 
memorandum of understanding with regard to further use of 
biofuels to make sure we stay on course.
    Secretary Mabus. Yes, sir.
    Mr. McIntyre. All right. Thank you. And thank you for your 
interest in that. I can say from both perspectives, defense and 
agriculture, and what that means for our not being dependent on 
foreign oil sources.
    General Amos, are you satisfied with the performance of the 
F-35B version of the Joint Strike Fighter? And are you 
convinced that the program should go forward as was originally 
planned before it was suspended?
    General Amos. Congressman, I absolutely am. I watched that 
program carefully as the assistant commandant and when I took 
this job almost 16, 17 months ago, I was determined to pay 
extraordinary attention to the F-35B. I have done that over the 
last 15 months. I watch it like the stock market. I have 
watched the change this year. I have watched those five major 
engineering issues, the bulkheads, the articulating drive 
shaft, the aux air doors, the roll posts, the overheating.
    I have watched that change. I watched the weight margin 
change to a favorable weight. I watched the airplane complete 
its test flights and test points. And then I flew out with the 
Secretary of the Navy on board the USS Wasp several months ago 
to watch it at sea trials.
    Congressman, I am absolutely convinced that the program is 
back on track and I highly supported the Secretary of Defense's 
position to remove it off probation.
    Mr. McIntyre. Thank you, sir. And thank you for your 
leadership in that effort. Admiral, I wanted to ask you, with 
the Ohio class SSBNs [Nuclear-powered Ballistic Missile 
Submarine] scheduled to begin retiring in 2027, how will 
delaying the Ohio class replacement program by 2 years affect 
the Navy's ability to meet STRATCOM's [U.S. Strategic Command] 
at-sea requirements?
    Admiral Greenert. Well, what we will have to do, we owe a 
certain number of submarines in a certain number of time. I 
can't give you those numbers specifically due to the 
classification. But the point here is we have to measure the 
ability to meet that operational availability during that 
timeframe. We have done that. We have evaluated it. And it is 
equivalent to that--the operational availability of SSBNs that 
we provide today.
    Today's numbers are acceptable to Strategic Command. We 
will work with them in the future, but they look the same.
    Mr. McIntyre. And would you say in all candor that the 
delay in the Ohio class replacement program is being done 
solely for budget reasons?
    Admiral Greenert. Predominantly budget reasons, but there 
is an advantage to this, and that is the design feature will be 
much more mature when we get to construction.
    Mr. McIntyre. All right. And are you convinced that the 
opportunity to stretch the Virginia class submarine is one of 
the answers to deal with this issue?
    Admiral Greenert. Are you saying to--are you talking about 
the Virginia payload? Or do you mean stretch the program out?
    Mr. McIntyre. No, the payload.
    Admiral Greenert. The payload?
    Mr. McIntyre. Yes, sir.
    Admiral Greenert. Yes, sir. I believe the payload is a 
viable solution. We have done exactly this type of thing, that 
is an insertion of a cruise missile launch platform. We do it 
with the SSGNs [Cruise Missile Submarine] today, and it works 
quite well.
    Mr. McIntyre. Okay. Thank you.
    Thank you, Mr. Chairman. I believe my time is expired.
    The Chairman. Thank you very much.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, we appreciate your answers today and we all know 
this is a time of austerity. The President is proposing budgets 
to cut national defense. We are all concerned as to what that 
means for our national security. And the questions that you are 
getting today are how do you take the cuts that are being 
proposed and ensure that we are not going things that make us 
less safe; that if we actually look to savings, we look to 
savings that does not reduce our national security.
    So with that, we have, you know, all these members have 
several concerns and I do also.
    Admiral Greenert, if you look at the National Nuclear 
Security Administration's recent budget proposal, it cuts 
funding for the W76 life extension program, also known as the 
W76-1. As you know, this is the key warhead for the Navy's D5 
submarine-launched ballistic missiles. Can you please talk 
about any concerns that you have with this proposal? Are there 
any operational constraints this creates in terms of Navy's 
planning? And would you know why the NNSA [National Nuclear 
Security Administration] would have changed plans? And do you 
approve of this plan?
    And also, Admiral Greenert, if you would--you were 
commenting on the delay for the SSBN(X). Does the fact that the 
schedule has been delayed eat up all of our margin for error? 
Could you please speak on the concerns that people have as to 
what that effect is going to be?
    And also, Secretary Mabus, could you please, in talking 
about the SSBN(X), were our British allies okay with this delay 
in the SSBN(X)? Reports are that the U.K. Minister of Defense 
specifically asked that this delay not occur. I understand you 
were at the meeting with Secretary Panetta. Would you please 
elaborate on any British concerns that they might have as we 
look to how we work and coordinate with our allies?
    Admiral.
    Admiral Greenert. Thank you, Mr. Turner.
    We are concerned beyond the fiscal year 2013 submission by 
the NNSA with regard to their warhead upgrade. We have to keep 
our strategic nuclear systems, including the warheads, 
modernized. That affects the targeting, it affects the numbers, 
and our delivery.
    So looking at the 2013 submission, we are okay with that. 
When we look at 2014 and up, we are concerned. We have 
committed--the NNSA, the Department of Defense, the Navy is 
involved, the OSD [Office of the Secretary of Defense] staff--
we are going to get together, shake this thing out, make sure 
we prioritize. It is more than the warheads that are involved 
here. It is also the SSBN(X)s, their propulsion plant, their 
nuclear propulsion plant, development of that fuel.
    It is all mixed in the same budget. So we want to sit down 
and say, ``Okay, what are the priorities here? How are we going 
to meet it? When does it have to deliver?'' And make sure we 
are all aligned. And that is set up for this summer. For 2013, 
though, sir, I am okay. I am sanguine with that.
    To answer your question on the delay of the SSBN(X), when 
you talk about risk, do you mean risk to the ability to provide 
SSBNs to the fleet? Is that what you are referring to? Or the 
completion of the project?
    Mr. Turner. When you have the Ohio class that is scheduled 
for retirement, you certainly have a schedule that is tight.
    Admiral Greenert. Right.
    Mr. Turner. And when you lose 2 years, certainly everyone 
has concerns as to what is going to be your overall operational 
effect.
    Admiral Greenert. Thank you. I understand.
    Yes, what we were going to do is, of course, as the Trident 
submarine class retired, and they will start to retire in 2029, 
we were going to bring in the SSBN(X). So when you retire those 
two, we will go from 12 to 10 operational SSBNs out there. That 
is close to what we provide today. And as I said, we measured 
what do we provide today? Is that acceptable? What will we have 
out there for capacity? Is that acceptable?
    We see that to be okay right now. We will watch it very 
closely.
    Secretary Mabus. Congressman, I was in the meeting with 
Secretary Panetta and the British Defense Minister Hammond. I 
had met with the Defense Minister from Britain a couple months 
before that to talk about this very subject.
    We have had technical teams both going to Britain and 
coming here to talk about the issue of the common missile 
compartment, which is the one thing that will be alike in our 
Ohio class replacements and their Vanguard successor class.
    And I think a concise answer is that the British are 
satisfied with the schedule as it is today. Their concerns have 
been met in terms of the common missile compartment when it 
will--when the design will be ready and that their construction 
schedule can go on as planned with our schedule sliding 2 
years.
    Mr. Turner. Mr. Secretary, do you believe that everybody 
agrees with your assessment of that, that they are fine? I 
mean, we are obviously going to be looking at the issue too. I 
mean, do you--I understand you answer that it was--is your 
belief, but do you believe that there are those that think that 
they are not fine?
    Secretary Mabus. I know that their Minister of Defense is 
fine. Past that, I don't know, sir.
    Admiral Greenert. Mr. Chairman, I have worked with the 
First Sea Lord on this. What we have agreed to do is we have 
two teams, Brits and U.S., sitting down together, both our 
missile experts, to follow this through. We will sign a 
memorandum of understanding that this is what we will do, what 
we will bring in, what they will bring in. We will bring that 
to fruition in May.
    So we are in constant collaboration on this, and we won't 
let them down.
    The Chairman. Thank you. Gentleman's time has expired.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Secretary Mabus, 
Admiral Greenert, and General Amos, I want to thank you for 
coming here before us today and for your service to our Nation.
    I want to talk briefly about a couple of areas, hopefully, 
Virginia class submarine and also talk about cyber.
    First of all, with respect to submarines, we obviously have 
a tremendous capability and tremendous success with the cost-
efficiency and production rates of the Virginia class 
submarines due to the Navy's decision to procure two ships per 
year.
    Like many of my colleagues, I have deep reservations about 
the proposed shift of Virginia class submarine from the fiscal 
year 2014 out--to outside the FYDP.
    With the current schedule for decommissioning aging boats, 
even before this move the attack submarine force will already 
be falling to unacceptable levels in future years. And I 
believe that such a shift could prove damaging to our Nation's 
stated strategy of pivoting more of our focus to the Asia-
Pacific region, as well as incur additional unnecessary costs 
and workforce challenges.
    With that, Admiral Greenert, would it be fair to say that 
the availability of Virginia class submarines will continue to 
be in the ever-more vitally important to our future strategic 
goals? And could you elaborate on how the Navy decided to 
assume additional risks?
    Admiral Greenert. Sir, the Virginia class submarine, in my 
opinion--I have empirical data on this--is the best performing 
submarine in the world, and I don't see anything challenging it 
for the horizon, as I can see. It is the key to our undersea 
dominance.
    The decision in fiscal year 2014 was strictly a fiscal 
decision. We have a budget to meet. We looked across--as I have 
stated in my statement, that we look across keeping the force 
whole, making sure we take care of our people. I have to be 
ready--when I say whole, W-H-O-L-E, and not hollow.
    And when we looked and balanced with our force structure 
that we have today with our procurement, that is what resulted, 
was that submarine. So it is strictly a fiscal decision.
    Mr. Langevin. Okay. I just point out that as--my 
understanding that even right now that our--the request from 
our combatant commander is for the capability that our 
submarines offer. We can only meet about 60 percent of those 
requests right now.
    This is obviously a vitally important platform, and we need 
to do everything we need to do to protect that program and keep 
it strong.
    Secretary Mabus, I also want to discuss a topic that has 
been a great priority of mine for many years now, cyber 
security and critical infrastructure. While I believe that we 
are making progress, I firmly believe America is still 
dangerously vulnerable to a cyber attack against our networks 
in general and our electric grid in particular.
    Vice Admiral Barry McCullough previously testified before 
this committee that these systems are, and I quote, very 
vulnerable to attack and that much of the power and water 
systems--the naval bases are served by single sources that have 
very limited backup capabilities.
    My question is, what progress has the Navy made in 
addressing these--the threats to both its critical 
infrastructure and its secure and unsecure networks? And how 
does this budget support those goals?
    Secretary Mabus. In terms of the electrical infrastructure, 
Admiral McCullough was exactly right. But we have been working 
very hard to see how we can get our bases off the grid if the 
grid goes down to--so that we can maintain our military 
capabilities regardless of what happens to the larger grid.
    We are looking at collections of bases that are close to 
each other, do micro grids with them. We are looking at energy 
sharing arrangements between bases so that as we build up 
capacity on those bases to produce our own energy, particular 
alternative energy that we will not be dependent on the outside 
grid, to move that energy to our bases.
    So I think we have a ways to go, but I think we have made a 
very good start in hardening our bases against that sort of 
disruption.
    In terms of the classified and unclassified networks, cyber 
is one of the major concerns not only of Navy and Marine Corps, 
but of the whole Defense Department. This budget--I think you 
see for the Navy, for the Marine Corps, for the Department of 
the Navy as a whole, we devote substantial resources to our 
cyber capabilities, both defensive and offensive. We have stood 
up 10th Fleet, as you know, as our cyber command which folds in 
under the National Cyber Command that DOD [Department of 
Defense] has set up.
    And I think that this budget sends us in exactly the right 
direction in terms of making sure that we have the cyber 
capabilities that we need in this--in today's world.
    The Chairman. The gentleman's time is expired.
    I want to correct something for the record that I stated 
earlier. I think I may have said we have a 3 percent negative 
growth. It is 0.3 percent negative growth over the period, if 
we can get that corrected.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here, for your service 
and for your testimony.
    I share the concerns of many of my colleagues. And I know 
the concerns that you have, as well. Setting aside the 
nightmare sequestration, the budget in front of us is alarming 
enough: the small, in my estimation, number of ships; the 
reduced number of amphibious ships. We are looking at expanding 
into the Pacific--or reemphasizing the Pacific and reducing the 
number of ships at the same time.
    And I know day in and day out the challenges to the Navy 
and Marine Corps team as they serve around the world, and 
reduced number of amphibious ships doesn't seem to be helpful 
there.
    But I want to talk about personnel. The Secretary indicated 
that after a year-and-a-half study that the Marine Corps had 
looked at reducing its end-strength. And as I understand it, 
the Marine Corps did do a force structure review and came up 
with an end-strength of about 186,800. The budget says we are 
looking at 182,100, so it is even lower than the 186,000.
    And General Amos, you said that that is a--we are going to 
come down at about 5,000 a year.
    As you know, I have lived through one of these reductions--
as have you--and it can be not fun, to say the very least, 
because you are going to be--it is not just a question of 
having 5,000 marines walked out the door. You have to balance a 
recruiting effort, how many new marines come in and--your rank 
structure and how many staff NCOs leave and officers and so 
forth.
    Can you talk at all about--look--having looked at that what 
that is going to mean in terms of forcing people out at a time 
when we have a pretty shaky economy and we are still engaged in 
combat?
    General Amos. Congressman, I will be happy to.
    We did do the force structure, as you said, a year and a 
half ago. We have a lot of analytical rigor behind that, and 
that was going to bring us down roughly 16,000 marines.
    We are coming down another 4,000, so the total bill is 
20,000 marines. I will just tell you anecdotally up front and 
the committee that that 20,000--or that 182,100 Marine Corps is 
a very, very capable Marine Corps, capable of performing all 
the missions that are going to be assigned to us. So I feel 
very good about that. I am not the least bit hesitant.
    Back to your question. We looked at how we could come down 
responsibly and ``keep faith'' with our marines. Keeping faith 
to me means all those young men and women that came in on a 4-
year enlistment had an expectation that they would be allowed 
to complete it. So that is the first installment with keeping 
faith. And so it is my intent to allow them to complete their 
enlistment.
    Keeping faith means also that those career marines that 
have gone past a certain point on the way to retirement will be 
allowed to continue to reach retirement at 20. So as I look at 
this and I go, okay, inside that parameter between the 
recruiting piece of things and the retirement at age--at 20 
years, I have a responsibility to keep faith.
    Now, we are going to dial the force down several ways. We 
are going to reduce the amount of accessions, and this year we 
are going to bring in 28,500 marines. We normally bring in 
34,000, 35,000. We are going to tighten up the enlistments on 
those first-term enlistments. In other words, those marines 
that finish their first enlistment after 4 years, they are 
going to be--it is going to be more competitive to be able to 
stay in the Marine Corps.
    We already have a highly qualified young man or woman. It 
is even going to become more competitive so we reduced that.
    We are looking now at reducing what we call the second-term 
alignment program which are those that are finishing their 
second enlistment and--making that a little bit more 
competitive. We are maximizing voluntary opportunities for 
marines to leave early----
    Mr. Kline. Could I interrupt for just a second because we 
are running out of time?
    Can you jump to the officer corps because you are not 
dealing with an enlistment situation there, how you are going 
to address that?
    General Amos. Sir, we are going to shave off--first of all, 
we get a portion of our officers that want to leave every 
single year anyway. And I don't have the number right here in 
front of me.
    Mr. Kline. What are they thinking?
    General Amos. What are they thinking?
    [Laughter.]
    What officer would want to leave, is my question?
    Mr. Kline. No, I am sorry, go ahead.
    General Amos. And by the way, retention is very high right 
now. But we have control measures on our officers. All our 
officers, for the most part, come in as Reserve officers, much 
the same ways I did when I first came in.
    You have an opportunity as a captain to become a career 
designated officer. That opportunity will shrink and become 
more competitive. So we are going to control this thing with 
voluntary measures principally, and that is the direction we 
are headed.
    Mr. Kline. Okay. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    As you can hear, gentlemen, Chairman, there is a 5-minute 
rule. We have a 5-minute rule, so it is a little bit--for me, I 
would like to play a little bit of rapid-fire fill-in-the-
blank. So I will try to be very brief with my questions.
    First off, Secretary Mabus, thank you for the good news 
about Naval Station Everett. It is very well-received at home. 
Folks are very happy to hear that.
    The first question has to do with your comments on page 
nine of your testimony with regard to Growlers [EA-18G Growler 
aircraft]. You say, in the next 2 years, the buy will be 
completed. Is there anything that you see that is an obstacle 
to completing the Growler purchase?
    Secretary Mabus. No, sir, it will be completed in fiscal 
year 2013, so we will buy out the Growlers then.
    Mr. Larsen. Okay, great.
    Second, with regard to P-8A's, two questions. One has to do 
just to clarify the plan buy in the FYDP. You are dropping by 
one in 2015, by 10 in 2016 and by one in 2017 compared to the 
2012 FYDP. Is that right?
    Secretary Mabus. We are adding one in 2017, so it is----
    Mr. Larsen. You are adding one in 2017?
    Secretary Mabus. It is a net of 10.
    Mr. Larsen. Net 10, okay.
    Secretary Mabus. Yes, sir, not being dropped but being 
pushed to the right. We still have the same requirement, or the 
same number for P-8s.
    Mr. Larsen. So then the 10's being dropped--is your plan 
then still to purchase those 10 but in the out years?
    Secretary Mabus. Outside the FYDP.
    Mr. Larsen. Outside the existing FYDP?
    Secretary Mabus. Yes.
    Mr. Larsen. Thanks. Thank you very much for that.
    Admiral Greenert--I am sorry. Back to the--sorry--back to 
the operational test and evaluation question on the P-8As. And 
maybe Admiral Greenert can discuss this. Does the Navy plan--
does the Navy have a plan to address the issues that came up 
out of the OT&E [Operational Test and Evaluation] with regard 
to the P-8As to ensure a successful initial operational test 
and evaluation program?
    Admiral Greenert. Yes, sir, we do. In fact, I spoke to the 
squadron commander just earlier this week. He is not all that 
concerned. We have to pay attention. We have to bring this 
plane in on time and IOC [Initial Operating Capability] and get 
off the P-3. I will follow it very closely.
    Mr. Larsen. Well, I would--you don't need to cover it now. 
I would appreciate getting a brief on that, if you could.
    Admiral Greenert. We can do that.
    Mr. Larsen. Thanks very much.
    With regard to the future of unmanned, there is some 
discussion in, I think, both of your testimonies with regard to 
U-class and the future of unmanned.
    Is that at all--how is that reflected in the FYDP?
    Admiral Greenert. For U-class, it is still a very important 
program for us. It has slid 2 years--IOC has slid 2 years from 
2018 to 2020. So it was outside the FYDP anyway, but it has 
slid 2 years to fiscal year 2020.
    Mr. Larsen. Okay. So not even in the FYDP and it slid out 2 
more years?
    Admiral Greenert. Well, that affects how much we spend in 
the FYDP.
    [Laughter.]
    Mr. Larsen. Got it. I think that works for me.
    Thank you. I yield back.
    The Chairman. Thank you. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    General Mabus--Amos--excuse me. Let me congratulate the 
Marine Corps for the forward lean you have in trying to build 
accounting systems and internal control systems so that you can 
get the--your books and records audited. You have taken the 
lead, and we are not quite there yet, but I want to publicly 
acknowledge those efforts on behalf of your team and your 
leadership from the top that is helping make that happen. So 
please keep up the good work and the efforts in that regard.
    Secretary Mabus, I want to take up a line of questioning 
that my colleague from Virginia talked about, and that is this 
issue of renewable or green energy.
    We have about $400 billion in last year's budget for those 
issues at the Department of Defense, to do things like what you 
talked about, reduce the number of convoys running up and down 
the roads in Afghanistan because we are doing things 
differently. I get that. That is the protection of the war 
fighter, and let's do that.
    The Pacific Rim is an exercise we are about to do. You have 
bought fuel, blended fuel for the jets to fly at almost four 
times the cost of traditional fuel. So in order to make up for 
that difference, will those planes fly a quarter of the time 
they would have otherwise flown as a part of this exercise, or 
will they fly what they would have normally flown and you share 
the love of that extra cost across the entire team?
    Secretary Mabus. Sir, this demonstration of a carrier 
strike group doing not only aircraft on 50/50 blends of biofuel 
and avgas but also surface combatants on 50/50 blends of diesel 
and biofuels--it--we will do it. They will operate exactly----
    Mr. Conaway. So you will share the level of those higher 
costs across your entire team?
    Secretary Mabus. Actually, sir, the additional cost there 
is so tiny compared to the additional cost of a dollar.
    Mr. Conaway. Let me just say this, that only in the 
Department of Defense budget--there is not another budget on 
the face of the earth where $600 million in new money would be 
considered tiny.
    Secretary Mabus. No, sir, I am not talking about----
    Mr. Conaway. I know that, but every dollar you spend----
    Secretary Mabus. And I don't know where you got the $600 
million figure. However, the cost of this demonstration project 
is tiny in comparison to the $1.1 billion bill we got when the 
Libya crisis started for the increase----
    Mr. Conaway. Well, that brings the point that you said, for 
every dollar increase in cost of fuel, we steam less and we fly 
less. Now, if you get to 2020 and you have to this holy grail 
of a 50/50 blend across your team, that means that you will be 
a third more expensive for fuel than the other Services.
    So are you arguing that it is in the Nation's best 
interests for the Navy to steam a third less and to fly a third 
less, or should the Navy have an open-ended budget to buy fuel 
at whatever cost makes sense?
    Because renewable fuels will always be more expensive, I 
guess, than conventional fuels.
    Secretary Mabus. Sir, I think that your premise is 
absolutely wrong and that if we do reach this, that we will 
reach it at a price that is absolutely competitive----
    Mr. Conaway. I disagree with that. Studies have shown that 
biofuels will be twice as expensive. That is where I got my 
analogy, that, even under full-up refinery circumstances, you 
are still going to be twice as expensive as conventional fuels.
    Secretary Mabus. That is not our analysis.
    Mr. Conaway. Well, gotcha. I understand that. Obviously, we 
have a difference of opinion.
    Let me ask the question this way: $600 billion in new money 
for this initiative, coming out of, I guess, Department--you 
know, otherwise misspent on DOE [Department of Energy] or 
whatever--can you look us in the eye and tell us that you 
couldn't use your share, the Navy's share of that $600 million 
somewhere else in the system?
    Are you telling us your budget is so flush that you really 
don't have any place else to spend $600 million?
    Secretary Mabus. Well, again, sir, I don't know where you 
are getting the $600 million figure. But I know that this 
initiative is making us better warfighters. I know that this 
initiative is saving lives in Afghanistan.
    Mr. Conaway. And that was the $400 billion that is being 
spent on those kinds of things that is in the current budget 
that was there?
    Secretary Mabus. Four hundred billion?
    Mr. Conaway. Million--excuse me--$400 million.
    Secretary Mabus. But I know that we are doing is making us 
a better military. And I know that, as we buy more of these--
and biofuel is an important part, but it is certainly not the 
only part. And things like solar, geothermal are competitive 
today to----
    Mr. Conaway. To nuclear and coal? No, they are not. But it 
is going to be more expensive. So you would argue that, 
whatever the cost----
    Secretary Mabus. No, sir, it is not going to be more 
expensive.
    Mr. Conaway. It is more expensive today. We are in--it is 
more expensive today, and we have tight budgets. And so you are 
arguing in front of this committee, in front of everybody else, 
that we are better off paying four times for the fuel, for even 
a demonstration project. He who is responsible in small things 
will be responsible in large things. Even in the demonstration 
project that we are ``better off'' than otherwise?
    Secretary Mabus. I think we would be irresponsible if we 
did not reduce our dependence on foreign oil and if we did not 
reduce the price shocks that come with the global oil market.
    Mr. Conaway. Those reductions are nowhere on the horizon in 
terms of reducing price shocks. They are going to be there for 
a long time.
    The Chairman. The gentleman's time is expired. Ms. 
Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Mabus and Admiral Greenert, our former Naval 
Forces Commander in Guam, good to see you again, and General 
Amos, I thank you all for your testimonies.
    General Amos, as you know, a critical component of the old 
buildup plan was to have a firing range on Guam, based on 8,600 
marines relocating and the majority of them being permanently 
stationed on Guam.
    Now, I understand the U.S. is renegotiating the agreement 
with Japan and not all the figures are worked out. I seriously 
am concerned that the majority of these marines relocating to 
Guam may now be rotational.
    And I appreciate that there is an ongoing supplemental EIS 
[Environmental Impact Statement] to review options for a firing 
range. Frankly, this is something that should have been done 
right from the beginning. Can you explain the need to this 
committee?
    And I would appreciate it if your answers are brief. We 
have so little time up here.
    General Amos. Congresswoman, I will be happy to talk about 
it as much as I understand it today, because, as you know, 
between our Nation and Japan, there are negotiations under way 
right now to revisit the agreement of 2006.
    First of all, I would like to say that I am very--as a 
Commandant, I am bullish on going to Guam. I want my marines on 
Guam, and I haven't changed that posture for many years, as you 
are aware.
    Ms. Bordallo. Thank you, sir.
    General Amos. So we want Guam. We need to go to Guam. The 
numbers will be worked by the two governments, but there will 
be a substantial amount of marines on Guam when this thing is 
finally settled.
    The mixture inside of there between rotating forces and 
permanent forces and family members will be decided at that 
time as well.
    But when we laid out the ranges on Guam and then the 
adjacent ranges, the concept of adjacent ranges on Tinian and 
the need to do an EIS there, that was for that force--you are 
absolutely correct--which was going to be a little over 8,000 
uniform-wearing marines.
    But the ranges on Guam were pretty modest, Congresswoman. 
You know, we had an urban training range. We had the live fire 
ranges. We had over on the--you know, by Route 15--those would 
not even accommodate those forces that were on Guam.
    So my expectation right now, absent any further information 
on force size, is that the ranges that we have planned for will 
still be required when the marines arrive. And they will arrive 
down the road. I don't see a change in that because, quite 
honestly, we were already shy of capability and capacity there.
    Ms. Bordallo. Thank you very much.
    Secretary Mabus, I would like to understand the Navy's 
plans for proceeding with improvement at Apra Harbor that are 
separate from the Marine Corps buildup.
    Under the Department's new strategic guidance, is there 
still a requirement for a transit carrier pier at Apra Harbor?
    And have any other requirements for wharf and pier 
improvements changed due to the recently released strategic 
guidelines?
    Secretary Mabus. The answer is yes and no. Yes, we----
    Ms. Bordallo. Well, good.
    Secretary Mabus [continuing]. Still have the requirement. 
No, they have not changed.
    Ms. Bordallo. Very good. Thank you.
    Admiral Greenert, as the President stated in his State of 
the Union address, the U.S. will be focusing on increasing our 
military presence in the Asia-Pacific region. Admiral Greenert, 
you have recently mentioned that despite our pivot to the Asia-
Pacific region, you will not be adding additional ships or subs 
to this area.
    If the Navy doesn't plan on adding ships or subs to show a 
higher degree of military presence in this area, what role will 
the Navy play in strengthening the military presence in the 
Asia-Pacific region?
    Admiral Greenert. Thank you, ma'am. Actually you would say 
we are increasing. And it is really for me all about operating 
forward. In Singapore we endeavor to forward station four 
Littoral Combat Ships, the number to be determined. We need to 
sort through that and we have been asked to do that.
    So to say we are not going to increase, what I meant when I 
said that is in the near term. So when I look at next year, the 
Global Force Management Allocation Plan, we will be using the 
same ships that we use today.
    Ms. Bordallo. I see.
    Admiral Greenert. That number is substantial, as you can 
see on that.
    Ms. Bordallo. So when you----
    Admiral Greenert. But we want to----
    Ms. Bordallo. Yes. So when you said you will not be adding, 
this is just for the near term?
    Admiral Greenert. In the near--the next--you know, my 
demand signal is the Global Force Management Allocation Plan, 
tells me what to put forward. I do want to increase forward. In 
fact, at this end of this FYDP we are looking at, instead of 
50, more like 55 ships we will have operating.
    So for me it is how much we operate out there, if you see 
what I am saying, have in the Western Pacific, as opposed to 
stationed in the Western Pacific.
    Ms. Bordallo. Good. I am glad you cleared that up.
    Thank you very much, gentlemen.
    I yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Mabus, Admiral Greenert, General Amos, thanks so 
much for your service and for joining us today. I would like to 
give special appreciation for our marines and sailors that were 
part of Exercise Bold Alligator. Had a chance to go out to the 
USS Wasp and greet them. And, boy, what a great day.
    I also want to give a particular personal thanks to the 
marines with VMM-264 and VMM-266 for the great Osprey flights 
that we had from D.C. out to the Wasp and then back. Great, 
great group.
    Admiral, let me start with you. I want to focus 
specifically on our L class of ships. I am a little concerned, 
if you look at our inventory of L class ships you see that we 
have two LSDs [Landing Ship, Dock] that are 26 to 22 years old, 
leaving six LSDs in the Whidbey Island class that are between 
20 and 26 years old and then four LSDs that are in the Harper's 
Ferry class that are between 14 and 17 years old. And the 
LSD(X) replacement is now outside the FYDP and pushed even 
farther to the right.
    And these replacements need to come sooner than later. As 
you know, the status of our amphibious fleet really concerns 
me, especially with a strategic shift in what our presence is 
going to be in the Asia-Pacific. And this problem, as we have 
seen, is compounded by cyclic operations, combat deployments, 
and by deferred maintenance over the past 10 years. We have 
been running them pretty hard. So there is a concern.
    And we don't need to look any further than the current 
operational status of ships that support the 31st MEU [Marine 
Expeditionary Unit] in the Asia-Pacific to find an immediate 
example of that problem. And if we are going execute this Asia-
Pacific strategy the way we need to and make sure our Navy and 
Marine Corps team have what they need, then I really believe we 
need 38 amphibious ships. And I know that 33 is where we have 
said we can exist, but if you look at where we are going and 
the challenges out there, I think we need to clearly define in 
our 30-year shipbuilding plan how we get to 38.
    And I would like your thoughts on this situation, 
especially since there are no LSD replacements in the FYDP, so 
in 5 years we are going to have a fleet of 10 LSDs that range 
in age from 31 to 19 years old and we are not procuring any L 
class ships for at least 6 years.
    And we have a collision getting ready to occur. No LSDs for 
6 years. We are going to start hopefully building them then, at 
the same time SSBN(X) starts to come on board. So that sucking 
sound you are hearing as far as looking at budgets is going to 
be where does that money come from in a pretty expanding, 
challenging time.
    So I would like your thoughts on how do we navigate our way 
through all of this?
    Admiral Greenert. I will start in the near term. We have to 
fund the maintenance, and that is in our budget. And I want to 
thank you for being an advocate for us for funding and what 
this committee has done under your leadership to get us the 
right funding in the year, to take care of the ships here in 
the near term.
    Our Surface Maintenance Engineering Program, SurfMEPP, has 
told us what is needed to get to the expected service life of 
these L class ships, because if we don't get--expected service 
life we are in trouble. So this year, 2013, important year, the 
availabilities we will do will be under that program and we got 
to fund it right and it is in our budget.
    Two, the L class ships that are under construction, we have 
to get them out of construction and over to the pier. So we 
will work with that. And Mr. Stackley, the acquisition force, 
we will do everything we can to get that moving.
    Three, those that are not under contract but authorized and 
appropriated, let's get them under contract and get moving.
    With regard to the future, we have a new strategic guidance 
that is laid to us. We now have to determine the capabilities 
associated. We have a pretty good feel for that. And we are 
doing a force structure assessment to lay down, okay, what are 
the required number of platforms, and that includes ships.
    We are come forward with that shortly, we will take it to 
the defense staff and we will work it through and bring it over 
to show you all.
    So I think we need to march through that.
    Last piece I would say, in that last LHA [amphibious 
assault ship] class that we put in there, money was tight 
there, but to me the most important thing we needed to do was 
get that large deck, given the choice between an LSD, the 
future one, and that large deck in 2017, and so that is what we 
did, consulting with the Commandant.
    Mr. Wittman. Sure.
    General Amos.
    General Amos. Congressman, thank you for being the 
advocate, as General--or Admiral Greenert said. You have been 
stalwart.
    Admiral Greenert and I talked right towards the end of the 
budget when were--things were really getting in, and I asked 
him two things. I said, ``Admiral, would you please bring--not 
decommission one of those three LSDs? And I would be forever 
grateful if you brought that large deck inside the FYDP.'' And 
he accomplished both.
    Hard choices were made inside this 5-year defense plan. I 
was there from the beginning. I watched this as we all tried 
to--while the soup was being made, the sausage was being made, 
and they are tough. To be honest with you, sir, I am very 
pleased at how this 5-year defense plan turned out.
    What I like--shoot, sir, I would like 50 ships. We are 
trying to cut Solomon's baby and make good business decisions, 
and we have done that in this strategy, we have done that in 
this budget cycle.
    As Admiral Greenert was saying, we will get an opportunity 
here over the next little bit to actually try to do in force 
structure, what do we really need as a naval force.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Secretary Mabus, in your testimony on page 6 you stated, 
``We continue to explore ways to limit the submarine shortfall 
by increasing the near-term submarine build rate, improving 
affordability and maintaining the health of this critical 
industrial base.''
    I am trying to read between the lines of that statement. It 
suggests some level of concern that this change in the 5-year--
the FYDP for the Block 4 contract is creating a shortfall, and 
that is a concern. I mean, am I reading too much into that? 
And, Admiral Greenert, if you want to comment in terms of your 
own feeling about what that dip in 2014 means in terms of the 
fleet, in terms of day-to-day operations, really not just in 
the short term, but also in the long term.
    Secretary Mabus. We would clearly like to have that ship in 
2014 instead of moving it to 2018. And what that line says, 
since it is a 2014 ship and we are doing the 2013 budget, we 
are exploring to see if there are any ways that we can 
creatively pull that ship back. We cannot now because of budget 
constraints, but we are trying to see in terms of load at the 
yard, in terms of how we do advanced procurement, things like 
that, if perhaps we can do that.
    And that is the--I don't think there is anything between 
the lines. We were trying to say that, like the admiral and the 
general have said, like everybody here has said, we had to make 
some very tough decisions. Moving that ship was one of those, 
and it was a purely financial thing, but it does keep the 
number of Virginia class subs within the proposed multiyear 
stable so that we can get the nine subs that we had planned to 
get. We would like to get that one earlier if it is possible.
    Admiral Greenert. It is the best submarine in the world. I 
have empirical data that shows it, as I have said before. We 
have a shortfall, if you will, of SSN [Nuclear-powered Attack 
Submarines] years for what has been analyzed to be what we need 
in the future. It was going to start somewhere around 2025 and 
run for--till about 2042. Now it moves 4 years to the left, so 
it gets a little deeper.
    So it is difficult and it exacerbates a problem; 2014 was a 
tough year. Mr. Wittman earlier talked about LSDs. Those are a 
2014. So a very difficult year for us to be able to balance out 
and it is strictly fiscal, sir.
    Mr. Courtney. Well, I appreciate those answers. Secretary 
Panetta, yesterday when I asked virtually the same question, 
pledged that he wanted to cooperate in terms of trying to 
achieve the same goal you just described, Mr. Secretary.
    I have also been talking to appropriators about this issue 
and, again, at least have some early commitment to, again, see 
if we can put our heads together and fill that hole that you 
described.
    I wanted to also just touch briefly, a couple of the other 
heads of the Services have already made some comments regarding 
the BRAC [Base Closure and Realignment] proposal. General 
Odierno stated that, ``I don't think you will see a big Army 
installation being asked to close. We think we have the right 
footprint.'' On the other hand, General Schwartz said that, 
``We support the proposal. I think our expectation is that we 
would actually close bases in a future base closure round.''
    I don't want to put you on the spot, I don't want to make 
you uncomfortable, but I didn't know whether you felt 
comfortable commenting the way those other, again, branches did 
in terms of just their own sort of view of where you are in 
terms of installations.
    Admiral Greenert. Nothing jumps out at this point to me 
that said this should close. But I do believe that it is a good 
process. And so once you sign on to the process, you know, you 
carry it through. But I am not against the process. I think it 
has value.
    Mr. Courtney. Well, again, looking at the end strength 
reduction in Navy versus, again, other Services, I mean, from a 
math standpoint, it just seems like the claim of excess would 
be--it would seem less in terms of the Navy, just, again, as 
far as the reduction in terms of the size of your force. And I 
don't know whether that would be a factor.
    Admiral Greenert. Yes. For us it is 6,000. It is all 
associated with force structure reductions. And as you know, we 
have a plan to distribute ships--and make sure we are balanced. 
I hope we can carry out that. I think it is for the good of 
all. And it continues to align us toward the Pacific in 
accordance with our strategy.
    Mr. Courtney. All right. Thank you.
    Thank you, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And General Amos, Admiral Greenert, and Secretary Mabus, 
thank you so much for your service to our country.
    And I think my first concern concerns, Mr. Secretary, your 
comments about the United States Marine Corps and that we are 
going to bring them back to their maritime mission. But given 
the lack of shipping, I think that that is a real problem.
    Now, so it is my understanding, and let me, General Amos, 
let me take it to you, it is my understanding that this takes 
us down to a capability of one Marine--being able to deploy at 
sea one Marine Expeditionary Brigade. Is that correct?
    General Amos. No, sir. Well, it just depends on how you 
load it and it depends on what the threat is and what you are 
going to do, but a single--I haven't had the benefit of 
actually doing the program 5 years ago and figuring out how 
many ships it took to put one Marine Expeditionary Brigade's 
worth. If you load it all up and you get everything on, it is 
17 ships.
    But when you start thinking about going against an enemy, 
you have to determine, okay, well where are my ships and am I 
going to have 17. And what is the enemy going to do? What is my 
force buildup as I come ashore? So not every enemy is the same. 
If we had a Saddam-like enemy, we could afford to probably take 
a different approach. So it is--but the number for one MEB is 
17 if you put everything on it. It doesn't mean you can't 
mitigate it if you don't have 17.
    Mr. Coffman. So we are essentially giving up the Marine 
Corps doctrine--traditional doctrine of saying we are going to 
do two--we are going to be able to deploy two Marine 
Expeditionary Brigades. Is that correct?
    General Amos. Yes, sir. We have agreed that forcible entry 
for our Nation--the capability for our Nation are two Marine 
Expeditionary Brigades.
    Mr. Coffman. But we won't be able to deploy them at sea 
simultaneously. So we will not be able to--so and essentially 
the Marine Corps is being--its mission is being constrained the 
same as the other armed services in that we will engage in one 
conflict and do a spoiling or a holding action on another, but 
we will not be able to engage in two simultaneous major 
conflicts. Is that correct?
    General Amos. Sir, I think you have the strategy correct 
when you said we will be able to engage thoroughly in one 
combat or one conflict, and be able to also engage in another 
to deter expectations and that type of thing.
    Mr. Coffman. Okay. The----
    Secretary Mabus. Congressman?
    Mr. Coffman. Yes, Mr. Secretary?
    Secretary Mabus. You were talking about deployments and 
having our marines on Amphibious Ready Groups out and about. 
Under our shipbuilding plan and under this strategy, we will 
have nine three-ship ARGs [Amphibious Ready Group] at all times 
to take marines around the world to do what they do today. We 
will have one four-ship ARG based in Japan and we will have one 
large-deck amphib to be globally tasked to wherever the 
situation requires.
    There were two things here. One was amphibious assault 
requirements.
    Mr. Coffman. I am very concerned about the reduced 
capability. And I would hope that--I mean, let me just say I 
hope--I believe in cuts, that we--everything ought to be on the 
table. But I believe in cuts that don't compromise capability 
and the cuts that are envisioned, that are put forward today, 
really do compromise capability.
    Let me just mention a couple--a few issues that I would 
hope that you all would look at. And the Israeli defense force 
is a military organization that is always on a war footing, 
and--but yet they are far more reliant on their Reserve 
Components than our military is. And it seems to me that we 
have institutionalized a very large standing military, although 
we have relied on the Reserves more. I don't believe that we 
are relying on to the extent that we could, at a great savings 
in terms of personnel costs where we are not cutting into 
acquisition costs. And that is something that I think you all 
ought to look at, as well as the other Services as well.
    And I think in slowing personnel costs, given the fact that 
clearly we are going to have an end-strength reduction at some 
level, I believe that we ought to slow down the promotion 
system. And that is something that hasn't been mentioned today. 
And I think it would be beneficial to the professionalism of 
our military that our personnel have more experience and time 
in grade before they advance.
    And so I think that that is something that hasn't been 
explored, ought to be explored.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Pingree.
    Ms. Pingree?
    After Ms. Pingree's 5 minutes, the committee will take a 5-
minute break and reconvene right after that.
    Ms. Pingree.
    Ms. Pingree. Thank you very much, Mr. Chair.
    Secretary Mabus, Admiral Greenert and General Amos, thank 
you so much for persevering today, answering all of our 
questions, and for your dedicated service to the Nation. I 
really appreciate that.
    As highlighted in your testimony, Secretary Mabus, the 
budget included a request for two Arleigh Burke destroyers for 
fiscal year 2013, in addition to reauthorizing a 5-year multi-
year procurement through 2017.
    I am glad that the DDG-51 helps address the need for more 
adequate sea-based capabilities. However, given that the Navy 
identified the need for a 94 surface combatant force structure 
last April, a fleet of 88 still falls short of that. And I know 
many of the other members have been talking about the size of 
our Navy.
    In particular, previous multi-year procurements of Arleigh 
Burke occurred at an average rate of three ships a year instead 
of two. Given the President's new guidance with emphasis on the 
Asia-Pacific region, and a recent GAO [Government 
Accountability Office] report that identified the steps that 
needed to be taken to mitigate the significant projected 
shortfall in cruisers and destroyers, do you really believe 
that a sustained annual procurement rate of more than two DDG-
51s annually would be required long term to perform sea-based 
BMD [Ballistic Missile Defense] missions?
    Secretary Mabus. The Arleigh Burke is, you have pointed 
out, clearly one of our best platforms and most flexible and 
most capable platforms that we have. As Admiral Greenert said, 
fiscal year 2014 was our toughest budget year in this FYDP. But 
because of some savings that we were able to get on the last 
three DDGs [Guided Missile Destroyer] that we bid out, between 
Bath and Huntington Ingalls, we saved some $300 million on the 
projected cost of those three DDGs.
    We are hopeful that we will be able to use those savings to 
do advanced procurement for later DDGs, to make sure that we do 
have the build rate that we need to get the ships that we need 
to get.
    As you know, we are going to--we are continually upgrading 
our existing DDGs to be ballistic missile-capable--
antiballistic missile-capable, and also that in fiscal year 
2016 we are shifting to the Block III of the DDGs, which will 
have the new air missile defense radar, incredibly capable 
system that will go on that ship.
    So I think that if you look at the capabilities, the 
capacities of these ships, that the build plan that we have 
will give us the ships that we need for ballistic missile 
protection for air missile defense protection and for all the 
other myriad things that DDGs do.
    Ms. Pingree. Well, thank you for your answer on that. I 
know I have heard the reply before that 2014 is a difficult 
year. And you, of course, know that maintaining our industrial 
capacity and keeping the work moving at a shipyard such as Bath 
is critically important.
    I do appreciate your visiting Bath shipyard. I hope you 
will be able to visit again and I want to remind you, of 
course, that Bath-built is best-built, so it is always good to 
see the Navy putting work there.
    Secretary Mabus. I will come in the summer.
    Ms. Pingree. What is that?
    Secretary Mabus. I will come in the summer when the weather 
is a little warmer.
    Ms. Pingree. Yes, July--height of the lobster season. That 
is great.
    Let me ask a quick question. I know you, if I run out of 
time I will have to take this in writing. It is somewhat of a 
different topic, but one that is a great concern to me and 
Representative Tsongas and some of the other members of the 
committee. And since I have you all here, I would like to just 
put this out there.
    I think all of you know that sexual assault in the armed 
forces is a critical issue that we must address, and you have 
all been giving quite a bit of attention to. There are 
thousands of cases every year of sexual assault reported in the 
military, but it is also thought that only about one in 10 
women actually--or men--report the assault.
    I am very pleased to see that the Department of the Navy, 
and I want to applaud you for this, taking a really active role 
in addressing the ongoing epidemic. But I am interested in 
hearing more about what other steps the Navy has taken to 
improve sexual assault response and what more we can be doing 
to help the victims. I just want to continue the attention on 
this. And as I said, we may run out of time, but it is 
important to all of us to see that we move forward on this 
issue.
    Secretary Mabus. It is, Congresswoman. It is a crime. It is 
an attack on a service member. It is an attack on a shipmate. 
And I know we are about to run out of time, and we will get 
you--the Navy and Marine Corps have been active both from the 
top down and also the bottom up, so that every person that 
comes into the Navy and Marine Corps and every person who is in 
the Navy and Marine Corps are being trained in how to intervene 
and trying to bring the numbers down of this absolutely awful 
crime.
    [The information referred to can be found in the Appendix 
on page 187.]
    Ms. Pingree. Thank you for your attention to that, and we 
can follow up with you later.
    The Chairman. The gentlelady's time has expired.
    We will now take a 5-minute recess and reconvene at 2 
minutes after.
    [Recess.]
    The Chairman. The committee will reconvene.
    Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman.
    And to Secretary Mabus, CNO Greenert, and Commandant Amos, 
thank you for being here, for your service to your country. And 
it has been a great privilege of mine to get to know each of 
you and to work with our men and women in uniform.
    A week ago Saturday, I had the privilege to fly out to the 
USS Wasp and see our sailors and marines in action. Their 
performance not only there, but across the world, and 
particularly in our combat zones, reflect excellence in 
leadership and I thank you for that.
    Secretary Mabus, your prioritization of alternative fuels, 
it really does, in my view, merit more discussion and 
attention. Let me say first where we agree. I think I quoted 
you--I am going to quote you here correctly that ``We would be 
irresponsible if we do not reduce our dependence on foreign 
oil.''
    I completely agree with that. You know, for example, when I 
hear that we have maybe a couple-hundred years of this type of 
fuel or that type of fuel, some people take comfort in that. It 
raises the alarm with me, you know, that we need to get on it. 
We need to move on this.
    And off the coast of Virginia, I introduced legislation to 
open up the energy resources that are there, working with the 
Navy, of course, to make sure we don't interfere with the ship 
movement. And also wind--you know, I think wind needs to be a 
part of that.
    Now, with all of that said, a couple of statements that you 
made, they just don't comport with what I understand to be 
true. One is that like solar and geothermal energy are 
competitive today, what you are purchasing that energy for with 
what we get on the open market. And I don't understand as well 
the statement ``making us a better military.'' I do not 
understand that.
    It seems to me that we should focus within the DOD 
exclusively on what we do best or what the DOD does best, and 
raising up an Army, Navy and defending this great country, and 
then energy exploration, efforts to make us more energy 
independent and to get more efficiency out of vehicles and 
equipment, that would be principally done in other departments, 
unless they want to begin supplemental funding of our Navy.
    So the first question is, could you be specific, as 
specific as you can, with the opportunity costs? That is, the 
cost of pursuing alternative fuels, that if we had not 
purchased one dollar of them, the difference between that cost 
of fuel versus incorporating such a strong emphasis on 
alternative fuels.
    Secretary Mabus. Well, what I would like to do is respond 
to your question how it makes us a better military. When you 
look at any military, you look at vulnerabilities. You look at 
vulnerabilities of your potential adversaries, but you also 
look at your own vulnerabilities.
    And one of the vulnerabilities that we have as a military 
is our reliance on foreign sources of oil. The way I have 
stated it is we would never let these countries build our 
aircraft or our ships or our ground vehicles, but we give them 
a vote on whether they fly, whether they steam, whether they 
are operated because we purchase too much of our energy from 
them.
    And even if you have sufficient supply, the price shocks 
that come. As I pointed out, Libya started about a year ago 
almost, and just from that one crisis, the price of oil went up 
$38 a barrel. That is a $1.1 billion additional fuel bill for 
the Navy. And the only place we have to go get that money is 
out of our operational accounts.
    And because it is a global commodity, because it--the price 
is set globally and it is set on sometimes on rumor, sometimes 
on potential crises. You saw what happened just when the 
Iranians threatened to close the Straits of Hormuz, the price 
of oil shot up. I think we have to insulate our military from 
that.
    And then just in terms of history. Changing energy is one 
of the Navy's core competencies. It is one of our core 
missions. We went from sail to coal in the 1850s. We went from 
coal to oil in the early part of the 20th century. We pioneered 
nuclear as a method of transportation. So I would argue that it 
is exactly what the Navy and Marine Corps need to be working 
on.
    And finally, in terms of expeditionary energy, I will go 
back to what I said. One death or one injury to a marine 
guarding a fuel convoy is just too much.
    Mr. Rigell. We share that value, Mr. Secretary.
    The time does not permit me to respond directly to that 
like I would like. But can you tell me, do you have the 
information available readily, what that opportunity cost is--
the amount that we are spending on fuel that is higher than we 
would spend if we had just gone out to the market and bought 
fuel at the lowest available price?
    Secretary Mabus. We are buying such small amounts of--and 
you are speaking now, I assume, of biofuels.
    Mr. Rigell. Well, maybe we need to do this off line, 
because I don't want to get wrapped up here in my last minute. 
But the principle is this, that there is an opportunity cost. 
Your threshold for that is higher than my own because it does 
put pressure on all other areas. And we are in complete 
agreement, Mr. Secretary, that we need to move away from our 
dependence on foreign oil.
    I make the case that part of our oil--our dollars at the 
pump are going to leaders who do not share our values--Hugo 
Chavez; they end up flowing to madrasas in Pakistan. And you 
know what happens there, and they flow over into Afghanistan.
    So you have my full attention, Secretary Mabus, on this 
matter of moving the country to energy independence. But in 
this competition for scarce resources, dollar resources, it 
does seem to me that we are putting a disproportionate emphasis 
within DOD and the Navy.
    And I have 10 seconds, please.
    Secretary Mabus. Well, we will continue this offline, and I 
will be very happy to do that.
    [The information referred to can be found in the Appendix 
on page 189.]
    Secretary Mabus. On the land-based part of this energy, all 
our projects have a 4- to 6-year payback, so that after that 
time for only maintenance money you are going to be getting 
energy much cheaper than you do it today.
    Mr. Rigell. Thank you, Secretary Mabus. Thank you.
    The Chairman. If things get really bad I guess we could 
drill in the ANWR [Arctic National Wildlife Refuge], we could 
drill off the coast, we could find a lot of our own energy 
here.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And, Secretary Mabus and Admiral Greenert, General Amos, 
thank you for all of your service and certainly working with me 
in San Diego. I appreciate that. Sorry I had to leave for a few 
minutes.
    I was certainly pleased to hear that the Marine Corps has 
recently been engaged in revamping the transition assistance to 
those who are leaving the service.
    And yesterday at our hearing Secretary Panetta mentioned 
and really raised his concerns regarding the large exodus of a 
segment of our service population which, as we move on with a 
smaller force--over the next few years, of course--that many 
more service members will be returning to the civilian sector.
    And I am wondering, outside the service-mandated transition 
assistance programs that are already available, but again are 
being looked at because they haven't necessarily done all that 
we would like them to do, what tools are available to our 
marines and certainly our sailors as they begin that 
transition?
    What are we doing in working with industry; with the 
civilian sector to capture best practices so that so many of 
these wonderful men and women will have a transition during 
some of these difficult economic times?
    General Amos. Congresswoman, thank you.
    Actually we are very excited about a program that we 
debuted just last month at two of our major bases, both Camp 
Pendleton and down in Camp Lejeune. Came to the conclusion a 
year--little over a year ago that we were failing in our 
responsibility to be able to consistently return young men and 
women back to society with jobs that they could hold their 
heads up. It was beyond me that a young marine could lead 
fellow marines in combat and then have a hard time finding a 
job and find himself unemployed and then homeless.
    So we started a complete revision. We started completely 
with a blank sheet of paper on our transition assistance 
program. In a nutshell, to capture industry, capture all these 
organizations, capture the unions, the trades, the universities 
that have consistently come to us over the last several years 
and said, ``We want to help.''
    We end up with a program of about 2 days where we talk V.A. 
[Veterans Affairs], we talk about all that. And then, like 
``Price is Right,'' you get to choose behind one of four doors.
    Education, in which case you walk behind that door and we 
have skilled counselors that will help you fill out your 
college application. We have habitual relations with 
universities right now where we can get young men and women 
into colleges.
    You go behind door number two, and that is the trades, and 
that is the union trades, that is the apprenticeship programs. 
We are putting marines in that right now and we have that down 
in San Diego with the pipefitters union.
    Door number three is entrepreneurship. If you think you 
want to go out and start your own business, we have folks that 
will help counsel you on that. We have successful business men 
and women that will counsel.
    And door number four is, ``I just want to get out and get a 
job,'' and we are going to help you fill out your resume.
    So we are headed down that path. It is probably going to be 
a couple years before we really begin to feel the benefits of 
it, but, Congresswoman, we are dedicated to making a 
difference.
    Mrs. Davis. Are there resources that really need to be 
tapped that we don't have the authorities to do or that we 
haven't set up the programs or are planning to have the kind of 
support there that we really need. Because I think that some of 
these programs are, in fact, they are good, but they are 
reaching a relatively few number of marines.
    General Amos. Ma'am, we have put out, oh goodness, about 
30,000 marines, a little bit more a year leave the corps, 
both--retirement and the first enlistment that we talked about 
earlier.
    My goal is that 100 percent of--all of them--have an 
opportunity to be able to find gainful employment. It is not a 
matter of a small number, my goal is 100 percent.
    Mrs. Davis. And, Admiral, with the Navy as well?
    Admiral Greenert. Ma'am, we allow them--entitle them 60 
days of additional leave for job search. So it makes it easier. 
They don't have to plan that, doesn't make it more complicated.
    We have what is called Navy credential opportunities 
online, it is called COOL, C-O-O-L, and that takes their Navy 
job skills and transitions them for, if you will, civilian 
certifications, which are recognizable and translatable.
    We also have an outplacement service. We contracted with a 
commercial contract--outplacement service.
    Mrs. Davis. Thank you. Look forward to working with you all 
on those.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And, Secretary Mabus, I want to get back to what 
Congressman Rigell was speaking about. My specific question--
and I will elaborate on it a little bit--is that the President 
in his State of the Union said that the Navy was going to add 1 
gigawatt of renewable energy sources from solar, wind, and 
geothermal. How much is the Navy going to spend on that?
    Secretary Mabus. Net taxpayer dollars zero. We are going to 
do it through public-private partnerships, we are going to do 
it through power offtake agreements and things like that. But 
in terms of building up the infrastructure, none.
    Mr. Scott. You are not going to spend anything on the 
infrastructure?
    Secretary Mabus. No, sir. It will be privately built and we 
will have offtake contracts for it.
    Mr. Scott. Okay. It is going to be privately built. So 
somebody is going to spend something to build it and then you 
are going to lease it from them. How will that work?
    Secretary Mabus. Private industry will build the 
facilities, whether it is solar or wind, and then we will buy 
the energy from that for our bases on land, obviously.
    Mr. Scott. And what will your cost per kilowatt hour be?
    Secretary Mabus. It will be whatever we are paying for 
kilowatt hour now, but it will be competitive with whatever we 
are doing. That is the whole purpose of it, is to be 
competitive. And that would be the way we are approaching this, 
is that it has to be competitive.
    Mr. Scott. Well, Mr. Secretary, I certainly--I hope you are 
as successful as you believe that will be. I would love to see 
a more detailed analysis of that. I mean, renewables are less 
than 10 percent of what is used throughout the world today, and 
the reason for that is the cost of the renewables.
    So I would appreciate the opportunity to sit down and see 
more details on that.
    Secretary Mabus. I will be happy to do that.
    Mr. Scott. And also are you aware that the Department of 
Energy actually got an increase in their budget recommendation?
    Secretary Mabus. No, sir, I have not followed the 
Department of Energy's budget.
    Mr. Scott. Is there any other department in the President's 
budget recommendation that has received anywhere close to the 
types of cuts that the military has?
    Secretary Mabus. Yes, sir. I mean, the----
    Mr. Scott. Which departments?
    Secretary Mabus. Well, the--for the last 2 years V.A., 
Homeland Security, and Department of Defense were the only 
agencies in the Federal Government that received increases, and 
the decreases that we are talking about today, the $487 billion 
over the next 10 years or $259 billion over the next 5 years, 
were the decreases mandated by Congress in the Budget Control 
Act.
    Mr. Scott. Well, I have said this before, I know, and I 
will--I did not vote for sequestration. And I want to do 
everything I can to undo it. But I would very much like to see 
how we are going to generate that much electricity. That is 
enough to power 250,000 homes. And if it is not going to cost 
anything I would like to----
    Secretary Mabus. The private sector would not invest in 
something like this if they didn't think it was going to be 
successful and profitable. And I am confident that we will be 
able to do that. And when I say it won't cost anything, it will 
be no taxpayer dollars extended net for all the facilities, but 
we will have the benefit of buying the electricity.
    And one of the things, a question I got asked earlier was 
about how secure are our sources of energy from the grid. And 
one of things would be to help us become independent of the 
grid so that we could continue our military operations.
    Mr. Scott. Absolutely. Absolutely. And I agree with that. 
And I just want to reiterate that you said that we as the 
military were going to pay the same price for a kilowatt hour.
    Secretary Mabus. At the end of the program we are--that is 
the absolute goal of the program, to have a competitive price 
with whatever we are paying today from utilities.
    Mr. Scott. The goal. But it is not contractually 
guaranteed.
    Secretary Mabus. We don't have any contracts yet, sir.
    Mr. Scott. Okay.
    Secretary Mabus. We are just beginning the program.
    Mr. Scott. The President announced it in the budget as if 
it was already laid out. I am sorry, in his address to 
Congress, as if it was already laid out. But, hey, I hope you 
are right. I hope he is right on this one. I would love to see 
us be able to have renewables at the same price that we have 
nuclear power at. I am looking forward to seeing you and going 
through that.
    And I would take one issue with one thing that gets said. 
You know, this--we say we are going from a win-win to a win-
hold-win. I mean, the bottom line is, I think we have the men 
and the women and the weapon systems to win and to win and to 
win again. I think the problem is we run into rules of 
engagement, if you will, that keep us from winning in an 
efficient and effective manner.
    Thank you for your time. I yield back to the chair.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, Mister--or Mr. Secretary, 
Admiral, and General, for being here today.
    The new defense strategy and budget request reflect the 
hard work and forward thinking of President Obama, our DOD 
civilian leaders, and our senior military commanders. And I 
want to thank you for that.
    As I said yesterday to Secretary Panetta and General 
Dempsey, ominous and exaggerated fears expressed in response to 
the President's budget request, in terms of the reduction of 
funds spent for defense--those fears are unfounded. There is no 
way a 1-percent reduction of the Pentagon's base budget from 
2012 to 2013 could mean the difference between the world's 
greatest military and a hollowed-out force.
    In fact, I believe there is room for further savings in the 
Department's budget, though I strongly oppose across-the-board 
cuts that would be imposed by way of sequestration.
    Mr. Secretary, I have a very specific request. By the end 
of this month, I would like to have--I would like for the Navy 
to analyze how much could be saved over the next 10 years by 
going to a single LCS [Littoral Combat Ship] design and moving 
production to a single shipyard, even if that means reducing 
the build rate to three ships per year.
    I would also like to know which of the LCS designs you 
would choose if you could have only one. And I would like this 
analysis by the end of this month. Would you be able to put 
that in writing for me?
    Secretary Mabus. Yes, sir. And I can give it to you right 
now.
    I made the decision in the summer of 2009, when we bid out 
three LCS's and the prices came in just unacceptably high, that 
they would have to compete against each other.
    Over the course of the next year, as the bids went out and 
we said that price would be the major determinant of who the 
winner was and that we were going to select one shipyard to 
build 10 ships over the next 5 years and then they would give 
us the design for all their technical papers, all their 
designs, and we would bid it out for a second shipyard so we 
could keep competition going in the program, because we thought 
that was very important.
    Over the course of the next year, those bids came down by 
about 40 percent. We came back to Congress and got permission 
to buy both variants. We have bought 10 ships of each variant 
over the 5 years from fiscal year 2011 to fiscal year 2014.
    The last ship of each one of those variants will cost about 
$350 million, which is a huge reduction from the original cost.
    And the ships cost almost exactly the same thing. And these 
are firm, fixed-price contracts so we know what we are going to 
get and we know exactly how much we are going to pay for them.
    Mr. Johnson. Yes, it just seems to me that two different 
designs mean two different training, logistics, and maintenance 
efforts, the loss of economies of scale that would come from 
cranking out more of one kind of design. And it seems that--I 
am still not clear as to whether or not there is--this is a 
good thing or not. And I would like additional information on 
it if you would.
    And I would also like to say that the fiscal year 2012 
National Defense Authorization Act reinstated the requirement 
that the Navy provide Congress with a 30-year shipbuilding plan 
to inform us as we build this fiscal year 2013 budget.
    The requirement is codified at 10 USC-231 Section 1011. And 
no such plan has been provided as of yet. Will you get this 
plan to us by the end of the month?
    Secretary Mabus. We will get this plan to you when we get 
all the supporting budget documentation here. That has been our 
plan all along, sir.
    [The information referred to can be found in the Appendix 
on page 190.]
    Mr. Johnson. When would that be?
    Secretary Mabus. It will be within the next few weeks. I am 
not sure of the exact date, but it--there is supporting 
documentation that comes over after the budget, and that was 
part of that supporting documentation.
    Mr. Johnson. Well, that information is sorely needed.
    The Chairman. The gentleman's time is expired. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman, and thank you to our 
witnesses who are here today and thank you for your service to 
our Nation.
    Mr. Secretary, thank you for working with the state of 
Mississippi on making sure the USS Mississippi commissioning 
became a reality. And of course I enjoyed being with you and my 
colleague ``Two Subs'' Joe in Groton, Connecticut, for the 
christening. So thank you so much for that.
    It is going to be a proud day for the entire state of 
Mississippi and the region, and I know the shipbuilders, 
whether they are from Groton, Connecticut, or from Pascagoula, 
Mississippi, they build the world's greatest war ships, even 
though they are not in the same state. So thank you for that.
    When I first read the strategic guidance, I must say I was 
relatively pleased that the Navy and Marine Corps has indicated 
that there will be an increase in the amount of attention given 
to the Pacific. And I was also pleased that the amphibious 
capability seemed to get a fair amount of attention.
    I am pleased that the Pacific is, of course, garnering 
attention because I actually had an opportunity to go on a 
CODEL [Congressional Delegation] with my one of my members from 
the House Armed Services Committee, and it opened my eyes to a 
lot of concerns and possibly emerging threats in that region 
and how it could affect our economic and national security, 
which I believe go hand in hand and are inseparable.
    So to start, General Amos, not too long ago, according to 
Marine Corps testimony and reports submitted to Congress, the 
Marine Corps forcible entry requirement mandated a minimum of 
33 ships, 10 of which had to be aviation-capable big-deck 
ships.
    The shift in strategy to more emphasis on Asia would 
require the same or more given the maritime makeup of the 
region. Is that correct?
    General Amos. Congressman, we have agreed and testified for 
several years that the capability we needed was two Marine 
Expeditionary Brigades worth of forcible entry. I made a 
comment earlier in this testimony that we ended up--so the 
answer is yes, but in all that we have done, we have made some 
very difficult decisions to try to balance the budget, to try 
to make ends, ways and means meet.
    So in everything here, there is an element of risk. I am 
satisfied with the way the 5-year defense plan has come out. I 
am very grateful to my colleague to my right to agree to build 
another large-deck amphibious ship and not retire one of the 
LSDs. So I am pleased with where we are right now.
    Mr. Palazzo. Okay. Thank you, General. That answered one of 
my other questions. The budget does not meet the requirement, 
but yet you support it for the reasons you stated.
    Does this suggest that the forcible entry strategy 
amphibious doctrine has taken a backseat in the Marine Corps?
    General Amos. Absolutely not, sir.
    Mr. Palazzo. So you are going to keep----
    General Amos. The truth of the matter is from the sea, the 
only capability our Nation has for forcible entry to impose its 
will somewhere down the road, even though it may be hard to 
imagine, but the only capability it has will be from those 
amphibious ships. And that is the forcible entry that the Navy 
and Marine Corps team brings.
    Mr. Palazzo. Well, General, I agree with you.
    The budget submitted delayed a big-deck LHA amphibious ship 
from current consideration by moving it outside the future 
year's defense plan. Does this alter the number of F-35B V/STOL 
[Vertical and/or Short Take-off and Landing] aircraft required 
by the Marine Corps?
    How should we view the aviation part of the budget in the 
context of delayed or canceled aviation-capable ships?
    General Amos. Congressman, at the end of the day, the plan 
is to end up with 11 large-deck amphibious ships. And that has 
always been the requirement, and that is our plan right now. 
And to move, like I said, to bring LHA-8 inside the FYDP is a 
very positive move.
    It will not alter our requirements for STOVL [Short 
Takeoff/Vertical Landing] F-35B. That is a--we will have the 
only capability throughout the world, to have a STOVL short 
takeoff/vertical landing airplane on a large-deck amphibious 
ship.
    Mr. Palazzo. Well, thank you, General. And I don't have 
much time left. I would just like to reiterate, as a 
congressman from Mississippi's 4th Congressional District, I 
take very seriously my constitutional responsibilities as well 
as my oath to office.
    And just as you all have done, you made an oath to support 
and defend the Constitution of the United States against both 
enemies domestic and foreign. And I also feel like my number 
one congressional responsibility is the common defense of this 
Nation, again, both at home and abroad.
    And we have to do whatever it takes to make sure 
sequestration does not hit our military. You know, when I first 
got here, less than 13 months ago, we were talking about $78 
billion in cuts. And then it was $100 billion in efficiency 
savings that was going to be reinvested. And now we are at $487 
billion with the possibility of another $500 billion.
    That is reckless. It is dangerous. It is morally 
irresponsible. And I do believe it is going to hollow out our 
forces and our military and it is going to cost more time, 
blood and treasure to reconstitute it for the not when--not if 
but when another engagement happens.
    So I don't want to balance our financial woes on the backs 
of our men and women in uniform. So help us make sure that 
doesn't become a reality. Thank you.
    The Chairman. Just us.
    [Laughter.]
    Admiral, General, one final question. In your best military 
judgment, what do you see as the greatest risk that we pick up 
new risk by these cuts--by this new cut strategy, all that you 
have just gone through?
    We know we have added risk. We have picked up risk. What do 
you see in your best military judgment as the greatest risk?
    General Amos. Chairman, I was in on the ground floor of 
developing this strategy, and I am a big fan of it. I think it 
is the right strategy for the right time. I truly mean that. I 
think it is right----
    The Chairman. And I thank you for all you have done for 
that. But I think everybody realizes, before these cuts, we 
were still having--we still have risk. This added to the risk. 
I am just wondering what----
    General Amos. Sir, in my military opinion, the risk that is 
added here is just--it is a function of--and as I said about 2 
weeks ago when we were in here talking strategy and budget, it 
is a function of capacity. It is the ability to be able to do 
multiple large-scale things around the world.
    Has that happened before? I mean, has that--and is it 
likely to happen in the future? I mean, that is the question. 
My sense right now is the risk is modest--looking at the world, 
looking at the actors that are out there in the worlds, the 
ones that we--the ones that we worry the most about, not the 
steady-state actors, the ones that are the big-time actors.
    I think it is modest risk. And I think it is affordable and 
I think we can deal with it now, Mr. Chairman. I am okay with 
that. But its capacity for large-scale, multiple things that 
might go on simultaneously, and I know that makes complete 
sense to you.
    The Chairman. Thank you.
    Admiral.
    Admiral Greenert. Mr. Chairman, I spent most of my career 
in the Pacific. And so what I have learned in my time out there 
is it is about relationships, solid partnerships, and what I 
will call tangible presence. You have to be there. They like to 
talk, but they want to see you.
    And in my view, this strategy is a good strategy. It 
nicely, I think, distributes capability. But as the general 
said, there is a capacity. And most of the questions today that 
we dealt with, I think, were capacity.
    And for me and my six words, I have to be--we have to think 
warfighting because when called upon, we have to do it now, but 
we have to be forward. And to me, the biggest risk is we are--
we do not understand that, that we have to be out there and 
there are ways, I think, to do that and I think--I am hoping we 
will get support for that.
    And lastly, we have to be ready, not just parts and gas and 
all that. We have to be proficient at what we do and keep those 
investments intact.
    Thank you for the opportunity to comment.
    The Chairman. Thank you very much.
    Thank you for being here. Thank you for all you do for our 
Nation.
    This hearing is adjourned.
    [Whereupon, at 3:38 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           February 16, 2012

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 16, 2012

=======================================================================
      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

Fiscal Year 2013 National Defense Authorization Budget Request from the 
                         Department of the Navy

                           February 16, 2012

    Thank you for joining us today as we consider the 
President's Fiscal Year 2013 budget request for the Department 
of the Navy.
    We are pleased to welcome the Secretary of the Navy, the 
Honorable Ray Mabus; the Chief of Naval Operations, Admiral 
Jonathan Greenert, in your first posture hearing before the 
Committee, as CNO; and General James Amos, Commandant of the 
Marine Corps.
    Thank you, gentlemen, for your service and for the 
leadership you provide to our outstanding sailors and marines.
    We clearly understand the challenges the Department of the 
Navy faced in crafting this budget request, considering the 
Administration's cuts and the mandates of the Budget Control 
Act of Fiscal Year 2011. The Fiscal Year 2012 budget request 
projected the construction of 57 new ships from fiscal year 
2013 to fiscal year 2017. With this budget request, the 
shipbuilding procurement account was reduced over the same 
period by $13.1 billion, and the number of new construction 
ships was reduced to 41, a decrease of 16 ships, or 28%, over 
those 5 years.
    The fiscal year 2012 budget request also projected building 
873 new aircraft and unmanned aerial vehicles for the Navy and 
Marine Corps from fiscal year 2013 to fiscal year 2017, and 
with this budget request that number has been reduced 13% to 
763.
    Also, the Marine Corps will decrease in size by 20,000 
marines during the same timeframe. Additionally, the Navy will 
decommission seven cruisers and two amphibious ships before the 
end of their service lives.
    Overall the Department of the Navy budget request for 
fiscal year 2013 is $155.9 billion, which is $5.5 billion less 
than the fiscal year 2012 budget request, and $9.5 billion less 
than the planned fiscal year 2013 request submitted with the 
fiscal year 2012 budget request.
    Amidst these dramatic changes to force structure, a few 
months ago, the Administration outlined revised strategic 
guidance, that would ``pivot'' our forces from the land wars of 
the past 10 years to focus more on the Asia-Pacific region--an 
area where naval and air power is critical. This area has close 
to half the population of the world, with certain countries 
that have invested in the development of what is called anti-
access, area denial capabilities.
    Our Navy and expeditionary forces are instrumental in 
protecting our national interests in this vital region of the 
world. I am concerned that budget cuts of this significance to 
our Navy and expeditionary forces will increase our risk in 
this theater.
    A couple of weekends ago I had the pleasure and privilege, 
along with some of my colleagues, of seeing our Navy and Marine 
Corps in action by visiting the USS Wasp and USS Enterprise, as 
they participated in Exercise Bold Alligator, the largest 
amphibious exercise conducted in over 10 years. It is 
encouraging to see our Navy-Marine Corps team back together 
after the marines have necessarily been focused more on the 
land wars in Iraq and Afghanistan. One thing is a constant when 
I go on these trips. Our soldiers, sailors, airmen, and marines 
are the best fighting force in the world, and deserve our best 
support.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

Fiscal Year 2013 National Defense Authorization Budget Request from the 
                         Department of the Navy

                           February 16, 2012

    Mr. Chairman, thank you for holding this hearing today. I 
want to also thank the witnesses, Secretary of the Navy Ray 
Mabus; the Chief of Naval Operations Admiral Jonathan Greenert; 
and the Commandant of the Marine Corps General James Amos, for 
appearing here today and for their dedicated service to our 
country.
    Earlier this year, the President released the findings of a 
strategic review, which clearly articulated the global threat 
environment, and presented a broad strategy to address those 
threats moving forward. This strategic review appropriately 
places a renewed focus on the critically important Asia-Pacific 
region.
    A key component of this strategic shift is, as Secretary 
Panetta stated yesterday, a ``Navy that maintains forward 
presence and is able to penetrate enemy defenses and a Marine 
Corps that is a middleweight expeditionary force with 
reinvigorated amphibious capabilities.'' The 2013 Defense 
Budget ensures this by providing the Navy and Marine Corps with 
the resources and tools they need to continue to be essential 
parts of the strongest fighting force the world has ever seen.
    I have consistently said that we can rationally evaluate 
our national security strategy, our defense expenditures, and 
the current set of missions we ask the military to undertake 
and come up with a strategy that enhances national security by 
spending taxpayer dollars more wisely and effectively. I 
believe this budget meets that goal as well.
    Overall, the defense budget is also fully consistent with 
the funding levels set by the Budget Control Act passed by 
Congress. Although I did not support this act, many members of 
the House Armed Services Committee did, Congress passed it, and 
the Department of Defense has submitted a budget that complies 
with the congressionally mandated funding levels.
    Over the last few years, with the strong support of the 
Navy and Marine Corps, our military has put together a 
significant string of foreign policy successes, including the 
death of bin Laden, Anwar Al-Awlaki, the elimination of much of 
Al Qaeda's leadership, the end of the war in Iraq, and 
supporting the uprising in Libya. The budget lays out a 
strategy that will enable the United States to build on those 
successes and confront the threats of today as well as in the 
future.
    I want to thank the witnesses again and I look forward to 
hearing their testimony.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 16, 2012

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 16, 2012

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MS. PINGREE

    Secretary Mabus. The Department of the Navy (DON) is dedicated to 
eradicating sexual assault, and has established the DON Sexual Assault 
Prevention and Response Office (SAPRO), which reports directly to the 
Secretary of the Navy. This office, in addition to the 21st Century 
Sailor and Marine initiative works to remove the stigma of reporting 
sexual assault incidents. This includes eliminating requirements to 
report post-assault counseling on some Federal security clearance 
forms, and improving victims' abilities to quickly transfer from a 
command. Since alcohol is shown to be a common factor in sexual assault 
and domestic violence, the Navy is instituting breathalyzer tests for 
sailors as they report aboard ships for duty. Additionally, the 
Department of the Navy has instituted a host of training sessions as 
educating our sailors and marines remains a top priority.

    Navy

    The Navy has a full cadre of Sexual Assault Prevention and Response 
(SAPR) training to ensure all sailors are aware of contributing factors 
that increase the chance of becoming a victim, the available reporting 
options, contact information for SAPR personnel and other personnel who 
can provide care and support, as well as other training initiatives.

        <bullet>  All enlisted personnel receive SAPR training during 
        new recruit training. Students at Training Support Center (TSC) 
        ``A'' schools receive bystander intervention training which 
        encourages sailors to ``step-up'' and stop potential sexual 
        assaults and other dangerous situations that may occur. A 
        sexual assault prevention pilot program is being run by Great 
        Lakes leadership, with support from the Chief of Naval 
        Operations and the Department of the Navy Sexual Assault 
        Prevention and Response Office (DON-SAPRO). This pilot focuses 
        on Navy's highest risk demographic (E1-E4, 20-24 years old) and 
        involves a suite of prevention strategies. Results to date have 
        been positive and more analysis will be conducted as the pilot 
        continues.

        <bullet>  SAPR training is required annually for all Navy 
        personnel and by direction will be delivered face to face with 
        the involvement of Command senior leadership. Navy provides two 
        levels of annual training, (1) Basic Awareness and (2) 
        Application of Concepts, both of which support continual 
        learning.

        <bullet>  Sexual assault awareness and prevention training is 
        provided at the Navy's prospective Commanding Officer and 
        Executive Officer, Command Master Chief, Department Head and 
        Division Officer leadership courses. This SAPR training is 
        commensurate with increases in their rank, responsibility and 
        accountability. Training emphasizes the impact command climate 
        has on setting a tone of professionalism, respect and trust. 
        Additionally, the SAPR training focuses on the correct process 
        for reporting sexual assaults as well as providing support to 
        victims.

        <bullet>  All Commanding Officers are required to have a 
        comprehensive SAPR briefing from the Installation Navy Sexual 
        Assault Response Coordinator (SARCs) within 90 days of assuming 
        command. During this briefing, Commanding Officers are made 
        aware of the following: (a) program and services provided to 
        victims by the SARC; (b) required SAPR positions in the unit; 
        (c) reporting options (restricted or unrestricted); and (d) 
        command requirements in response to a victim's report. They are 
        also provided a newly revised Commander's Toolkit, which gives 
        valuable information to Commanding Officers on sexual assault 
        response.

    Marine Corps

    The Marine Corps is providing training on how to intervene as it 
relates to sexual assault for every person coming into the Marine Corps 
and every person in the Marine Corps.

        <bullet>  SAPR training is being taught at initial entry and 
        accessions levels.

        <bullet>  ``Take A Stand,'' sexual assault prevention training 
        for Non-Commissioned Officers (NCOs), focusing on bystander 
        intervention, was launched 15 January 2012. Target completion 
        date for all NCOs is 1 October 2012.

        <bullet>  Standardized Command Team Training will be 
        implemented 16 April 2012. Training will be mandatory for all 
        current and incoming Commanding Officers, Executive Officers, 
        First Sergeants, and Sergeants Major. Training is designed to 
        equip command teams with the skills necessary to implement an 
        effective unit SAPR program, properly care for victims who come 
        forward, and improve their command climate as it relates to 
        sexual assault.

        <bullet>  Updated curriculum for Uniformed Victim Advocate 
        training has been credentialed by the National Advocacy 
        Credentialing Board and will be implemented beginning in June 
        2012.

        <bullet>  Revised annual training for all marines, scheduled 
        for implementation late summer 2012, will incorporate bystander 
        intervention techniques.

        <bullet>  The top-down leadership message, beginning with the 
        Commandant and disseminated throughout the Corps, is that ``It 
        is every marine's inherent responsibility to prevent sexual 
        assault.'' This message emphasizes the need of all marines to 
        intervene and prevent sexual assault. [See page 38.]

    General Amos. The Marine Corps has been and continues to be 
vigilant in our prevention and response efforts. We believe prevention 
starts with engaged and concerned leadership with a top-down, clear and 
consistent message: One sexual assault in the Marine Corps is one too 
many and it will not be tolerated. We recognize the devastating and 
lifelong impact sexual assault has on victims as well as the 
detrimental effects it places on readiness throughout the entire Corps. 
This criminal act goes against who we are as marines and it goes 
against our core values.
    The overarching priority for the Marine Corps is to reduce the 
number of incidents and increase reporting by using a consistent and 
focused emphasis on command climate and engaged leadership. As such, we 
have proactively undertaken a number of initiatives to get ahead of 
this problem and the trends we are seeing. First and foremost, I 
recently convened an Operational Planning Team (OPT) on sexual assault, 
consisting of 22 senior officers and staff noncommissioned officers 
(SNCO) whom I hand-selected based on their integrity, experience and 
sterling reputation throughout our Corps. This group met throughout 
April 2012 to evaluate all issues of sexual assault in the Marine Corps 
today with the goal of establishing a comprehensive Service Campaign 
Plan to bring about substantive change. I will soon issue formal 
guidance to all commanders in the Marine Corps implementing this very 
aggressive Plan. I intend to gather all Marine Corps General Officers 
at Quantico early this summer to reinforce this implementation by 
personally passing my expectations in terms of sexual assault 
prevention and enforcement. This plan will be enforced with the utmost 
rigor, and I intend to hold leaders at all levels, bystanders, and most 
especially perpetrators of sexual assault accountable for ridding our 
ranks of sexual assault.
    Furthermore, the Sergeant Major of the Marine Corps and I are 
currently traveling to bases and stations throughout the Marine Corps 
for a period of 60 days to address all officers and SNCOs on leadership 
challenges and trends today, requiring their utmost attention. Sexual 
assault is a principal focus of these briefs, where I am personally 
charging leaders at every level of command that a cultural change must 
occur now.
    The Marine Corps also has revitalized our curriculum for Non-
Commissioned Officers to include a new, video-based bystander 
intervention curriculum--``Take A Stand''--which is designed to reduce 
stigma by stimulating conversation and engaging marines with a more 
personalized message about sexual assault prevention. We are also 
incorporating video-based training into other initiatives, to include 
our command team, annual and chaplain training. Our aggressive training 
plan includes quality assurance efforts, such as regional road shows 
that occurred in February and March 2012 to train our senior Sexual 
Assault Response Coordinators on implementing new policies. In 
addition, our updated curriculum for Uniformed Victim Advocate training 
has been credentialed by the National Advocacy Credentialing Board and 
will be implemented beginning in June 2012.
    The Marine Corps is aware that sexual assault remains one of the 
most underreported crimes. It is our duty to ensure victims feel safe 
coming forward and trust that we will act in their best interest. 
Command team training, taught by subject matter experts at the 
installation level, emphasizes the importance of a command climate that 
does not condone sexual assault and reinforces the message that senior 
leaders will take appropriate actions with every tool available when 
reports are made. Commanders are instructed to complete this training 
within 45 days of assuming command.
    We have established 24/7 sexual assault Helplines at every major 
installation and Marine Forces Reserve to provide victims with 
information, resources and advocacy. These Helplines are answered 24 
hours a day, 7 days a week, by an advocate who is trained to provide 
immediate assistance to victims of sexual assault. Full-time Sexual 
Assault Response Coordinators and Victim Advocates also stand ready to 
provide a coordinated effort among first responders.
    In recent years, we have learned that the prevention of and 
response to sexual assault must be multi-faceted and cannot be managed 
in isolation. The recent integration of sexual assault services within 
our Behavioral Health Branch has proven to be beneficial. The 
overlapping impact of alcohol use and abuse, Post Traumatic Stress and 
suicidal ideations resonate within our other programs. Pooling our 
resources and taking a holistic approach to care has strengthened our 
ability to address the co-occurring needs of victims.
    Throughout the Corps, we now have 27 Master of Criminal Law 
billets, which are positions for Judge Advocate General (JAG) attorneys 
equipped with the special skills and training to prosecute sexual 
assault cases and mentorship to train other JAGs in sexual assault. 
During FY11, the Marine Corps Trial Counsel Assistance Program (TCAP) 
trained 118 Marine Judge Advocates in sexual assault investigation and 
prosecution best practices at locations on the East and West Coasts and 
in Hawaii. TCAP will continue this training in FY12 with plans to train 
approximately 125 Marine Judge Advocates and 75 enlisted legal service 
specialists (paralegals). We have invested in the skill sets of special 
agents within our Navy Criminal Investigative Service cadre, with 1,200 
special agents now trained as sexual assault first responders. An 
additional 48 more special agents will receive advanced training this 
year. Lastly, we have a Victim Witness Assistance Program in place with 
liaison officers trained to ensure victims & witnesses are treated 
fairly and with dignity and that they are afforded rights and access to 
the resources necessary to address their cases and individual 
situations. We stand ready to continue listening, evaluating and making 
necessary changes. From training initiatives to providing support 
services, a comprehensive approach is utilized to combat sexual assault 
as it impacts the victim and the combat readiness of the Total Force. 
[See page 38.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. RIGELL
    Secretary Mabus. The alternative fuel initiative is an important 
investment for the Navy because it addresses a core concern for the 
future; specifically, our national strategic and military operational 
need for energy security and independence from foreign oil. Investing 
in future technologies, which the alternative energy effort represents, 
is crucial to the Department of the Navy's ability to remain the 
world's premier expeditionary force and avoid detrimental operational 
effects of rising energy costs.
    Navy is pursuing multiple paths to achieve a less petroleum 
dependent future. Navy will spend nearly $16M in FY12 on the laboratory 
capabilities to examine, test, and certify alternative fuels, which 
will position us to validate the safe use of a wide variety of drop-in 
replacement fuels in the future. The need to find cost competitive 
alternative fuels has never been greater. Unrest in Libya, Iran and 
elsewhere in the Middle East drove up the price of a barrel of oil by 
$38, which increases Navy's fuel bill by over $1 billion. Because every 
$1 rise in a barrel of oil is effectively a $30M unbudgeted bill to the 
Navy, in FY12 the Navy is facing a greater than $900M additional fuel 
cost because the price has risen faster than that estimated when the 
budget was passed. These price increases force us to cut our training 
and readiness budget, meaning our sailors and marines steam less, fly 
less and train less.
    Navy is forecasted to spend nearly $4B in FY12 on liquid fuel. Of 
this, only $12M, or 0.3% of the total FY12 fuel bill, will be used to 
procure alternative fuel. This purchase price is roughly equivalent to 
a $.40 increase in the price of a barrel of petroleum. These 450,000 
gallons of neat biofuel will be used to support the Green Strike Group 
demonstration during the Rim of the Pacific Exercise (RIMPAC) 2012. 
This neat biofuel will be combined with traditional fossil fuel to 
achieve a 50/50 biofuel/fossil fuel blend (the form in which it will be 
burned), making its consumed cost per gallon for this summer's test 
event $15.25/gal. The exercise culminates our testing and certification 
program by allowing the fleet to utilize 50/50 blends in operations 
such as underway replenishments for our destroyers and refueling of 
helicopters and jets on the decks of the carrier. Although the Navy 
must pay a premium price to obtain a small amount of biofuel for 
research and development, as well as test and certification purposes, 
the Navy will only purchase alternative fuels for operational purposes 
if the price is competitive with conventional fossil fuels. These 
alternative fuels will enable us to smooth out future price shocks. 
[See page 40.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. JOHNSON
    Secretary Mabus. The Annual Report to Congress on the Long-Range 
Plan for Construction of Naval Vessels for FY2013 is attached on pages 
157 through 183. [See page 44.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 16, 2012

=======================================================================

      
                    QUESTION SUBMITTED BY MR. FORBES

    Mr. Forbes. Despite describing the great potential of the UCLASS 
program in testimony for negating emergent A2/AD technologies, this 
program appears to be downgraded in the Navy's FY13 budget request and 
the FYDP. The UCLASS program was cut by $240 million this year and the 
limited operational capability (LOC) date is being delayed by two years 
from 2018 to 2020. Also, UCLASS was not mentioned as a key program for 
projecting power in contested areas in the Defense Budget Priorities 
and Choices document nor was it identified in the written testimony of 
Secretary Mabus as a capability the Navy is investing in to counter 
advanced A2/AD challenges. Given these decisions to cut the program and 
exclude it as a key investment to counter A2/AD technologies, how does 
the UCLASS program support defense strategy and how does the current 
funding profile support the UCLASS program in the Navy's new Strategic 
Guidance?
    Admiral Greenert. The Navy is committed to the UCLASS program and 
has no plans of abandoning development of the weapon system despite an 
austere fiscal environment. This key technological advancement will 
provide our carrier strike group with a low-observable, long-range, 
persistent unmanned intelligence, surveillance, reconnaissance and 
targeting (ISR&T) capability. This new capability will enhance the 
carrier strike group's ability to project power in anti-access/area 
denial threat environments enabling U.S. Naval forces to defeat 
aggressors and aid our allies and partners in these critical areas.
    The target date for limited operational capability has shifted by 
two years from 2018 to 2020 to reduce schedule and technical risk, as 
well as to meet the savings targets mandated by the Budget Control Act.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Mr. Secretary, do you feel confident that the command 
relationships between 10th Fleet/Fleet Cyber Command, U.S. Cyber 
Command, and other Service cyber organizations are now adequately 
clarified?
    Secretary Mabus. Yes, the command relationships are now adequately 
defined.
    Command relationships within the joint cyberspace operations 
community are temporarily defined per the Transitional Cyberspace 
Command and Control Concept of Operation. The Joint Staff expects to 
define the permanent command relationships in early CY2014. It is 
unclear at this time whether, and to what degree, the permanent 
Cyberspace Operations Command and Control Model will affect the Fleet 
Cyber Command's relationship with the other Service cyber component 
commands or USCYBERCOM.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. How does delay in procurement of the Ohio class 
replacement affect program risk? Does the two-year delay increase the 
risk that would come with any further procurement schedule delays? How 
much margin for error is there in the new schedule? Would further 
schedule delays prevent the Navy from meeting STRATCOM's at-sea 
deterrence requirements? What if maturation of key technology, such as 
the life-of-the-boat reactor needed for the Ohio class replacement, 
does not occur on the expected schedule?
    Secretary Mabus. The delay provides the program two additional 
years to lower technology and design risk prior to construction. The 
reduced ramp-up in funding re-phases design work to achieve some 
improvement in the overall level of design maturity at lead ship 
construction. The planned construction periods for OHIO-Class 
Replacement, while achievable, are aggressive and cannot be shortened. 
With the two year delay there is no additional margin for error. 
Additional delay will prevent meeting current sea-based strategic 
deterrent requirements. To support the long-standing Polaris Sales 
Agreement with the United Kingdom (UK), the Navy remains committed to 
delivering the design of the Common Missile Compartment (CMC) on time 
to support the UK Successor program.
    While the two-year delay results in moderate operational risk to 
the Navy's ability to meet STRATCOM's current sea-based strategic 
deterrent requirements during the transition period from the OHIO-class 
to the OHIO-Class Replacement, the absence of SSBN class overhauls 
during this period helps mitigate this reduced force level. Unforeseen 
issues with construction of OHIO-Class Replacement or emergent material 
problems with the aging OHIO Class will present challenges.
    Technology development for the OHIO-Class Replacement represents 
relatively low risk provided the program continues to receive the 
requested DOD and DOE funding. Major efforts involve scaling proven 
VIRGINIA class submarine technology to an SSBN-sized submarine. The 
OHIO-Class Replacement life-of-ship core design leverages previous core 
design efforts and ongoing technology demonstration efforts that are 
not affected by the overall ship design and construction schedule slip.
    Mr. Turner. What is the Navy's contingency plan for the Ohio class 
replacement program if the life-of-the-boat reactor technology is not 
successful? Does it include procuring additional submarines in order to 
ensure the Navy can meet STRATCOM's at-sea deterrence requirements?
    Secretary Mabus. Naval Reactors is confident that a life-of-ship 
core for OHIO Replacement (OR) can be delivered on-time and budget, 
provided continued funding as requested, including funding for the 
related Land-Based Prototype Refueling Overhaul. Should funding 
constraints prevent Naval Reactors from completing the manufacturing 
development required to bring the life-of-ship core's technologies to a 
production scale, OHIO Replacement will be designed with a reactor 
plant requiring a mid-life refueling, therefore requiring the Navy to 
procure 2 additional ships, at a cost of at least $10B (FY10), in order 
to ensure STRATCOM's current at sea requirements are met during the 
years when ships are in refueling.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. In your prepared statement, you indicated that ``the 
Department has considered the risks and applied our available resources 
efficiently and carefully.'' Does this mean that existing contract 
support across the Department of Navy reflects the most cost efficient 
and risk averse workforce available and that all in-sourcing the Navy 
may seek for cost or risk mitigation reasons has been achieved?
    Secretary Mabus. The Department of the Navy (DON) consistently 
strives to ensure that the Navy, Marine Corps, and Secretariat achieve 
the most cost-effective, Total Force workforce mix, and continuously 
seeks opportunities to mitigate costs and risks. In-sourcing for cost 
or risk mitigation reasons is an on-going process. DON continues to 
review for opportunities to in-source requirements to achieve the most 
cost efficient workforce while also minimizing risk as necessary.
    Ms. Bordallo. Given the civilian personnel constraints first 
reflected in last year's budget and continued in the FY13 submission, 
can you certify in full accordance with 10 USC sections 129 and section 
129a? Your certification was due on 1 February, when can the committee 
expect it?
    Secretary Mabus. I signed the required certification letter on 
February 27, 2012, and it has been submitted to the House and Senate 
Armed Services Committees.
    Ms. Bordallo. How does the Department of Navy's budget request for 
FY13 reconcile with legislative language set forth in Division A, 
Section 8012 of Consolidated Appropriations Act of 2012 (P.L. 112-74) 
which states that ``...during fiscal year 2012, the civilian personnel 
of the Department of Defense may not be managed on the basis of any 
end-strength, and the management of such personnel during that fiscal 
year shall not be subject to any constraint or limitation (known as an 
end-strength)'', and more specifically, that the fiscal year 2013 
budget request be prepared and submitted to the Congress as if this 
provision were effective with regard to fiscal year 2013?
    Secretary Mabus. The Department has established projected civilian 
funding levels based on overall program decreases, and works daily to 
balance critical mission requirements with fiscal realities. Current 
manpower targets represent our efforts to manage civilian personnel 
within FY 2010 funded levels, with some exceptions for critical growth 
areas such as the acquisition workforce, joint basing, intelligence 
programs, shipyards, and in-sourcing of security guards. The measures 
we are implementing with regard to civilian funding levels are 
consistent with current law, which directs us to manage civilian 
staffing levels based on expected workload and funding. An inevitable 
consequence of this is the use of common management tools, such as man 
hours and full time equivalents (FTE), in budgeting and planning. Our 
procedures allow for the adjustment of budgeted targets in light of 
unanticipated programmatic and fiscal realities.
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the Navy and Marine Corps FY13 budget request reflect 
an appropriately balanced workforce across all major capabilities, 
functional areas, and requirements?
    Secretary Mabus. The size of the civilian workforce is a function 
of the funded workload required to accomplish the Department of the 
Navy mission. When Department managers make decisions, they strive, 
consistent with legal requirements, to balance mission priorities, 
workload, and fiscal realities. The Department of the Navy has been 
very aggressive in reducing reliance on contractors, particularly 
service support and advisory and assistance contracts. From the FY 2010 
budget request, funding has decreased 25%, from $4.5 billion to $3.3 
billion, for these types of contracts.
    However, the Department has increased funding for maintenance 
contracts, such as ship, facilities, equipment, and aircrafts, in order 
to sustain and maintain our force structure and infrastructure for the 
future. Since FY 2010, funding for maintenance contracts has grown from 
$6.6 billion to $10.3 billion. In some cases, the Navy does not have 
the organic capability to perform the required work and must partner 
with the private sector to accomplish this critical maintenance. An 
example of this is the inactivation of USS ENTERPRISE, which drives 
nearly $1 billion of the increase since FY 2010. We are continuing our 
in-sourcing and acquisition initiatives, to the greatest extent 
possible, and work diligently to maintain an appropriately balanced 
workforce of civilians and contractors.
    Ms. Bordallo. The Department's budget request overview included 
discussion of improved buying power and how acquisitions are managed. 
To what extent is the Department of Navy using its Inventory of 
Contracts for Services to make such improvements and influence how it 
manages the DON Total Force?
    Secretary Mabus. The Inventory of Contracts for Services is a data 
source, one of many tools we use in varying degree, to develop, manage, 
and shape the DON Total Workforce. The DON is working diligently on a 
solution to improve the inventory by becoming fully compliant with 
Section 8108 (FY11 DOD Full-Year Continuing Appropriations Act 
leveraging the Army's Contractor Manpower Reporting Application as 
related to the Inventory of Contracts for Services). The DON submitted 
to Congress (via USD(P&R)) a Plan of Action and Milestone document for 
implementing Section 8108, that will gather direct labor hours/dollars 
for specific contracted services work. DON is engaged with USD(AT&L) to 
initiate the rule-making process to add a standard contract clause 
requiring this type of reporting. Initial capability is forecasted, and 
on schedule, to be completed in September 2012.
    Ms. Bordallo. If relief was not sought, does that mean that the 
Department of Navy is comfortable that all contracted services 
currently procured by the Department are the most cost effective source 
of labor and minimize risk?
    Secretary Mabus. Department of the Navy (DON) sought and received 
relief from civilian hiring restrictions from DOD to meet identified 
manpower requirements. The assessment of the most cost effective source 
of labor and the associated risk management is a continuous effort.
    Ms. Bordallo. What assurances can you give me that as civilian 
reductions or hiring freezes are occurring across Navy and Marine Corps 
installations work is not shifting illegally to contract performance?
    Secretary Mabus. The Department of the Navy adheres to the 
guidelines as set forth in 10 USC Section 2461, which generally 
provides at (a) (1), '' No function of the Department of Defense 
performed by Department of Defense civilian employees may be converted, 
in whole or in part, to performance by contractor unless the conversion 
is based on the results of public-private competition . . . '' and 10 
USC 2463 provides guidelines and procedures for use of civilian 
employees to ensure compliance with legislative requirements concerning 
the use of contracted services.
    To manage contracted services oversight, which includes managing 
appropriate contractor application, the DON established the Senior 
Services Manager Organization (SSM) within DASN (Acquisition and 
Procurement) to focus on the following when contracting for services:
          --Improved Requirements Definition
        --  Improved Oversight (Management and Oversight Process for 
        the Acquisition of Services (MOPAS2))
          --Increased development/use of tools, templates and best 
        practices
          --Organizational Health Assessments regarding services 
        acquisition
          --Policy
          --Robust Spend Analysis
    The SSM is also engaged with DON and OSD stakeholders to become 
compliant with 10 USC 2330a (Inventory of Contracts for Services), 
which requires the DON to complete a review of the inventory to 
identify any inherently governmental or closely associated with 
inherently governmental functions being performed by contractors and 
remediate as required.
    Ms. Bordallo. This committee was recently made aware of a decision 
to convert functions at Naval Shipyard Portsmouth to contract 
performance. This decision was made absent a cost analysis or 
determination, with the justification that requirements to do so are 
not applicable because the affected employees are non-appropriated fund 
employees. Do you agree with that decision or do you support the 
suspension of such action to convert work to contract service pending a 
thorough cost analysis to ensure the most cost effective labor source 
is selected?
    Secretary Mabus. The Navy's decision to convert a Morale, Welfare, 
and Recreation (MWR) operation at the Portsmouth Naval Shipyard to 
contract performance is appropriate and is consistent with both statute 
and policy.
    The functions in question support a food and beverage activity at 
the Portsmouth Naval Shipyard's Tirante Tavern; a Morale, Welfare, and 
Recreation (MWR) Category `C' operation whose current workforce 
consists of non-appropriated fund (NAF) employees. Category `C' 
operations are chartered to operate in a self-sustaining, revenue-
generating manner and by policy are not to be subsidized by 
appropriated funds (except at designated remote and isolated locations, 
which are authorized funding under Category B rules). When a Category 
`C' activity is in a Red Flag status, management must develop a 
solution or the activity must be closed. In order to avoid closing 
Tirante Tavern, and to comply with Navy policy, the Shipyard is 
pursuing a concession contract to run the food operation at the Tavern.
    Closing Tirante Tavern would not only negatively affect the NAF 
employees who work there, but also personnel at the Shipyard who are 
patrons of the Tavern. Therefore, in order to avoid closing the Tavern, 
the Shipyard will pursue a concession contractor to run a new food 
operation at the Tavern. If successful, this will allow for a food 
service option to be available for patrons while also meeting Category 
C financial operating requirements. As a contract operation, all risk 
is allocated to the contractor, who will pay the MWR activity a 
concession fee.
    As a result of a United States Comptroller General decision, the 
Department of Defense is not compelled to conduct a public-private 
competition to support conversion of non-appropriated fund employee 
operations, such as Tirante Tavern, to contractor operation. Instead, 
the Navy will use sound business management practices to include cost 
justification that supports continued operation with breakeven or 
positive cash flow.
    Ms. Bordallo. In achieving the right mix for the Total Force, how 
does the Department of Navy use the annual inventory of inherently 
governmental and commercial activities, and associated manpower mix 
determinations, to identify the civilian workforce reductions reflected 
in the past two budgets?
    Secretary Mabus. The Department of the Navy uses the inventory to 
influence workforce shaping and other manpower and manning decisions as 
we continue to better integrate our Total Force and comply with the 
general policy for Total Force management.
    Ms. Bordallo. As efficiencies are being executed across the 
Department of Navy, is the workload and functions associated with those 
being tracked as eliminated or divested through the annual inventory of 
functions?
    Secretary Mabus. The Department of the Navy (DON) is committed to 
tracking efficiencies and ensuring impact to the warfighter, 
capabilities, and missions is minimized. To accomplish this, the DON 
continues to leverage existing processes and forums to inform risk 
management and execution. At the senior-level, the DON continues to 
utilize two major governing bodies to ensure leadership has the 
wherewithal to interact on a timely and meaningful basis with those 
responsible for execution. At the subordinate-level, individual 
entities within DON continue to manage and document processes and 
requirements. Overall, this approach is iterative and will continue to 
inform the way ahead as plans mature. To date, this structure is 
generating the results needed to successfully track and manage 
efficiencies.
    Ms. Bordallo. These questions are in relation to a document 
entitled ``DON Options/Opportunities List'' which has been circulated 
throughout the Navy for comments and which is related to ``the next 
phase of (the Navy's) business transformation efforts.'' What is the 
status of the document? Which if any of the options have been approved 
or tasked for further consideration? With respect to installation 
management, which functions are being considered for divestiture and 
which alternate service providers are being considered for the 
provision of Naval shore operations? Please discuss the ``other non-
BRAC'' actions being considered.
    Secretary Mabus. 1) What is the status of the document? The DON 
OPTIONS/OPPORTUNITIES List is a pre-decisional staff level working 
document that is being used to solicit and collect proposals for 
follow-on evaluation.
    2) Which if any of the options have been approved or tasked for 
further consideration? Currently, none of the items on the list have 
been prioritized or selected for follow on evaluation. The DON is 
establishing a formal process to collect cost savings and effectiveness 
proposals, evaluate them and present them through a formal process for 
consideration by leadership.
    3) With respect to installation management, which functions are 
being considered for divestiture? None. There are proposals submitted. 
However, it is premature to speculate on which proposals will be vetted 
as they have not been fully researched.
    4) Which alternate service providers are being considered for the 
provision of Naval shore operations? There is a proposal to determine 
if alternate service providers can fill these roles. No actual 
providers have been considered at this time.
    5) Please discuss the ``other non-BRAC'' actions being considered. 
There are no specific ``non-BRAC'' actions being formally considered.
    Ms. Bordallo. Does the Navy envision greater interservice 
cooperation in depot-level maintenance and repair during FY 13 and 
throughout the FYDP?
    Secretary Mabus. The Navy has maintained an excellent working 
relationship, particularly within Aviation, with the other Services to 
ensure the best readiness is achieved for the best value. A formal 
Depot Source of Repair (DSOR) process has been used to place depot 
repair capability where it is best suited to meet Service needs while 
minimizing duplication across the DOD maintenance enterprise. Many 
examples of cooperation exist including DON C-130 aircraft being 
maintained by USAF Air Logistics Centers, helicopter engines being 
maintained by Army Depots, USAF CV-22 scheduled depot aircraft events 
and A-10 engines being maintained by Navy Fleet Readiness Centers. The 
Navy will continue to cooperate within DOD maintenance enterprise to 
offer best value, highly capable maintenance services to meet all 
Service readiness needs.
    A specific area of increased cooperation for the Navy in 
interservice depot-level cooperation in FY13 will be with the stand-up 
of Joint Strike Fighter (JSF) depot repair capability at six organic 
maintenance facilities:
    FRC E, Fleet Readiness Center East, MCAS Cherry Point, NC FRC SE, 
Fleet Readiness Center Southeast, NAS Jacksonville, FL FRC SW, Fleet 
Readiness Center Southwest, NAS North Island, CA OO-ALC, Ogden Air 
Logistics Center, Hill AFB, UT OC-ALC, Oklahoma City Air Logistics 
Center, Tinker AFB, OK WR-ALC, Warner Robins Air Logistics Center, 
Robins AFB, GA Interservice JSF repair capability will continue to 
expand through December 2015. Follow-on repair capability will be 
assessed as the program matures.
    Ms. Bordallo. Other than issues related to refueling of nuclear 
carriers, what is the impact, if any, on the Navy of changes in the 
definition of depot maintenance and the change in the definition of 
core for depot maintenance? What waiver requests should we anticipate 
from the Navy and what will be the rationale for the waiver requests?
    Secretary Mabus. The current statutory definition of depot 
maintenance (10 U.S.C. Sec. 2460) does not explicitly state major 
modifications are excluded from the definition of depot maintenance as 
they were previously. However, we believe that DOD's proposed 
implementation guidance will allow the Services some degree of 
flexibility on how the statute is interpreted once this guidance is 
final.
    The current ``core'' statute (10 U.S.C. Sec. 2464) requires the 
Services to report on the core requirements for Special Access Programs 
(SAP) or seek waivers. The previous ``core'' language provided 
exclusions for this area. Given the nature of SAP, visibility of 
program information to support reporting of core requirements is 
extremely limited. Navy would need to establish new reporting and 
waiver processes to comply with the new core statute.
    Navy intends to submit three waiver requests:
        <bullet>  Exclusion of carrier refueling and complex overhauls 
        (RCOHs) from core requirement determinations (10 U.S.C. 
        Sec. 2464).
        <bullet>  Exclusion of RCOHs from ``50-50'' determinations (10 
        U.S.C. Sec. 2466).
        <bullet>  Exclusion of SAP from core requirement determinations 
        (10 U.S.C.Sec. 2464).
    Fulfilling the ``core'' (10 U.S.C. Sec. 2464) and ``50-50'' (10 
U.S.C. Sec. 2466) requirements for RCOHs would be cost prohibitive and 
not in the best interest of national security.
    Ms. Bordallo. I'd like to ask you questions I posed to the service 
vice chiefs during an October hearing. Why would Congress consider any 
potential changes to recruiting and retention incentives such as 
military retirement and health care or reductions to essential training 
accounts when the military departments can't identify the cost of what 
they pay for contracted services? So what is your military department 
doing to reduce contracted services and work requirements instead of 
just reducing dollars? If you are only reducing dollars then you are 
likely setting up conditions to default to contractors in light of the 
current civilian personnel constraints.
    Secretary Mabus. The Department of the Navy (DON) is continuously 
improving its ability to identify cost of contracted services. However, 
health care and military retirement costs represent a growing 
proportion of total military expenditures each year. It is essential to 
seek opportunities to address these growing costs to enable the system 
to be fiscally sustainable and support the need to recruit and retain 
the highest quality personnel in our all volunteer force. The DON has 
focused on prioritizing our requirements and reducing contract 
services. The DON recently established the Senior Services Manager 
Organization (SSM) within DASN (Acquisition and Procurement) to review, 
manage, and address the significant opportunities to increase 
efficiencies and reduce costs in services acquisitions as detailed in 
USD(AT&L)'s Better Buying Power Initiatives. The DON SSM is currently 
engaged in improving services acquisition through (but not limited 
to):--Improved Requirements Definition--Improved Oversight (Management 
and Oversight Process for the Acquisition of Services (MOPAS2))--
Increased development/use of tools, templates and best practices--
Organizational Health Assessments regarding services acquisition--
Policy--Robust Spend Analysis--Market/Business Intelligence--Strategic 
Sourcing
    The Fiscal Year 2013 Budget Request has been developed to ensure 
that the Department of the Navy is fully and properly resourced to meet 
all identified mission requirements and that the appropriate 
utilization of the entire Total Force adheres to legislative 
requirements.

    Ms. Bordallo. Did the Department of Navy seek relief from DOD 
mandated civilian personnel levels in order to in-source contracted 
work more cost effectively performed by civilians?
    Admiral Greenert. While the Department did not seek relief from 
mandated civilian personnel levels to in-source more work, relief was 
sought and received in order to sustain civilian personnel in 
acquisition workforce, joint basing initiatives, increases for 
shipyards, planning and maintenance operations, NGEN/Cyber workforce 
support, security guard services, and planned in-sourcing. Where 
appropriate, the Department continues in-sourcing contracted services 
that are more cost effectively performed by civilian personnel.
    Ms. Bordallo. What processes are in place within the Navy and 
Marine Corps to ensure the workload associated with reductions being 
made in the civilian workforce is in fact ceasing, as opposed to being 
absorbed by other labor sources such as contractors or military 
personnel?
    Admiral Greenert. Managers within the Navy strive for the most 
effective utilization of its human resources by balancing and assigning 
workload based on validated manpower requirements. DON reduction in 
civilian workforce has been based on process improvements and/or 
workload reduction. Transfer of work from Government personnel to 
contractor performance cannot be done without a public-private 
competition. Recent efficiency reviews monitored levels of the Total 
Force mix to identify and assess trends. In addition, the DON adheres 
to the DODI 1100.22 (Policy and Procedures for Determining Workforce 
Mix), which provides workforce mix guidance to assess instances where 
human capital shortages and excesses are identified and to align 
manning levels to achieve a more effective and efficient division of 
labor.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions the Department of Navy 
has had approved to date and the reason for those exceptions, as well 
as any exceptions across that were requested but not approved, and the 
justification for such.
    Admiral Greenert. The following exceptions were requested, 
approved, and included in the FY 2012 President's Budget baseline:
    1. Shipyard Planning Support and Maintenance--exempted to allow 
shipyards to meet required ship maintenance schedules primarily from 
SSN-688 engineering overhauls and CVN drydocking availability. 2. 
Acquisition Workforce--exception to continue re-constitution of this 
workforce. 3. Joint Basing--exception to meet functional transfer 
requirements that support approved movement of personnel between bases. 
4. In-sourcing--exception to restore inherently governmental work to 
our Government employed civilian personnel. This is a critical portion 
of the Department of the Navy's contractor reduction efforts. 5. Marine 
Corps--exception to allow USMC to maintain current onboard personnel. 
6. NGEN/Cyber workforce--exception to allow proper transition from 
contractor support to in-house support.
    From the establishment of the FY 2012 President's Budget baseline, 
the Deputy Secretary of Defense has granted the Department of the Navy 
exceptions in the following areas:
    1. Ship Maintenance and Ship Depot Operations Support--exempted to 
allow shipyards to meet required ship maintenance schedules. 2. 
Security Guards--exception to allow for compliance with Public Law 107-
314.
    The Department of the Navy has had no requests for exceptions 
disapproved.
    Ms. Bordallo. To what extent have the existing data sets available 
to Navy planners, specifically the annual inventory of inherently 
governmental and commercial activities, contributed to the functional 
streamlining, organizational realignments, workforce shaping decisions, 
and civilian personnel reductions reflected in last year's efficiencies 
initiative and continued in this year's budget?
    Admiral Greenert. The annual inventory of Inherently Government and 
Commercial Activities and the Inventory of Contracted Services are two 
of the tools used by department leadership to make human resource and 
workforce shaping decisions and implement functional streamlining and 
organizational realignments. The data sets contained within the 
inventory are used in varying degrees to influence decision-making as 
we continue to better integrate our Total Force.
    All of the resources reduced from DON overhead within functional 
streamlining, organizational realignments, and workforce shaping 
reported in the FY 2012 President's Budget request, have remained 
intact through the FY 2013 budget review.
    Ms. Bordallo. The Navy is a leader in the use of Performance Base 
Logistics contracts. How do you plan to balance that strategy with 
requirements to maintain a core depot capacity and also to reduce 
redundancy to limit costs?
    Admiral Greenert. Navy maintains a stable and appropriately sized 
public sector workforce as part of its core depot level maintenance 
capability and capacity. To defray excessive overhead and leverage 
incentive-based contracts, the Navy also actively pursues Performance 
Based Logistics (PBL) contracts to improve weapon system readiness. 
Where applicable, Navy also seeks to establish Public-Private 
Partnerships (PPPs) to sustain or improve our existing public sector 
maintenance capability and to utilize the integrated logistics chains 
associated with PBLs. This approach is in alignment with OSD guidance 
which identifies PBLs as the preferred product support strategy. Navy 
monitors the performance of PBLs, as well as the public-private balance 
provided by their associated PPPs, to ensure core depot capacity is met 
while reducing costs.
    Ms. Bordallo. Do you anticipate any changes to naval air training 
requirements as a result of the new defense strategy?
    Admiral Greenert. Yes, naval air training requirements will be 
refined to align with the new defense strategy and Navy Headquarters is 
working with Fleet commanders to identify the required changes. A 
recent U.S. Fleet Forces Command study identified training gaps and 
made recommendations on how to improve our Naval Air fleet training.
    The current Fleet Readiness and Training Plan will remain the 
framework that naval air units will continue using to gain their 
required readiness for deployment certification. However, increased 
emphasis on the ability to operate freely in an Anti-Access/Area Denial 
environment will be the primary focus of this effort. Changes in Anti-
Submarine Warfare, Strike Warfare, Anti-Surface Warfare, Mine Warfare, 
Electronic Warfare, and Cyber warfare training are also anticipated.
    Ms. Bordallo. During a hearing in October I asked Admiral Ferguson 
about the Navy's progress in identifying what is spent on contracted 
services and progress being made in the statutorily required inventory 
of contracts for services. His response during that hearing was an 
effort was underway in the Navy to see what's inherently governmental 
and where excessive overhead and charges were being paid in service 
contracts. Would you please share the results of that effort? Have you 
identified contracts where inherently governmental work is being 
performed or where excessive overhead charges are occurring and what 
specific actions have been taken since that October hearing to correct 
this?
    Admiral Greenert. The Department of the Navy (DON) is focused on 
validating and reducing our use of service contracts and on improving 
management of services through establishment of a uniform process to 
identify, assess, plan, and monitor service acquisitions. A key part of 
this is our annual review of our Inventory of Contracts for Services 
submission to Congress. During our post-award review for FY10, we did 
identify a limited number of inherently governmental work/positions 
performed by contractors. These positions, once identified, were added 
to our DON In-Sourcing Plan.
    To seek further efficiency in our contracted services, DON is 
conducting a pilot program to review all of our contracts with a focus 
on such areas as requirements definition, market research, contract 
administration and management, competition, contract type, and cost 
(including contract fee structures and pass through rates). To aid 
management in identifying excessive overhead rates, DON has an effort 
underway to gather direct labor hours/dollars for specific contracted 
services work. In concert with USD(AT&L), DON will seek to add a 
standard contract clause requiring this type of reporting.

    Ms. Bordallo. What processes are in place within the Navy and 
Marine Corps to ensure the workload associated with reductions being 
made in the civilian workforce is in fact ceasing, as opposed to being 
absorbed by other labor sources such as contractors or military 
personnel?
    General Amos. While the Marine Corps is not reducing its civilian 
workforce, the FY13 civilian personnel budget reflects efforts to 
restrain growth in direct funded personnel. By establishing budgetary 
targets consistent with current fiscal realities, we will be able to 
hold our civilian labor force at FY10 end-of-year levels, except for 
limited growth in critical areas such as the acquisition workforce, the 
intelligence community, the information technology community (i.e. 
conversion from NMCI to NGEN), in-sourcing of security personnel (i.e. 
Marine Corps Civilian Law Enforcement Personnel) and personnel in our 
cyber community. Our Civilian Marine workforce remains the leanest 
among DOD with only one civilian for every 10 marines.
    Ms. Bordallo. In October when General Dunford testified to this 
committee, I asked him about the statutorily required inventory of 
contracts for services. His response at that hearing was that an 
assessment of the level of Marine Corps service contracting was 
underway in conjunction with the budget process and that an initial 
assessment would be complete in December. Can you please provide the 
results of that assessment? And I'll ask the same questions I did back 
in October: What is the Marine Corps doing to reduce contracted 
services and work requirements instead of just reducing dollars? If you 
are only reducing dollars then you are likely setting up conditions to 
default to contractors in light of the current civilian hiring freezes.
    General Amos. In August 2010, Secretary Gates directed the 
Department of Defense (DOD) to reduce duplication, and overhead, and 
instill a culture of savings and restraint. The Marine Corps' review of 
service contracts in the fall of 2011 was a continuation of, and an 
update to, that effort. Our review demonstrated the progress we had 
made toward achieving DOD's reduction goals. In FY11, the Marine Corps 
exceeded the DOD goal of reducing reliance on service support 
contractors by 10% from FY10, by achieving an overall reduction of 13%.
    The Marine Corps maintains a long-standing reputation in DOD as 
being a frugal, lean Service delivering the best value for the defense 
dollar. We continue our tradition of pursuing ways to streamline 
operations, identify efficiencies and reinvest savings, and this 
strategy includes a careful review of all work requirements. We 
recently completed a review of our civilian labor payroll; and 
following an almost thirteen month hiring freeze, we have begun hiring 
to fill our critical civilian vacancies.
    The Marine Corps recognizes the fiscal realities currently 
confronting our Nation. We are making hard choices inside our Service, 
ensuring that we ask only for what we need. Studying civilian workforce 
requirements, reviewing service contracts and balancing work 
requirements between contractors, civilian marines and our Active Duty 
marines are but a few of the measures we have undertaken to ensure we 
spend every dollar wisely while continuing to maintain our forward 
presence and provide the best trained and equipped marine units to 
Afghanistan.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. What has the Navy done to develop and implement 
effective ERP training programs for personnel within and outside of the 
financial management community who utilize, or will be expected to 
utilize, an ERP system in their day-to-day operations?
    Secretary Mabus. The Navy Enterprise Resource Planning (ERP) end 
user training strategy incorporates best practices learned from years 
of private industry experience in training end users of ERP systems. 
The Navy ERP's Business Process Experts, the Navy's Office of Financial 
Operations (FMO) and the Defense Finance and Accounting Service (DFAS) 
participate in all financial functional testing to ensure the system 
supports existing financial policy/guidance (DOD Financial Management 
Regulation (FMR) and U.S. Treasury) and are reflected in training 
documentation. The Navy ERP training strategy is based on knowledge 
transfer between the functional and business process experts at Navy 
ERP, the FMO and those at each of the Systems Commands. That transfer 
begins with extensive business process workshops 18-24 months prior to 
deployment. The transfer continues through a Train-the-Trainer event 
generally scheduled four months prior to go-live. The knowledge gained 
by the deploying command's business process experts is transferred to 
the command's end users through just in time training events generally 
scheduled from two months prior to go-live to two months after.
    Finally, the knowledge transfer is continued through the Navy ERP 
Program Office functional experts deployed to each command site 
providing over-the-shoulder support directly to command end users from 
three months prior to deployment through six months post-deployment to 
ensure effective business operations through the transition period. 
Basic users, those using primarily time and attendance functions, 
receive training through Web Based Training course. Power Users, those 
using more functionality and may have multiple roles, receive 
Instructor Lead Training provided by their Command's trainers and 
business process experts. For example, approximately 21,000 basic users 
and 9,854 power users were trained for the NAVSEA Working Capital Fund 
deployment and approximately, 4,500 basic users and 807 power users 
were trained for the deployment of the Single Supply Solution to the 
Fleet Logistics Centers and their partner sites.
    The Navy ERP Program Office develops and maintains standard 
training materials. These incorporated both Navy standard financial 
management guidelines from Navy FMO and industry best practices. The 
training material consists of:
        <bullet>  Presentations containing business processes and best 
        practice business rules
        <bullet>  Step-by-step work instructions
        <bullet>  Hands-on exercises and supporting data
        <bullet>  Simulations of Navy ERP transactions
    Deploying commands have the option of supplementing the standard 
training materials with additional command-specific information, 
generally in the form of local business rules and command-specific data 
sets for hands-on exercises thereby enhancing the importance of Command 
financial management practices. The Navy ERP Program Office maintains a 
live training environment for hands-on exercise and practice. The 
configuration of the training environment is updated to mirror the 
Production environment once each quarter. The data is revised regularly 
to reflect changed or new functionality.
    The Global Implementation Team (GIT) works with our Business 
Process leads in developing the training materials. The GIT is not the 
owner or lead of the functionality, however, the team obtains guidance 
from the Navy ERP BP Teams. The BP Leads, including the Financial BP 
Leads, work with the FMO on development, testing, review and validation 
of the functionality and compliance matters.
    Mr. Conaway. What has the Navy done to reduce problem disbursements 
and address the underlying causes of problem disbursements in its 
efforts to develop and implement ERPs?
    Secretary Mabus. Navy Enterprise Resource Planning (ERP) has forced 
us to discipline our business processes through systemically enforcing 
industry best practices and pushing us to correct long standing 
inefficiencies.
    For example, we perform a ``three way match'' by validating the 
invoice, obligation and receipt prior to disbursement. Navy ERP employs 
a systemic process to perform pre-validation of available obligations 
prior to disbursement. This ``three way match'' process is performed 
for both internally and externally entitled transactions to ensure 
funds are available prior to disbursement. By ensuring the availability 
of funds prior to disbursement, the potential for problem or unmatched 
disbursements is significantly reduced.
    In addition, Navy ERP posts cash based on a pay-ready file that is 
generated from the internally entitled payments. This business process 
results in no unmatched disbursements. The alternative would be to post 
cash based on files ERP receives from the Treasury reporting system 
used by the Defense Finance and Accounting Service (DFAS). If Navy ERP 
waits to post cash based on this Treasury file, there could be timing 
issues resulting from differences between the availability of the ERP 
pay ready file as compared to the Treasury file. These timing 
differences would result in unmatched disbursements.
    For externally entitled transactions, Navy ERP employs disbursement 
to obligation matching logic in order to translate legacy data elements 
from these external entitlement systems to Navy ERP data elements to 
ensure disbursements match.
    Outside the Navy ERP, the Defense Finance and Accounting Service 
(DFAS) developed a tool to monitor problem disbursement and problem 
collection transactions, as well as produce monthly cash 
reconciliations for Navy accounting systems. Massive amounts of 
transactions that require specific data elements to be correct in order 
to successfully post into our accounting systems make the 
identification and research of unreconciled/unmatched accounting 
transactions difficult. The Business Activity Monitoring (BAM) Tool was 
implemented to reconcile this transaction level business activity 
between our accounting systems and Treasury. The cash reconciliation 
modules of BAM are in place for Navy ERP, as well as our legacy General 
Fund accounting system (STARS). BAM also provides DFAS and the Navy 
insight into the problem disbursement and collection issues impacting 
the Department in our legacy accounting system. BAM receives daily 
feeds of problem transactions from our legacy General Fund accounting 
system (STARS). The tool provides visibility of the detail transactions 
as well as the ability to categorize these transactions by major 
command, assign the reason the transaction became a problem 
disbursement and assign an accountant or technician responsibility to 
work the transaction. Transactions cannot be corrected within BAM, as 
it is only a monitoring tool. However, by providing a tool that can 
categorize transactions, assign responsibility and produce metrics 
associated with problem disbursements, BAM reduces duplication of 
effort and provides valuable information regarding the cause of problem 
disbursements in our legacy systems. DFAS utilizes this information to 
collaborate with the Navy to address both the inflow and cause of the 
problem disbursements. DFAS has also worked on Lean6 projects to 
address some of the root cause issues.
    Our e-Commerce initiatives, such as the use of Wide Area Work Flow 
(WAWF) to electronically process vendor payments, are reducing manual 
process cost, rework and erroneous transactions associated with labor 
and human error.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Secretary Mabus, I believe you stated yesterday that, 
I quote, ``We're losing some ships that are not as capable as the new 
ships coming in.'' End quote.
    First off, I agree that the new warships being delivered, 
specifically the new VIRGINIA class fast attacks and the new destroyers 
bring new, meaningful, and impressive capabilities to our Navy. But to 
lose 7 cruisers early that are not near their expected end of life and 
rationalize that they are all being replaced by more capable ships does 
not add up.
    Of the 10 ships coming into the fleet this year, half will be 
either Littoral Combat Ships or Joint High Speed Vessels; these ships 
will be great ships for their specific missions; but they obviously do 
not have nearly the capabilities of the 7 Aegis Class cruisers that are 
being retired early between 18 and 21 years of service. Allegedly, 
bypassing their modernization, complete with HM&E, Weapons systems, and 
BMD upgrades will save $1.5 billion. It will put our Air Defense, ASW, 
and future BMD mission at risk. These ships all have 14-17 more years 
of service in them.
    Could you explain how the Navy will plan to meet the new 
capabilities gap introduced into the fleet with this proposed reduction 
in cruisers?
    Secretary Mabus. Our FY2013 decision to decommission seven 
Ticonderoga class guided missile cruisers (CG) is consistent with new 
strategic guidance and exemplifies our resolve to provide a more ready 
and sustainable Fleet within our budget constraints. The resources made 
available by these retirements will allow increased funding for 
training and maintenance, prioritizing readiness over capacity. This 
reduction in capacity and our shift to a more sustainable deployment 
model will result in some reductions to the amount of presence we 
provide overseas in some select areas, or a change in the nature of 
that presence to favor innovative and lower-cost approaches.
    The early decommission of selected CG 47-class guided missile 
cruisers will be mitigated by a current force DDG 51 modernization plan 
and new construction DDG 51 Flt IIAs and Flt IIIs. PB13 increases BMD 
capability and capacity afloat to support the President's directive to 
meet the growing ballistic missile threat to the U.S. and its Allies. 
BMD Afloat investments include increases in BMD-capable ship 
inventories from 23 (today) to 35 in FY2017 utilizing a combination of 
BMD-capable ship deliveries in the FYDP and the Aegis modernization 
program to increase capability and capacity in integrated air and 
missile defense (IAMD).
    Further, we will use these assets to support the FY2013 Global 
Force Management Allocation Plan (GFMAP), which is the authoritative, 
Secretary of Defense-approved plan for supporting Combatant Commander 
presence requirements. Through this plan, we will continue to support 
the Combatant Commanders and their missions as we do today.
    Mr. Wittman. The new strategic guidance clearly states the DOD will 
increase focus in Asia-Pacific and rely more heavily on maritime forces 
in the Middle East.
    I think we would all agree that this strategy will ensure that the 
work load on the Navy and its ships will only increase due to not only 
the potential threats in the focus regions, but also simply due to the 
natural geography of the region. This increase in operational tempo 
will come at a time when deployment lengths, increased frequency of 
deployments, and delays in required maintenance for our Navy are 
becoming the norm.
    The future strategic work load for the Navy and the current state 
of the fleet, how are the following decisions strategic? 
<bullet>Cutting one VIRGINIA class fast attack submarine from this 
FYDP. <bullet>Early decommissioning of 7 Aegis cruisers. 
<bullet>Delaying production of the OHIO replacement 2 years, ensuring 
it will not be operational until the 2020s. The plan is to invest $500 
million less in 2013 to research and design the new SSBN than we did in 
2012, the funding should be going the other direction. <bullet>Last 
year's budget requested 13 new-construction battle-force ships to be 
constructed in 2013; now we are planning to build 10 warships in 2013. 
<bullet>The FY12 FYDP planned for 57 ships from FY13 to FY 17; now 
after strategically stating we will increase focus on Asia-Pacific and 
rely more on a maritime presence in the Middle East; that number has 
dropped to building 41 battle-force ships to be produced from FY13 to 
FY 17. <bullet>SCN account was cut from $14.9 billion in FY12 to $13.6 
billion in FY13.
    The fact is this new strategy is juxtaposed against a fleet that is 
decreasing in size, while the fleet's tasking is being increased. If we 
accept the risk of a smaller fleet with increased responsibilities, how 
do we ensure that fleet is built to last and capable of an increased 
workload without compromising operational tasking and maintenance 
standards?
    Secretary Mabus. I would challenge your premise that the Fleet, 
``is decreasing in size.'' In fact, we will have no fewer ships at the 
end of the FYDP than we do today and our shipbuilding plans call for 
reaching at least 300 ships before the end of the decade. We are also 
investing in shipbuilding and aircraft construction to ensure that the 
Navy will evolve to remain the world's preeminent maritime force in the 
face of emerging threats and our shipbuilding and aircraft construction 
investments form the foundation of the future Fleet. To this end, the 
Navy is continuing its efforts to restore overall submarine production 
and increase DDG-51 production from 9 to 10 in the FYDP. In developing 
our aircraft and ship procurement plans, we focused on three 
approaches: Sustaining serial production of today's proven platforms, 
rapidly fielding new platforms in development, and improving the 
capability of today's platforms through new payloads of weapons, 
sensors and unmanned vehicles. The Navy will continue to prioritize 
readiness and our FY2013 budget submission fully funds ship maintenance 
and midlife modernization periods.
    The Navy can meet Defense Strategic Guidance with the current and 
projected force structure provided in Navy's PB13 budget submission. 
Consistent with the Defense Strategic Guidance, the Navy postures 
continuous, credible combat power in the Western Pacific and the 
Arabian Gulf/Indian Ocean to protect our vital interests, assure 
friends and allies, and deter potential adversaries. The Navy can meet 
this challenge under our current operational tempo and deployment 
lengths.

    Mr. Wittman. As you know we have aging L-class ships. We are 
decommissioning two LSDs early, one 27 years old and the other 22 years 
old, leaving 6 LSDs in the Whidbey Island class that are between 20 and 
26 years old, four LSDs in the Harpers Ferry class that are between 17 
and 14 years old, and LSD(X) replacement is outside of the FYDP and 
pushed further to the right. This replacement needs to come on sooner 
than later. The status of the amphibious fleet concerns me, especially 
with our strategic shift to the Asia Pacific. This problem is 
compounded when you factor in the cyclic operations, combat 
deployments, and deferred maintenance over the past 10 years. We need 
to look no further than the current operational status of the ships 
that support the 31st MEU in the Asia Pacific to find an example of 
that problem. If we are going to execute this strategy effectively and 
reset our Navy and Marine Corps team, then we need 38 amphibious ship 
and we need to see that clearly defined in the 30 year shipbuilding 
plan. I would like your thoughts on this situation. There are no LSD 
replacements in the FYDP, so in five years we will have a fleet of 10 
LSDs that range from 31-19 years old? We are not procuring an L-Class 
for at least 6 years. This is the same timeframe that SSBN(X) will 
start to take up large chunks of our SCN fund. How is this problem 
going to be solved to ensure we have an appropriate number of capable 
L-class ships ready to execute this new strategy?
    Admiral Greenert. The Navy remains committed to providing an 
amphibious lift capacity for 2.0 Marine Expeditionary Brigades (MEB). 
Based on our ship configuration, the Navy can meet the footprint for 
this force with 30 ships. Historically, the Navy has maintained 33 
assault echelon amphibious ships to mitigate the impact of long-
duration maintenance availabilities on the Nation's ability to respond 
during an emerging crisis. Due to budgetary constraints, the Navy is 
taking risk in the time line to deliver the 2.0 MEB force. The Navy 
will maintain between 28 and 31 amphibious ships across the FYDP. To 
maintain amphibious force structure at an acceptable level of risk, the 
Navy intends to procure additional LHA and LSD(X) ships during the time 
the SSBN(X) is being procured. The LSD(X) ships will recapitalize the 
LSD 41/49 class as those ships reach their 40-year expected service 
life.
    Mr. Wittman. The LCS Concept of Operations has always included Sea 
Swap. This concept is currently being studied by the Navy as a way to 
maintain a forward presence while reducing steaming hours for our 
surface ships and submarines while subsequently reducing operating 
costs and extending the operational service life of these valuable 
assets. Navy appears to be postured to effectively execute this 
initiative since it has performed a Sea Swap proof of concept in the 
past and it can execute the Sea Swap initiative autonomously since it 
has its own organic airlift capability.
    1. Considering the potential frequency of crew swaps, the size of 
crews and the requirement to support forward deployed ships at sea 
during a time of war, what options is the Navy reviewing to transport 
its crews from CONUS to the deployment sites?
    2. What cost savings does the Navy estimate it will realize under 
this construct?
    Admiral Greenert. LCS crew swaps within CONUS have used commercial 
and Government contracted aircraft. However, the Navy is reviewing the 
use of Navy Unique Fleet Essential Airlift (NUFEA) to move the crews, 
cargo, and support personnel in peacetime and wartime for LCS crew 
swaps OCONUS. The Navy controls the use of NUFEA aircraft and projects 
this alternative to be less expensive than international commercial 
air. The ability to maintain crew and maintenance team equipment 
integrity, move cargo, transport hazardous materials, and utilize 
classified systems is a key force enhancer over commercial 
transportation sources. Since Navy controls NUFEA, Navy can prioritize 
use of organic air assets to support theater requirements while 
responding to emergent tasking. Navy is also examining the use of NUFEA 
for LCS transportation requirements within CONUS.
    The greatest benefit associated with rotational crewing is the 
increased Operational Availability (Ao) that the ship can provide to 
the Combatant Commander by keeping LCS on station for longer periods of 
time (i.e. forward deployed for long periods of time versus periodic 
transiting under a non-rotational construct). The most significant 
savings associated with flying crews overseas is the cost avoidance of 
the fuel required for the transiting and support ships.

    Mr. Wittman. General Amos, the strategy to shift our focus towards 
the Asia-Pacific demands that marines not only go back to their roots 
of amphibious warfare, but you operate in a region that you were all 
too familiar with in the 20th century.
    General:
        --  We are increasing our presence in the Asia-Pacific.
        --  We are increasing our deployments in the region that is, by 
        nature, an amphibious region perfect for Navy and Marine Corps 
        operations.
        --  We are increasing the demand for our marines to respond to 
        contingency operations in the two most operational combatant 
        commands (PACOM, CENTCOM).
        --  We are decreasing our Marine Corps end strength.
        --  We are decreasing the number of amphibious ships in the 
        fleet.
        --  We are still without a solid plan for the future Amphibious 
        Assault Vehicle.
        --  We are not procuring an L class ship for 6 years.
        --  LSD(X) has been delayed and is outside of the FYDP.
    Are you confident that you have the amphibious assets needed to 
execute the tasking that this strategy demands? Our Marine Corps needs 
the right gear for a 21st century mission that there is no denying will 
be Navy/Marine Corps centric. What risk do you incur by executing this 
strategy without the requested amphibious lift capability?
    General Amos. The Geographic Combatant Commanders' cumulative 
operational requirement for amphibious warships falls into three basic 
categories: forward presence and engagement; crisis response; and 
operations plans. While amphibious requirements in support of 
operations plans have remained constant, the demand for the first two 
categories has dramatically increased in the post-Cold War era. In the 
past twenty years, U.S. amphibious forces have responded to crises and 
contingencies well over one hundred thirty times, which is a rate 
approximately double that during the Cold War. Furthermore, during the 
same period, forward-postured amphibious forces have continually 
conducted sea-based security cooperation with international partners--
reflecting the philosophy espoused in the Maritime Strategy that 
preventing war is as important as winning wars.
    An inventory of 33 warships allows the Navy/Marine Corps team to 
adequately meet desired presence goals, supports our ability to build 
partnerships through engagement, and affords crisis response across the 
range of military operations. Optimally, deploying three forward 
Amphibious Ready Groups and Marine Expeditionary Units (ARG/MEUs) and 
two enhanced Maritime Prepositioning Squadrons (MPSRON), each with one 
MLP and T-AKE vessel integrated, provides the Nation the ability to 
respond to small to large scale crisis. These ships, equipment, marines 
and sailors are the same capability used to strengthen our 
relationships worldwide and provide a strategic ``buffer,'' protecting 
our interests and global economy and stability. Rotational ARG/MEUs, 
working in concert, provide forward deployed naval forces in four 
Geographic Combatant Command areas of responsibility.
    In addition to forward presence and episodic crisis response, we 
maintain the requirement for an amphibious warship fleet for 
contingencies requiring our role in joint operational access (JOA). One 
Marine Expeditionary Brigade (MEB) assault echelon requires 17 
operationally available amphibious warships, and the Nation's forcible 
entry requirement in support of JOA is a minimum of two MEBs. These 
ships, along with the requisite number of ship-to-shore connectors, 
represent the minimum number of ships needed to provide the Nation with 
a sea-based power projection capability for full spectrum amphibious 
operations. As of March 2012, there were 29 ships in the Navy's 
amphibious fleet, with three scheduled for decommissioning and four new 
ships under construction in the yards. Within the coming FYDP, the 
inventory will decline in FY14 before rising to an average of 30 
amphibious warships over the next 30 years. The lack of amphibious 
warship lift capacity translates to risk for the Nation, particularly 
as it reorients to the Pacific. The continued procurement of scheduled 
amphibious warships and planning for MPF shipping is essential to 
ensure greater levels of risk are not incurred in coming years.
    We have aggressively reviewed our amphibious concepts, doctrine and 
plans this past fall; and have recently developed the Ellis Group, 
which is an internal consortium of experts specifically charged with 
developing innovative solutions to overcoming the challenges of a 
reduced amphibious warship inventory.
    Mr. Wittman. As you know we have aging L-class ships. We are 
decommissioning two LSDs early, one 27 years old and the other 22 years 
old, leaving 6 LSDs in the Whidbey Island class that are between 20 and 
26 years old, four LSDs in the Harpers Ferry class that are between 17 
and 14 years old, and LSD(X) replacement is outside of the FYDP and 
pushed further to the right. This replacement needs to come on sooner 
than later. The status of the amphibious fleet concerns me, especially 
with our strategic shift to the Asia Pacific. This problem is 
compounded when you factor in the cyclic operations, combat 
deployments, and deferred maintenance over the past 10 years. We need 
to look no further than the current operational status of the ships 
that support the 31st MEU in the Asia Pacific to find an example of 
that problem. If we are going to execute this strategy effectively and 
reset our Navy and Marine Corps team, then we need 38 amphibious ship 
and we need to see that clearly defined in the 30 year shipbuilding 
plan. I would like your thoughts on this situation. There are no LSD 
replacements in the FYDP, so in five years we will have a fleet of 10 
LSDs that range from 31-19 years old? We are not procuring an L-Class 
for at least 6 years. This is the same timeframe that SSBN(X) will 
start to take up large chunks of our SCN fund. How is this problem 
going to be solved to ensure we have an appropriate number of capable 
L-class ships ready to execute this new strategy?
    General Amos. The figure of 38 amphibious ships that you cite 
originated in 2009, when the Secretary of the Navy, the Chief of Naval 
Operations (CNO) and the Commandant of the Marine Corps determined that 
the force structure requirement to support a 2.0 Marine Expeditionary 
Brigade (MEB) assault echelon (AE) lift was 38 total amphibious assault 
ships. Understanding this requirement, but understanding also the 
existing fiscal constraints, the department's leadership agreed to 
sustain 33 total amphibious ships in the assault echelon. This 
agreement accepted risk in the arrival of some MEB AE combat support 
and combat service support. It determined that risk could be accepted 
by planning for 15 rather than 17 amphibious ships for the MEB AE, and 
thus the department's goal was to be able to deploy 30 operationally 
available amphibious ships to meet 2.0 MEB AE OPLAN requirements. The 
most recent force structure review, conducted by the department in late 
2011, has adjusted this requirement to 32 amphibious ships, which 
reflects plans for 11 LHD/LHAs, 11 LPDs and 10 LSDs in commission, plus 
a commitment to maintain the two LSDs to be decommissioned in FY 2013 
in Category B mobilization status.
    The Secretary, the CNO and I are committed to resourcing the 
President's strategic guidance. I am concerned that the competition for 
defense dollars beyond the FYDP will force even more difficult choices 
within Department of Defense and among many important Department of the 
Navy programs. The Secretary has had to make some tough calls in this 
regard, but both the CNO and I accept that the risks accepted in this 
FYDP should allow for many important programs to mature and compete 
successfully in future FYDPs. That said, it is important to change the 
minimum requirement from 32 amphibious warships to 33 over the next 
year.
    There are many programs that are very important to some aspect of 
our strategy, but not all contribute widely to the range of military 
operations that will be executed in the years ahead. In this regard, it 
is hard to overstate the importance of LSD(X) not only to the future 
capability and capacity of the amphibious force, but to the Nation as a 
whole. Like the larger amphibious ships in our fleet, their utility 
extends well beyond their designed purpose. A survey of our allies and 
competitors around the world indicate a sizeable investment in 
amphibious ships.
    Executing the strategy in the Asia-Pacific region requires a 
healthy and balanced fleet, and it is reasonable to expect that the 
Navy and Marine Corps will continue to provide unique and essential 
capabilities to the Middle East and Southwest Asia. Outside of OPLAN 
requirements mentioned above, two factors impact amphibious ship 
capability and capacity. The most demanding factor is requests by 
Combatant Commanders for amphibious forces on steady-state basis. On 
average, these requests amount to more than four Amphibious Ready 
Groups(ARGs)/Marine Expeditionary Units (MEUs), totaling about a dozen 
amphibious ships at a time. Supporting the majority of these requests 
for continuous or near continuous presence would require partially 
overlapping, rotational deployments of amphibious forces from the 
Continental United States. The capacity of the current inventory does 
not support these requests, and thus ARGs are apportioned based upon 
priority. Finally, the occasional (but increasing) use of amphibious 
ships for non-amphibious operations is a significant factor. These uses 
include activities such as the support of special operations, 
minesweeping, security cooperation, medical/humanitarian assistance, 
and disaster relief.
    Since the end of the Cold War, the Navy and Marine Corps team has 
conducted more than 130 amphibious operations, including (among others) 
protection of U.S citizens, supporting major evacuations of innocents 
from dangerous areas, striking terrorist sanctuaries, supporting combat 
operations, providing humanitarian assistance, and countering piracy. 
On average, we have conducted more than five real-world amphibious 
operations a year, more than double the requirement experienced during 
the Cold War. We expect these steady-state requirements to continue 
unabated, even as we preserve the capability and capacity to execute 
operation and contingency plans.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. OWENS
    Mr. Owens. General Amos, is it true that there is a Joint Urgent 
Operational Needs Statement that highlights the need to field an 
unmanned air cargo delivery system? Is the K-MAX system in theater 
today demonstrating actual combat operations to address this urgent 
need?
    General Amos. The Joint Urgent Operational Needs Statement (JUONS) 
CC-0375, approved 11 January 2010, identified the need for an organic, 
precision, unmanned, aerial resupply capability in order to minimize 
loss of personnel, equipment and supplies on ground resupply missions 
and to provide an alternate means of aerial delivery when weather, 
terrain or enemy pose an unsuitable risk to rotary wing assets. The 
KMAX system was selected to fulfill this requirement and has been 
operating in theater providing unmanned aerial logistical support to 
combat operating forces since Dec 17, 2011.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. Regarding the USS Chosin, why after such a big 
investment is this ship being retired early? What was the total cost of 
repairs made to the Chosin last year?
    Secretary Mabus. USS CHOSIN (CG 65) was selected for retirement 
based on the remaining costs to modernize the ship to include hull, 
mechanical and electrical upgrades, combat systems upgrades and MH-60R 
helicopter alterations totaling approximately $328.5M. Total cost of 
maintenance repairs made to USS CHOSIN from January 2011 to present is 
$74.6 million.
    Ms. Hanabusa. Beyond budgetary data, what other factors were 
accounted for when considering the early decommissioning of 7 cruisers? 
How do you feel that a reduced number of ships home-ported throughout 
the Pacific is consistent with the strategic guidance that emphasizes a 
focus on the region?
    Secretary Mabus. The decision to decommission seven Ticonderoga-
class cruisers is consistent with new strategic guidance and was made 
to maintain the proper mix of capability in the battle force in a 
fiscally constrained environment. The Navy selected ships based on an 
analysis of the costs required to sustain a ship's material condition 
and update their combat capability. Selected ships had little or no 
previous modernization completed, and would become increasingly 
expensive to maintain and operate.
    The Navy recently completed a review of our Fleet's worldwide lay-
down. With a focus on supporting the 2012 Defense Strategic Guidance, 
the review considered placement of new construction ships, planned ship 
decommissioning and fiscal decisions like the decommissioning of seven 
cruisers. Based on the results of that review, Navy is making 
adjustments that slightly increase the number of ships homeported 
throughout the Pacific and arrive at a 60% Pacific/40% Atlantic 
distribution of ships by 2020.

    Ms. Hanabusa. Regarding the USS Chosin, why after such a big 
investment is this ship being retired early? What was the total cost of 
repairs made to the Chosin last year?
    Admiral Greenert. USS CHOSIN (CG 65) was selected for retirement 
based on the remaining costs to modernize the ship to include hull, 
mechanical and electrical upgrades, combat systems upgrades and MH-60R 
helicopter alterations totaling approximately $328.5M. The total cost 
of maintenance repairs made to USS CHOSIN from January 2011 to present 
is $74.6 million.
    Ms. Hanabusa. Beyond budgetary data, what other factors were 
accounted for when considering the early decommissioning of 7 cruisers? 
How do you feel that a reduced number of ships home-ported throughout 
the Pacific is consistent with the strategic guidance that emphasizes a 
focus on the region?
    Admiral Greenert. The decision to decommission seven Ticonderoga-
class cruisers was made to maintain the proper mix of capability in the 
battle force in a fiscally constrained environment. The Navy selected 
ships based on an analysis of the costs required to sustain a ship's 
material condition and update their combat capability. Selected ships 
had little or no previous modernization completed, and would become 
increasingly expensive to maintain and operate.
    The Navy recently completed a review of our Fleet's worldwide lay-
down. With a focus on supporting the 2012 Defense Strategic Guidance, 
the review considered placement of new construction ships, planned ship 
decommissioning and fiscal decisions like the decommissioning of seven 
cruisers. Based on the results of that review, Navy is making 
adjustments that slightly increase the number of ships homeported 
throughout the Pacific and arrive at a 60% Pacific/40% Atlantic 
distribution of ships by 2020.

    Ms. Hanabusa. In your testimony you mention it would take 17 ships 
to transport a battalion of marines, what kind of ships make up this 
17? What types of equipment will the ships be carrying? How many 
marines will be transported? What types of capabilities will ports need 
to accommodate this fleet?
    General Amos. For clarification, the force size discussed during 
testimony was a Marine Expeditionary Brigade (MEB) rather than a 
battalion. As currently organized and equipped, a MEB consists of 
approximately 15,000 marines and sailors, thousands of large and small 
caliber weapons, hundreds of armored and unarmored vehicles, over 100 
combat aircraft, and thousands of tons of supplies. The Assault Echelon 
(AE) of that MEB is the portion of the brigade that needs to be moved 
under tactical conditions from ship-to-shore in the first critical 
hours and days of an amphibious assault; and, as mentioned in 
testimony, that AE requires 17 amphibious ships.
    The actual mix of amphibious ship types required to land the AE of 
a MEB would be influenced by the requirements of the specific 
operation, but for planning purposes the notional mix is comprised of 5 
Amphibious Assault Ships (LHA/LHD), 5 Amphibious Transport Dock (LPD), 
and 7 Dock Landing Ships (LSD). The AE includes approximately 11,000 
marines and sailors distributed among headquarters elements, three 
infantry battalions, one artillery battalion, eight aviation squadrons, 
and a variety of organic armor, engineer, logistics, supply and medical 
units, as well as naval support element (NSE) that operates landing 
craft and provides vital support both on the ships and in the landing 
beaches and zones.
    The essential capability that the amphibious fleet, and the Marine 
Air-Ground Task Forces they carry, provide the Nation is the ability to 
influence situations on land without depending on existing port or 
airfield infrastructure. The ships, while at sea, provide the 
strategically-mobile infrastructure required to execute amphibious 
operations. Landing and sustaining operations directly from the sea 
allows us to protect U.S. citizens, allies and interests in austere 
locations, without requiring intact ports, large airfields, imposition 
on a host nation, or an aggravation of sovereignty sensitivities. This 
flexibility allows the U.S. to respond to situations in crisis without 
relying on the permissions of others, and is often our only means of 
doing so.
    In an amphibious operation, the AE would be followed rapidly by an 
Assault Follow On Echelon (AFOE), brought ashore as quickly as possible 
to sustain the operation, provide logistical support, and prepare the 
force for continued operations as the situation dictates. The AFOE of 
the MEB includes approximately 4,000 additional marines and sailors, 
many of the MEB's non-armored vehicles, and a wide range of supplies. 
Depending on operational requirements, the movement of these personnel, 
equipment and supplies can be facilitated without developed ports by 
the use of non-tactical watercraft, floating motorized causeways, and 
supporting capabilities such as an offshore petroleum distribution 
system. The total demand for amphibious ships and associated NSE 
capabilities is driven by several factors. The primary one is the 
requirement reflected in approved operations and contingency plans 
(OPLANs and CONPLANs), the most stressing of which requires the assault 
echelon of two MEBs (notionally 34 amphibious ships) and a variety of 
supporting capabilities. Beyond specific plans or general assured 
access capability, the Combatant Commanders register a significant 
demand for amphibious forces on a steady-state basis. This reflects 
their need for forward deployed, crisis-response capabilities, as well 
as the ability to use low-footprint naval forces to conduct security 
cooperation, medical/humanitarian assistance, and disaster relief. On 
average, these requests amount to more than four Amphibious Ready 
Groups(ARGs)/Marine Expeditionary Units (MEUs), totaling about a dozen 
amphibious ships at a time. Supporting the majority of these requests 
for continuous or near continuous presence would require partially 
overlapping, rotational deployments of amphibious forces from the 
Continental United States. The capacity of the current inventory does 
not support these requests, and thus ARGs are apportioned based upon 
priority.
    In 2009, the Department of the Navy determined that the force 
structure requirement to support a 2.0 MEB assault echelon lift was 38 
total amphibious assault ships. Understanding this requirement in light 
of fiscal constraints, the department's leadership agreed to sustain 33 
total amphibious ships in the assault echelon. This agreement accepted 
risk in the arrival of some MEB AE combat support and combat service 
support. It determined that risk could be accepted by planning for 15 
rather than 17 amphibious ships for the MEB AE, and thus the 
department's goal was to be able to deploy 30 operationally available 
amphibious ships to meet 2.0 MEB AE OPLAN requirements. The most recent 
force structure review, conducted by the department in late 2011, has 
adjusted this requirement to 32 amphibious ships, which reflects plans 
for 11 LHD/LHAs, 11 LPDs and 10 LSDs in commission, plus a commitment 
to maintain two LSDs to be decommissioned in FY 2013 in Category B 
mobilization status.
    Since the end of the Cold War, the Navy and Marine Corps team has 
conducted more than 130 amphibious operations, including (among others) 
protection of U.S citizens, supporting major evacuations of innocents 
from dangerous areas, striking terrorist sanctuaries, supporting combat 
operations, providing humanitarian assistance, and countering piracy. 
On average, we have conducted more than five real-world amphibious 
operations a year, more than double the requirement experienced during 
the Cold War. We expect these steady-state requirements to continue 
unabated, even as we preserve the capability and capacity to execute 
operation and contingency plans.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Can you update the committee on the status of the 
(Mobile User Objective System) MUOS-1 advance waveform terminal 
program? When will these terminals be available for global deployment? 
How long will the U.S. DOD be reliant on legacy UHF satellite services? 
Will coalition forces also be adopting the advanced waveform or is 
there a security issue associated with their use of this new platform?
    Secretary Mabus. The Joint Tactical Radio System Network Enterprise 
Domain (NED) program is expected to complete development on the MUOS 
Wideband Code Division Multiple Access (WCDMA) waveform in September 
2012. This waveform will then be ported on the Handheld Manpack and 
Small Form Fit (HMS) Manpack radio, via an applique to the existing 
form factor. The HMS Manpack will then be the first radio to have the 
MUOS capability. Manpack radios are expected to be available in limited 
quantities in FY13; Navy will be acquiring 50 in FY13 for MUOS testing 
in FY14. The HMS Manpack Program with MUOS capability is targeting a 
risk reduction event with MUOS-1 in 2-3QFY13 as well as a Follow-On 
Test and Evaluation (FOT&E) in 2QFY14. These radios are targeted for 
deployment after a successful FOT&E event.
    The MUOS legacy UHF SATCOM payload is equivalent to one UHF Follow-
On (UFO) satellite, and enables each MUOS satellite to augment the 
current legacy UHF SATCOM constellation. This legacy UHF payload was 
included in the MUOS program to facilitate the transition from legacy 
UHF to WCDMA without any gaps in service to the warfighter and to help 
meet the CJCS legacy UHF SATCOM requirements until at least 2018. The 
new MUOS WCDMA SATCOM capability will reach Full Operational Capability 
by the end of 2016, at which time the JROC mandated requirement for 
legacy UHF SATCOM will be retired. However, the UHF SATCOM Community of 
Interest will continue to keep the existing legacy UHF capability on-
orbit to facilitate a successful transition from legacy UHF to MUOS 
WCDMA, but will not add new legacy UHF SATCOM capacity.
    Coalition forces will not be adopting the MUOS WCDMA waveform 
because of security issues.
    Mr. Scott. How many of the existing UFO satellites, in percentage 
terms, are within 12 months of their nominal design life? Since the 
MUOS advanced waveform terminals are likely to be slow to roll out, 
even with the launch of MUOS-1, is it possible that our UHF systems 
might fail to deliver the currently stated requirement for UHF service?
    Secretary Mabus. Six of the eight UFO satellites currently on orbit 
are at or beyond their 14 year design life. The remaining two have been 
on orbit for 12.3 and 8.3 years respectively.
    Navy has implemented several mitigation activities to extend the 
service life of the existing constellation and increase on-orbit 
capacity. As a result, the current legacy UHF SATCOM provides the 
warfighter with approximately 459 more accesses (111 more channels) 
worldwide than required by the stated CJCS capacity requirement. This 
additional capacity is equivalent to three UFO satellites and provides 
a buffer against unplanned losses in the future. Further, in addition 
to its new Wideband Code Division Multiple Access (WCDMA) payload, each 
MUOS satellite carries a legacy UHF SATCOM payload that provides 
capacity equivalent to that provided by one UFO satellite. As a result, 
MUOS satellites enable a graceful transition from legacy UHF SATCOM 
capability to the new WCDMA capability, which uses cellular telephone 
technology to provide a ten-fold increase in UHF SATCOM capacity and 
throughput to the warfighter.
    When the MUOS legacy payload is taken into account, statistical 
reliability analysis conducted by the Navy has shown that the launch of 
MUOS-1 on 24 February 2012, and the remaining planned MUOS launches in 
July of 2013, 2014, 2015, and 2016, will maintain the full legacy UHF 
SATCOM requirement set by the JROC through 2018. The new MUOS WCDMA 
capability will reach Full Operational Capability by the end of 2016, 
at which time the JROC mandated requirement for legacy UHF SATCOM will 
be retired. Legacy UHF SATCOM capability will continue to be maintained 
beyond 2018, although at reduced levels, to allow time for remaining 
users to transition to the new WCDMA capability.
    Mr. Scott. The U.S. made the decision in 2010 to partner with the 
Australians on a commercially-provided, UHF hosted payload in the 
Indian Ocean Region. Now that the private sector intends to launch an 
identical payload into the Atlantic Ocean Region, what U.S. and Allied 
plans are being made to take advantage of this capability?
    Secretary Mabus. The U.S. DOD partnered with the Australian 
Minister of Defense (not the commercial provider) for access to 250 kHz 
of UHF Narrowband SATCOM on a commercial satellite payload that 
Australia is leasing over the Indian Ocean Region from 2012 to 2027. In 
exchange, the U.S. will provide the Australians access to 200 kHz of 
spectrum over the Pacific and 50kHz of spectrum globally from 2018-
2033.
    Since all DOD requirements for UHF SATCOM capacity are projected to 
be met over the Atlantic Ocean Region through 2018, the U.S. DOD is not 
planning to take advantage of this commercially-provided UHF hosted 
payload in the Atlantic Ocean Region.
    Through a combination of the implemented gap mitigation actions, 
commercial leases, international partnerships, and the MUOS legacy 
payloads, the DOD UHF SATCOM leadership is maximizing technical and 
fiduciary efficiencies to ensure the warfighter has access to legacy 
UHF SATCOM capacity that meets the CJCS requirements and provides a 
buffer against unplanned losses. Despite projected losses in the UFO 
constellation, current predictions indicate that the UFO constellation 
augmented by the MUOS legacy payloads will likely provide the required 
legacy UHF capacity in all AORs through at least 2018. MUOS WCDMA 
terminals are projected to be available in 2013 and will start fielding 
in 2014. Extended availability of legacy capacity will allow the MUOS 
WCDMA-capable constellation to reach Full Operational Capability and 
the corresponding terminal programs to synchronize fielding timelines. 
Because DOD requirements are met for the foreseeable future, the U.S. 
Navy is not pursuing any additional commercial UHF SATCOM capacity at 
this time. The Navy will continue to monitor the health of the current 
UHF SATCOM constellation for any signs that it is degrading more 
rapidly than currently projected. If it appears the level of legacy UHF 
SATCOM service will fall below CJCS requirements, the Navy will revisit 
all options, including commercial leases and hosted payloads, to 
maintain the current level of legacy service to the warfighter until 
the transition to the MUOS WCDMA capability is complete.
    Additional details will be available in the Report to the Senate 
Armed Services Committee on ``Ultra High Frequency (UHF) Satellite 
Communications (SATCOM) Requirements and Options for Additional 
Capacity'' to be submitted by the end of March 2012.
    Mr. Scott. Given that this commercial capability would not cost 
anything upon launch, wouldn't its augmentation and license to launch 
act as insurance should another UFO satellite reach a point of failure? 
We hear from Combatant Commands and other services that the demand for 
UHF satellite communications is very high and that many requests are 
denied. (i.e. there is high demand). Can you address this?
    Secretary Mabus. The Department of Defense provides capability 
based on CJCS mandated requirements. Navy conducted a statistical 
analysis of the reliability of the UHF Follow-On (UFO) satellite 
constellation and, when combined with the launches of legacy UHF 
payloads on Mobile User Objective System (MUOS) satellites, determined 
that DOD legacy UHF SATCOM CJCS mandated requirements are projected to 
be met through 2018. MUOS satellites were designed to enable a graceful 
transition from legacy UHF SATCOM capability to a revolutionary new 
SATCOM Wideband Code Division Multiple Access (WCDMA) capability, which 
uses cellular telephone technology to provide a ten-fold increase in 
UHF SATCOM capacity and throughput to the warfighter.
    To mitigate against unplanned losses of additional UFO satellites, 
Navy has implemented several mitigation activities to extend the 
service life of the existing constellation and increase on-orbit 
capacity. As a result, the current legacy UHF SATCOM provides the 
warfighter with approximately 459 more accesses (111 more channels) 
worldwide than required by the CJCS capacity requirement. This 
additional capacity is equivalent to three UFO satellites and provides 
a buffer against unplanned losses in the future. Additionally, each 
MUOS satellite carries a legacy UHF SATCOM payload that provides 
capacity equivalent to that provided by one UFO satellite.
    Navy does not approve or disapprove spectrum licensing requests. To 
obtain a license for any commercial UHF payload, the commercial vendor 
must formally submit the application to operate their UHF payload to 
the Federal Communications Commission (FCC). The FCC would forward the 
application to the National Telecommunications and Information 
Administration (NTIA). The NTIA would then request a formal response 
from the Department of Defense (DOD). The DOD would evaluate the 
application and provide the NTIA with a formal response. The Navy is 
not currently aware of any pending UHF SATCOM licensing requests.
    Additional details will be available in the Report to the Senate 
Armed Services Committee on ``Ultra High Frequency (UHF) Satellite 
Communications (SATCOM) Requirements and Options for Additional 
Capacity'' to be submitted by the end of March 2012.
    Mr. Scott. How many jobs would be created if U.S. shipyards were to 
build 10 diesel submarines for the Republic of China Navy?
    Secretary Mabus. As there is no current plan to build submarines 
for Taiwan, the Navy has not speculated on the many variables that 
influence jobs attributed to design, production, testing, training, or 
any other aspect related to the idea.
    Consistent with the provisions in the Taiwan Relations Act, the 
United States makes available to Taiwan defense articles and services 
in such quantity as may be necessary and appropriate.

    Mr. Scott. How would you describe the relationship between the U.S. 
Navy and the Republic of China Navy? What impact does the ban on U.S. 
flag officers visiting Taiwan have on enhancing and building upon this 
relationship?
    Admiral Greenert. Within the guidelines of the 1979 Taiwan 
Relations Act (TRA), the relationship between the U.S. Navy and Taiwan 
Navy is close, positive and productive despite the ban on U.S. flag 
officers visiting Taiwan. The U.S. and Taiwan navies have maximized 
every available avenue within the guidelines of the TRA to minimize the 
negative impact of the limitations imposed by the law. Representatives 
for the U.S. and Taiwan navies meet annually to discuss how best to 
meet the needs of the Taiwan Navy with courses of instruction, foreign 
military sales, and U.S. exercises that Taiwan Navy personnel can 
observe. In addition, the TRA does permit Taiwan flag officers to visit 
the U.S. enabling flag officers from the two Navies to regularly meet 
and maintain productive relationships.
    Mr. Scott. What opportunities exist for closer cooperation between 
the U.S. Navy and the U.S. Coast Guard?
    Admiral Greenert. The U.S. Navy and U.S. Coast Guard remain 
committed maritime partners. The capabilities each service provides are 
critical to the defense of this Nation and our national interests. As 
we both face challenging fiscal times, seeking opportunities to capture 
synergy between these maritime partners enables both Services to 
leverage the other's capabilities and resources.
    While many formal agreements already exist between the Services to 
promote the sharing of capabilities and resources, new agreements are 
being forged to base ships and aircraft at each other's airfields and 
port facilities. Sharing of information on small craft/boat 
capabilities and procurement plans has begun to reduce costs and help 
Service leadership identify opportunities to increase our operational 
or acquisition efficiency. Currently, both Services are working closely 
on the Coast Guard's proposed acquisition of the Offshore Patrol Cutter 
to ensure its naval warfighting capabilities meet the needs of the 
projected threat environment. This coordination is also present for 
existing platforms and emerging capabilities as evidenced by the joint 
integrated process team helping to develop and test the ship-based 
unmanned aerial surveillance systems onboard the National Security 
Cutter.
    Through the annual staff talks process, we plan to discuss 
opportunities for closer coordination on ship and aircraft resourcing 
to meet drug interdiction goals in light of planned frigate retirements 
and smaller Coast Guard and Navy fleet sizes in the future. Our 
services are also finalizing an agreement that provides fiscal 
authority to the Navy to embark Coast Guard and Pacific Island Nation 
law enforcement personnel during transits through the Western and 
Central Pacific to conduct fisheries law enforcement operations.
    Our two services have historically sought efficiency and close 
cooperation due to the nature of our mission. In the near and distant 
future, we will continue to do so.
    Mr. Scott. Will icebreaking be a future mission of the U.S. Navy?
    Admiral Greenert. No. In 1965, the Department of the Navy and 
Treasury signed a memorandum of agreement on the operation of 
icebreakers and the mission to address the national need for 
icebreaking. This agreement provided for the permanent transfer of 
jurisdiction, control over and responsibility for operating and manning 
icebreakers to the U.S. Coast Guard.

    Mr. Scott. How would you describe the relationship between the U.S. 
Marine Corps and the Republic of China Marine Corps? What impact does 
the ban on U.S. general officers visiting Taiwan have on enhancing and 
building upon this relationship?
    General Amos. Governed by U.S Government guidance on the ``One 
China Policy,'' the U.S. Marine Corps relationship with the Taiwan 
Marine Corps is close and cooperative, with the objective of ensuring 
that the Taiwan Marine Corps is an effective component of the Taiwan 
armed forces. The USMC-Taiwan Marine Corps interaction includes regular 
contact at the staff officer (O6-O4) level, along with liaison visits 
both ways. Taiwan Marine Corps students attend USMC schools on a 
regular basis, and Taiwan Marine personnel often observe USMC 
exercises. We have sold (via the U.S. Department of State's Foreign 
Military Sales program) fifty four AAV-7 assault amphibious vehicles to 
the Taiwan Marine Corps to provide tactical amphibious transport for an 
infantry battalion. The two services have discussed the possibility of 
an additional sale of AAV-7s, but this is an ongoing issue. Concerning 
general officer travel visits to Taiwan, we are able to effectively 
work within policy restrictions to build and maintain an active, 
cooperative relationship.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. In December, my colleagues and I included a 
requirement for DOD to produce a report on the cost of LEED and other 
green building rating systems. It also included a ban on LEED Gold and 
Platinum (unless justified). Following passage of this requirement, a 
Navy statement, cited by the Federal Times claims ``the Navy is moving 
ahead with its plan to certify all of its buildings by the end of 
Fiscal Year 2013.'' Can you give me an update on your plans to address 
the language we included in the Authorization bill last year? Are you 
or any of the Services moving forward with a LEED policy? Are you 
considering other green building rating systems or alternative 
approaches to your green building policy? If so, please provide me with 
an update.
    Secretary Mabus. The Department of the Navy (DON) has taken steps 
to ensure full and immediate compliance with fiscal year (FY) 12 
National Defense Authorization Act (NDAA) language pertaining to 
expenditure of funds for achieving LEED Gold or Platinum certification.

    Mr. Palazzo. The movement of the LHA outside the Future Years 
Defense Plan and cancellation of LSD (X) inside the FYDP indicate large 
changes in the requirements for amphibious ships and Marine Corps 
doctrine at a time when global strategy would suggest otherwise. Do you 
believe this is a permanent shift? If it is not a permanent shift, what 
is your assessment of the impact to the industrial base? Will these 
ships be available for the same price after the interruption? Will 
there be an experienced builder able and/or willing to restart the 
production? Is the industrial base a consideration you make in these 
programmatic decisions?
    Admiral Greenert. The Navy is committed to maintain amphibious lift 
capacity for 2.0 Marine Expeditionary Brigades (MEB). Our decision to 
delay the next LHA by one year from FY16 to FY17 for the FY2013 
Presidential Budget does not change the overall inventory of amphibious 
ships, but does address our fiscal constraints and maintains a balanced 
fleet of ships across all warfare areas.
    Although LSD(X) RDT&E profile was adjusted, the program was not 
cancelled. An Analysis of Alternatives (AoA) for the LSD(X) program is 
required to identify the most effective configuration for the next 
amphibious ship and will commence in spring 2012.
    Industrial base impacts were considered by Navy leadership when 
readjusting our shipbuilding plan. The impacts of these moves are 
considered minimal. Since this is only a one year delay to the third 
ship of the LHA(R) program, there will be no production restart impacts 
or increases in the real (i.e., taking out inflation) cost of the ship.

    Mr. Palazzo. The movement of the LHA outside the Future Years 
Defense Plan and cancellation of LSD (X) inside the FYDP indicate large 
changes in the requirements for amphibious ships and Marine Corps 
doctrine at a time when global strategy would suggest otherwise. Do you 
believe this is a permanent shift? If it is not a permanent shift, what 
is your assessment of the impact to the industrial base? Will these 
ships be available for the same price after the interruption? Will 
there be an experienced builder able and/or willing to restart the 
production? Is the industrial base a consideration you make in these 
programmatic decisions?
    General Amos. The movement of LSD(X) does not indicate any large 
changes in the requirement for amphibious ships. At the request of the 
Commandant of the Marine Corps, the Chief of Naval Operations and the 
Secretary of the Navy moved the early funding of the third LHA, LHA-8, 
back into the FYDP by placing it in FY17. The Marine Corps is very 
sensitive to the impact of ship building decisions on the industrial 
base. While the Marine Corps does provide lift requirements, analysis 
and input to the Navy for use in developing the Long Range Shipbuilding 
Strategy (LRSS), the Navy ultimately develops and submits the LRSS to 
Congress.

                                  <all>

</pre></body></html>
